<html>
<title> - REVIEW OF THE 9/11 COMMISSION'S INTELLIGENCE RECOMMENDATIONS</title>
<body><pre>[Senate Hearing 108-614]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-614

      REVIEW OF THE 9/11 COMMISSION'S INTELLIGENCE RECOMMENDATIONS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                   SEPTEMBER 21, 2004--WASHINGTON, DC

                   SEPTEMBER 22, 2004--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-943                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director

                            C O N T E N T S

                              ----------                              

                      Tuesday, September 21, 2004

                                                                   Page
Statement of Hon. Henry A. Kissinger, Ph.D., former Secretary of 
  State..........................................................     1
Opening Statement of Senator Ted Stevens.........................     1
Statement of Senator Robert C. Byrd..............................     2
Prepared Statement of Dr. Henry Kissinger........................     5
Statement of Senator Ernest F. Hollings..........................    14
Statement of Senator Conrad Burns................................    16
Statement of Senator Kay Bailey Hutchison........................    17
Statement of Senator Herb Kohl...................................    19
Statement of Senator Thad Cochran................................    20
Statement of Senator Pete V. Domenici............................    21
Statement of General Joseph Ralston, U.S. Air Force [ret.], 
  former Commander, U.S. European Command........................    25
Statement of Admiral Dennis C. Blair, U.S. Navy [ret.], former 
  Commander, U.S. Pacific Command................................    27
Prepared Statement of Admiral Dennis C. Blair....................    28
Statement of Admiral James O. Ellis, U.S. Navy [ret.], former 
  Commander, U.S. Strategic Command..............................    29
Prepared Statement of James O. Ellis, Jr.........................    31

                     Wednesday, September 22, 2004

Opening Statement of Senator Ted Stevens.........................    43
Statement of Senator Robert C. Byrd..............................    44
Statement of Senator Daniel K. Inouye............................    45
Statement of Senator Pete V. Domenici............................    46
Statement of Dr. John J. Hamre, President and CEO, Center for 
  Strategic and International Studies............................    47
    Prepared Statement...........................................    49
Statement of Hon. Richard A. Posner, Judge, Court of Appeals for 
  the Seventh Circuit............................................    53
    Prepared Statement...........................................    55
Statement of Dale Watson, former Executive Assistant Director of 
  Counterterrorism and Counterintelligence, Federal Bureau of 
  Investiga- 
  tion...........................................................    63

 
      REVIEW OF THE 9/11 COMMISSION'S INTELLIGENCE RECOMMENDATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2004

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Bond, Burns, 
Craig, Hutchison, Byrd, Hollings, Kohl, and Murray.
STATEMENT OF HON. HENRY A. KISSINGER, Ph.D., FORMER 
            SECRETARY OF STATE


                opening statement of senator ted stevens


    Chairman Stevens. We will proceed with the hearing now.
    Dr. Kissinger, we are honored to have you appear before our 
committee this morning. We appreciate your making yourself 
available to testify on this important subject.
    For the information of members, we have two panels this 
morning. We will start off with Dr. Kissinger, then we will 
hear from three former military commanders in chief, who will 
provide us with their perspective on the 9/11 Commission 
recommendations, how those recommendations might impact the 
warfighter and readiness within the Department of Defense.
    Appearing in that panel will be: General Joe Ralston, 
United States Air Force, retired, and former commander of the 
U.S. European Command and Supreme Allied Commander of Europe 
and the North Atlantic Treaty Organization (NATO); Admiral 
Dennis Blair, United States Navy, retired, former commander, 
U.S. Pacific Command; and Admiral James Ellis, Jr., retired 
former commander of the U.S. Strategic Command.
    We appreciate each of you witnesses being with us this 
morning and look forward to your testimony. I think it is 
really grand to have the effort that you make as former members 
of the Government, here at your own expense, and we really do 
appreciate that.
    The purpose of the hearings is to address the 
recommendations of the 9/11 Commission report. For your 
information, I have read the commission report and I reread it, 
and I believe the recommendations presented following that 
report do not reflect the report itself. From what I have seen 
in both Afghanistan and Iraq--Senator Hollings was on that 
trip--there has been substantial change in the operations and 
methods of intelligence-gathering since September 11, 2001, 
both within our civilian intelligence agencies and uniformed 
military.
    We are holding these hearings to listen to those who are 
experienced in intelligence, either as direct participants or 
as consumers. We must listen to those who have been involved 
and seek their opinions as we seek ways to reform the 
intelligence community.
    I think we should all keep in mind that of the total 
personnel in the intelligence community, 175,000 persons, 
150,000 are military personnel. The budget for their needs is a 
majority of the total intelligence budget. That gives, I feel, 
this committee a substantial interest in these recommendations 
which we are considering.
    Senator Byrd, do you have an opening statement, please, 
sir?


                  STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. I do, Mr. Chairman. It will be very brief.
    I thank you for holding these hearings on the 9/11 
Commission's recommendations for intelligence reform. The 
Appropriations Committee plays an important role in helping to 
define and fund the priorities of the intelligence community, 
and it is only fitting that we should bring the committee's 
unique perspective to the debate on restructuring the 
intelligence community and Congress' role in overseeing 
intelligence programs.
    Although the focus of the 9/11 Commission was on the 
intelligence failures that led up to the disastrous attack on 
our Nation in 2001, Congress has a broader charter, to consider 
the root causes of the faulty and misleading intelligence that 
helped to steer this country into war with Iraq. We must be 
ever mindful that the intelligence failures that led up to the 
9/11 attack on America do not necessarily stem from the same 
organizational or operational flaws that led to the false 
conclusions that Iraq harbored vast stockpiles of weapons of 
mass destruction, or that the Iraqis would welcome us with open 
arms as liberators. Addressing the flaws that led to 9/11 may 
or may not remedy the flaws that led us into war with Iraq.
    Mr. Chairman, I firmly believe that we should not rush 
pell-mell into making sweeping intelligence changes simply for 
the sake of change. We have seen in the past the results that 
follow the rush to judgment without sufficient consideration of 
the possible consequences of our actions. The disastrous 
stampede to pass the Iraq war resolution and to create a brand 
new Department of Homeland Security in the run up to the 2002 
elections should give us sufficient pause to think twice before 
we attempt to reorganize crucial intelligence activities with 
one eye on the clock and one eye on the polls.
    That said, it appears that the momentum in Congress is 
moving toward enactment of some type of intelligence reform 
before we adjourn for the year. I think we should wait until 
next year, when we can take more time, and not act in such 
haste. The more scrutiny we can give to the various proposals 
that are on the table, the better off we will be.
    So I appreciate your adding this series of hearings to the 
record of debate, and I look forward to hearing from our 
witnesses. I especially look forward to hearing from Dr. 
Kissinger, with whom I have fond memories of serving together 
in the past several years ago. I look forward to your 
testimony, Dr. Kissinger. Thank you for coming.
    Chairman Stevens. Dr. Kissinger, we appreciate your being 
here and are pleased to listen to your comments.
    Dr. Kissinger. Mr. Chairman, Senator Byrd, thank you for 
giving me this opportunity to appear before you and for the 
warm comments that have been made. I submitted a statement to 
this committee and I will focus on reading some excerpts from 
it, and of course I stand behind the whole statement. But I 
wanted to give the maximum opportunity for questions.
    Chairman Stevens. Your statement will appear in the record 
as though you read it, Dr. Kissinger. So proceed as you wish.
    Dr. Kissinger. I will be very brief in my statement. What I 
say and what I have written should be read in conjunction with 
a joint statement that is being issued today by the following 
group of individuals: former Senator Boren, former Senator 
Bradley, former Secretary of Defense Carlucci, former Secretary 
of Defense William Cohen, former Director of the Central 
Intelligence Agency Robert Gates, former Under Secretary of 
Defense John Hamre, former Senator Gary Hart, myself, former 
Senator Sam Nunn, former Senator Warren Rudman, and former 
Secretary of State George Shultz.
    It is obviously a bipartisan group, and we are concerned 
that the reforms of the magnitude that are being talked about 
and with the impact that they will have on the conduct of 
intelligence and on the national security machinery should not 
be rushed through in the last weeks of the congressional 
session in the middle of a Presidential election campaign. The 
consequences of this reform will inevitably produce months and 
maybe years of turmoil as the adjustments are made in the 
operating procedures of the national security apparatus and of 
the intelligence machinery. That is inherent to reform.
    But we should not have to explain in retrospect why it was 
so necessary to come to a conclusion in the middle of a 
Presidential election campaign. Whatever decisions are made 
this week, we will have to deal with the immediate terrorist 
challenge by the apparatus that now exists, as it has already 
been reformed in the light of the experience of September 11. 
So urgency should not trump substance.
    Now, second, I in my statement and then together in another 
statement with the distinguished group that I mentioned to you, 
we have listed a number of matters that require attention 
within the intelligence community. We have our own views with 
respect to them, but we are not urging specific 
recommendations. What we are urging is a time for reflection 
and a time for consideration, with maybe a short deadline of 6 
to 8 months, but to take reflection and consideration out of 
the immediate pressures of a period that is bound to affect 
thinking.
    I want to raise one particular concern about the function 
of the national director of intelligence, on which so much 
attention is focused. There are many ways his role could be 
conceived. It could be a coordinator. It could be combined with 
the central intelligence director by giving him more powers 
than the director of central intelligence function. But I am 
concerned, and many people to whom I have talked to with 
experience in the field, are deeply concerned that if the 
director becomes the President's principal intelligence 
adviser, how is he going to be staffed?
    Will a new bureaucracy have to be created? What existing 
institutions are going to be dismantled? Can he perform this 
function without moving the analytical branch of the CIA into 
his own office? And if he doesn't do that, will we have 
duplicate analytical branches? And if he does do that, does the 
CIA then become an organization for conducting clandestine 
activities only? And if the relationship between analysts and 
operators is weakened, does the operational branch then become 
rudderless and the academic branch academic?
    As somebody who has operated the National Security Council 
(NSC) machinery, a director who combines domestic and foreign 
intelligence and is given in effect Cabinet status, will make 
it very difficult to maintain the line between analysis and 
policy that everybody with experience considers essential in 
order to have an objective analysis of foreign policy.
    One has to avoid the danger that the policymaker uses 
intelligence to justify his preconceptions and, conversely, 
that the intelligence analyst smuggles in his policy 
preferences in the guise of objective analysis. And if the 
intelligence director achieves quasi-cabinet status and has a 
monopoly on intelligence, his voice, whatever his formal 
position, in NSC deliberations is likely to become 
disproportionate.
    If I can mention one personal experience I had, the 1973 
war between Arabs and Israel took us by surprise. So in this 
sense it was an intelligence failure. But whatever warning we 
had, I as Secretary of State received initially from the 
intelligence unit in the State Department, information which 
called my attention to the deployment of Egyptian and Syrian 
forces close to the demarcation lines. It triggered me enough 
to ask the CIA and, for that matter Israeli intelligence, for a 
report every other day.
    They reported the deployment, but they gave me a different 
interpretation from what my own people did, and I relied too 
much, not on my own people, but on the general process.
    I am simply pointing out that a certain amount of 
competition between intelligence production and a certain 
capability within departments of maintaining intelligence 
sources is not at all undesirable, even if it is harder to plot 
on an organization chart.
    I am also concerned about combining domestic intelligence 
with foreign intelligence under one leadership. Creating an 
intelligence czar with domestic surveillance authority that is 
not under the Attorney General, and measures that separate 
domestic intelligence from law enforcement go against all the 
lessons that democratic governments have learned the hard way.
    I do not believe that a clear distinction can be made 
organizationally between tactical and operational military 
intelligence, and I think my colleagues associated with the 
other statement and John Hamre will speak for them tomorrow, 
have serious questions about an organization chart in which the 
deputies to the director of intelligence are also deputies to 
other Cabinet members. Based on our experience in the 
Government, we do not believe that such a bifurcation of 
authority can work in practice.
    The 9/11 Commission has done an outstanding job in 
assembling the facts bearing on 9/11. They have made many 
important recommendations and they deserve a lot of credit for 
having raised the issues. But I believe before we take 
irrevocable legislative action, an examination should be made 
of the degree of reorganization that could be achieved by 
strengthening the existing institutions and by building on the 
director of central intelligence that already exists.
    In my statement I point out a number of issues: separating 
intelligence from policy, improving the quality of 
intelligence, some of the problems of information-sharing. But 
since you have that statement available, I will be happy to 
answer questions about them.
    Without doubt, I have my own views as to what direction we 
should go. One of these is that emphasizing quality is more 
important than moving boxes on an organization chart, and the 
quality is not dependent primarily on the organization chart. 
But whatever my own view is, at this point my recommendation is 
that Congress adopt a procedure that permits a careful 
examination of the fundamental issues that were raised by the 
9/11 Commission, to draw on the experience of men and women who 
have held key positions in the field of national security, many 
of whom are uneasy about the pace in which restructuring of the 
country's intelligence is being pursued, as well as about some 
of the substance.


                           PREPARED STATEMENT


    Let me conclude on this note and answer your questions. 
Thank you very much, Mr. Chairman.
    Chairman Stevens. Thank you very much, Dr. Kissinger.
    I would like to put in the record the background statement 
of Dr. Kissinger and the op-ed piece that appeared in the 
``Washington Post'' on August 16 entitled ``Better Intelligence 
Reform.''
    [The information follows:]

               Prepared Statement of Dr. Henry Kissinger

    Mr. Chairman: Thank you for inviting me to appear before this 
Committee. Few issues facing the country match the importance of the 
reform of the intelligence community that you are considering. The 
proposals that give the impetus for this effort were put forward by the 
9/11 Commission in a thoughtful, unanimous report. This Commission 
deserves the nation's gratitude for the meticulous manner by which it 
has assembled the facts of that tragedy and the thoughtful 
recommendations it has made. The majority of these proposals have 
either been implemented or are in the process of being implemented.
    But the drastic restructuring of the intelligence community that is 
being proposed transcends the lessons of a single episode, however 
traumatic. It goes to the heart of the national security structure of 
the United States across a spectrum far exceeding the events of 9/11. 
It will basically alter the methods for dealing with the issue of 
terrorism but, equally important, will modify the way judgments about 
the nature of the political and economic forces that will shape the 
world over the next decades are reached.
    Most major policy decisions involve judgments about consequences 
and about facts. Intelligence supplies the indispensable raw material 
from which these judgments are distilled. Any reform must start with 
examining whether its objectives can best be achieved by improving and 
modifying existing institutions or whether a substantial restructuring 
is needed.
    The 9/11 proposals amount to a radical restructuring. To undertake 
such a step in the midst of a war is a major decision requiring the 
most careful consideration. Changes of the scope now being discussed 
will bring with them a long period--perhaps years--of turmoil 
throughout the intelligence community. Care must be taken lest a too 
hasty reorganization create vulnerabilities greater than those trying 
to be solved. Thoughtfulness is more important than speed. This is 
especially the case when decisions are accelerated during an election 
campaign.
    A pause for reflection appears all the more desirable when one 
examines the issues awaiting resolution:
The Role of the Proposed National Director of Intelligence
    The decision to create another layer between the President and the 
existing institutions raises the following problems:
  --If the director is to be the principal intelligence adviser to the 
        President, a new bureaucracy would have to be created to 
        redirect the flow of intelligence throughout the government and 
        sift the intelligence input from the various components of the 
        intelligence community. Where would the personnel for such a 
        structure come from? Does it mean dismantling existing 
        institutions, and which ones? Could the National Intelligence 
        Director function without having the analytic branch of the CIA 
        placed under his or her direction? If the CIA were reorganized 
        in this manner, would it then shrink into an organization for 
        conducting clandestine activities? If the essential 
        relationship between analysts and operators is weakened, does 
        the operational branch become rudderless and the analytical 
        branch too academic?
  --Is the new director to be in control of domestic intelligence? If 
        so, is this compatible with the checks and balances most other 
        advanced democracies have found preferable? Creating an 
        intelligence czar with domestic surveillance authority that is 
        not under the Attorney General, and measures that separate 
        domestic intelligence from law enforcement, go against all the 
        lessons that democratic governments have learned the hard way.
  --How will competing views on intelligence be brought to the 
        President's attention? Indeed, how will competing views emerge 
        in so centralized a structure?
  --Does a National Intelligence Director with such powers weaken the 
        NSC process and the roles of the national security adviser and 
        secretary of state?
  --How is the tactical and operational military intelligence linked to 
        the new structure being envisaged? The proposal to have the 
        Under Secretary of Defense for Intelligence act at the same 
        time as Deputy Director of Intelligence could weaken the 
        authority of both principals.
  --Could some of the objectives sought by reorganization be achieved 
        by strengthening the existing institutions, especially the 
        position of the DCI?

Separating Intelligence from Policy
    This problem has two seemingly contradictory aspects. On the one 
hand, the analytical function needs to be distanced from the 
preferences of policymakers so that analytical conclusions, to the 
maximum extent possible, are based on the evidence and not on the 
policy preferences of particular policymakers. At the same time, care 
must be taken lest analysts push their own preferences under the guise 
of ``objective'' facts.
    Collection, on the other hand, should reflect policy priorities, 
and covert action should be under the close control and scrutiny of 
policymakers. Excessive centralization may defeat both objectives. The 
intelligence chief should not have a policy role or a formal position 
as a member of policy bodies. But the control of clandestine operations 
requires a control that transcends the intelligence community and 
assures that policy and legal considerations are fully taken into 
account.

Improving the Quality of Analysis
    This is the central challenge to reform. As the Senate Intelligence 
Report has pointed out, group think is a major danger. However, 
intellectual conformity and failure of analytical imagination are not 
the only sources of intelligence breakdowns. A major contributing 
factor is the inadequacy of the information base. This reflects 
shortcomings in trained personnel, the vagaries over decades of 
alternating emphasis and assaults on human intelligence, and also 
excessive compartmentalization. Since intelligence thrives on gaining 
access to secret information that is rigorously guarded by its 
possessors, and collection is not always successful in overcoming these 
obstacles, intelligence analysts are frequently forced to make 
analytical judgments with key pieces of information unavailable. 
Strengthening collection by improving human intelligence is one way of 
addressing this problem, but it can never solve the conundrum in a 
fully satisfactory way. What one should expect is that collection 
inadequacies are addressed properly, that analytical judgments are 
professional, and that available information is properly coordinated.
    Encouraging different perspectives and alternative hypotheses is 
desirable. Yet not all hypotheses are equally sound, and some are 
rubbish. There is therefore need for a mechanism to both generate 
options and to establish criteria for choosing between them lest 
policymakers cherry-pick among competing hypotheses and select only 
those that fit their policy proclivities. There must be a systematic 
ability to make professional judgments as to which hypotheses should be 
discarded as inconsistent with the bulk of the evidence.
    Finally, the critical shortage of human expertise must be 
addressed. We not only need more National Security Education Program 
funding, but we need more Americans studying abroad, becoming fluent in 
foreign languages and gaining improved understanding of foreign 
cultures through such an experience.

Information-Sharing
    Different components of the government have different missions and 
priorities that cause them to assign different levels of importance to 
protecting intelligence information. Law enforcement elements want to 
use intelligence to prosecute cases even if this will compromise the 
source. The intelligence collectors fundamentally mistrust the 
reliability of law enforcement elements in protecting the information, 
making them reluctant to share it. This is an inherent problem that can 
be minimized (but not eliminated) through good management. Good 
management requires that, when there are contradictions between using 
intelligence and protecting it, the decisions are made by an 
established procedure. Sharing should be optimized, not mandated in 
detail. To attempt to prescribe all the circumstances in bureaucratic 
or legalistic language would involve so much detail and so many 
exceptions as to defeat its own purpose.

Conclusion
    The magnitude of the tasks outlined here suggests that Congress 
leave itself an opportunity to return to the issue early next year to 
permit a comprehensive approach.
    I confess that my bias is toward coordination rather than 
centralization. The proposals for reform draw on the experience in 
building the current DOD organization. The DNI becomes the DOD, and the 
existing institutions for intelligence turn into the military services. 
But there is an important difference in the missions. Defense must 
build toward unified action; intelligence should serve coherence in 
analysis that aids the decision-making ability of senior policymakers.
    But for present purposes, this is not the key point. I am not here 
to offer answers to the issues I raised. My recommendation to this 
Committee is therefore to adopt a procedure that permits a careful 
examination of the issues involved, drawing on the experience of men 
and women who have held key positions in the field of national 
security, many of whom are uneasy about the pace in which restructuring 
of the country's intelligence is being pursued. Perhaps the task could 
be assigned to the distinguished commission dealing with the issue of 
weapons of mass destruction, which is scheduled to report in March 
2005.
                                 ______
                                 

          [From the Washington Post, Monday, August 16, 2004]

              Henry Kissinger: Better Intelligence Reform

                    LESSONS FROM FOUR MAJOR FAILURES

    President Bush has proposed a new post of National Intelligence 
Director. Not part of the Cabinet or located in the White House, the 
director would be charged with ``coordinating'' the intelligence budget 
and ``working with'' various intelligence agencies to set priorities. 
Sen. John Kerry has supported a more activist role for an intelligence 
director recommended by the Sept. 11 Commission. Both Houses of 
Congress are holding hearings to expedite legislation.
    The sense of urgency in the middle of a Presidential campaign is 
being justified on the grounds that the country is in imminent danger; 
the implication is that the existing intelligence system is not capable 
of dealing with the immediate threats. This argument cuts both ways. 
Reorganization will bring with it months--or years--of adjustment 
throughout the executive branch, and the more sweeping the change, the 
more this will be true. Whatever happens, the short-term threats must 
be dealt with through improvements to the existing structure, which was 
instituted after Sept. 11. As for longer-range threats, care must be 
taken lest a hasty transition to a new system, generate unnecessary 
vulnerabilities. Thoughtfulness is more important than speed.
    Terrorism, forthrightly described by the Sept. 11 Commission as an 
attack from radical fundamentalist Islam, is spearheaded by technically 
private groups basing themselves on the territory of sovereign States 
and impelled by a fanaticism transcending traditional political 
loyalties. Adapting the intelligence system to these new realities must 
start with an understanding of the problems requiring solution. The 
current emphasis is on centralization; the principal disagreements 
concern the locus and authority of the proposed director of 
intelligence--whether he or she should have budgetary authority and 
whether the role should be free-standing or in the Executive Office of 
the President. The basic premise seems to be that the cause of most 
intelligence failures is inadequate collection and coordination. In my 
observation, the breakdown usually occurs in the assessment stage. The 
four major intelligence failures of the past three decades illustrate 
the point:
    First, 1973 Middle East war, which caught both the United States 
and Israel by surprise; second, the Indian nuclear tests of 1998, which 
opened a new era of proliferation threats; third, Sept. 11; and fourth, 
the failure to find weapons of mass destruction in Iraq. In each of 
these intelligence failures--except possibly Sept. 11--the facts were 
at hand. The difficulties arose in interpreting what they meant. Even 
Sept. 11 was ascribed by the Commission to a failure of imagination in 
connecting the dots of available knowledge.
    Before the 1973 Middle East war, the United States and Israeli 
governments were aware of every detail of the Egyptian and Syrian 
buildup. What they misjudged was its purpose. Nobody believed the Arab 
armies would actually attack, because every analyst at every level was 
convinced they were certain to be defeated. Every event, no matter how 
ominous, was interpreted as confirming that premise. Even when the 
Soviet Union withdrew dependents from Syria and Egypt 48 hours before 
hostilities started, it was viewed as caused by Soviet-Arab tensions.
    Similarly, with respect to the Indian nuclear tests, public 
evidence was ignored because the intelligence community did not believe 
India was capable of concealing an actual test.
    On the weapons issue--as the British Butler report on intelligence 
demonstrates--the assessment process broke down when the analysts from 
incontrovertible evidence--a decade of Saddam Hussein's violations of 
the 1991 cease-fire agreement; building of dual-purpose plants for 
chemical and biological agents, efforts to acquire nuclear material; 
elaborate measures of deception--to the assumption that the 
demonstrated capacity to produce had been translated into stockpiles of 
weapons. (As early as 1998 President Bill Clinton, in an address 
explaining the bombing of Iraq, gave specific quantities for chemical 
and biological stockpiles.) That assessment went one step too far. But 
what we know now would not necessarily have changed the calculus for 
preemption. Could the United States wait until weapons were actually 
produced by a country with the largest army in the region, the second-
largest potential oil income, a record of having used these weapons 
against its own population and neighbors, and--according to the Sept. 
11 Commission--intelligence contact with al Qaeda?
    The answer requires a primarily geopolitical, not an intelligence, 
judgment. This is why, in reorganizing the intelligence structure, care 
must be taken to keep the assessment process distinct from geopolitical 
and strategic advocacy. Intelligence is most reliable about events that 
have happened or are about to happen. It grows less definitive about 
the future. Intelligence agencies should be judged by their ability to 
collect information, to interpret it, to keep assumptions from 
determining conclusions and to understand underlying trends.
    It is a fine line, but a crucial one for effective policymaking. 
Most major strategic decisions involve judgments about consequences. 
Intelligence should supply the facts relevant to decision; the 
direction of policy and the ultimate choices depend on many additional 
factors and must be made by political leaders. A National Intelligence 
Director in the Executive Office of the President would erode this 
distinction, give intelligence disproportionate influence in 
policymaking and skew intelligence away from analysis.
    Similarly, the merging of foreign and domestic intelligence under a 
single official unchecked by any institution in the executive branch 
short of the chief executive gives cause for concern. This is not how 
most democracies handle the challenge. The frequently invoked analogy 
to the Joint Chiefs of Staff ignores the fact that the Joint Chiefs, 
while enjoying direct access to the President, must in their daily 
operations refine their ideas in interaction with the civilian Pentagon 
leadership. Until recently, the policy was to raise a wall between the 
foreign and domestic intelligence services to prevent emergence of a 
single, dominant, unchecked intelligence service. Sept. 11 showed that 
this effort had gone too far and impeded the coordination of evidence 
on terrorism. But it does not follow that eliminating the distinctions 
altogether is the best solution.
    Reorganization needs to improve the quality of intelligence at 
least as much as its collection. Policy stands and falls on the ability 
to distilling trends from information. As a free-standing director of 
national intelligence, charged with coordinating (in the President's 
proposal) were running the entire intelligence community (as in many 
Sept. 11 report) solve this challenge? Or does incessantly centralized 
system magnified the inherent danger of intellectual conformity? What 
structure is most likely to achieve a sense for the intangible?
    In practice, most of the proposed reorganization schemes abolish 
the provision in the National Security Act of 1947 that makes the head 
of the CIA also the director of foreign intelligence and entire 
government. The CIA chief has not been able to implement is theoretical 
powers because of the insistence of other agencies or departments--
especially the Pentagon--on autonomy for their share of the 
intelligence process.
    Layering a new National Intelligence Director over the CIA Director 
would have one of two consequences: a world where power flows from 
knowledge, and it would require creation of a massive new bureaucracy 
to redirect the flow of intelligence throughout the government and sift 
the intelligence input from the various components of the intelligence 
community. Where would the personnel for such a structure come from? 
Does it mean dismantling existing institutions, and which ones? Could 
the National Intelligence Director function without having analytic 
branch of the CIA placed under his or her correction? If the CIA were 
gutted in this manner, what would become of the remnant? On the other 
hand, if the national director were without an agency to provide 
support, he or she would become little more than a conduit for the 
recommendations of the various agencies.
    In either event, the CIA Director would no longer have direct 
access to the present, since the national director of intelligence 
would be defined as the President's principal intelligence adviser. 
Other alternative to deserve consideration; for example, enhancing the 
coordinating and budgetary authorities of the CIA Director on foreign 
intelligence, symbolized by changing this title to National 
Intelligence Director. The coordination between domestic and foreign 
intelligence activities could be achieved by institutions such as the 
``National Counterterrorism Center'' proposed by the Sept. 11 
Commission and possibly by a Presidential assistant for national 
intelligence, charged in addition with making certain that significant 
competing intelligence assessments reach the President.
    There is no shortage of schemes of reorganization: the Sept. 11 
Commission, the Senate intelligence report, the Scowcroft Commission, 
the Hamre proposal to centralize collection but leave the analytical 
function in existing institutions. What is urgently needed is a pause 
for reflection to form the various proposals into a coherent concept. A 
small group of men and women with high-level experience in government 
could be assigned this task with a short deadline, say 6 months, based 
on the following principles:
  --Centralization must be balanced against diversity.
  --Foreign and domestic intelligence should not be merged but should 
        be coordinated by task forces, depending on the subject.
  --Special provisions must be made for the systematic enhancement of 
        quality; it cannot be left to moving around boxes on an 
        organizational chart.
    No reorganization plan will work if attention is not paid to the 
morale of the men and women staffing the intelligence services. Despite 
the portrayal of them around the world as devious master planners 
dominating policy, intelligence personnel in the real world are subject 
to unusual psychological pressures. Separated from their compatriots by 
security walls, operating in a culture suspicious of even unavoidable 
secrecy, they are surrounded by an atmosphere of cultural ambiguity. 
Their unadvertised and unadvertisable successes are taken for granted, 
while they are blamed for policies that frequently result from 
strategic rather than intelligence misjudgments.
    Finding themselves in a kind of political wilderness, the 
intelligence services have been under assault for 30 years, ever since 
the floodgates were opened in the 1970s by the Church and Pike 
committees and subsequent probes in the 1980s and 1990s, which 
disclosed the names of many agents and almost all clandestine 
operations. These attacks reflected the political debates of the 
period. Liberals attacked the intelligence community for being too 
ideological and Cold War-oriented. Conservatives were critical because 
they considered the intelligence community not sufficiently ideological 
nor conscious enough of the element of power in international affairs. 
Inevitably, between the term of Directors William Colby and John 
Deutch, the emphasis was to reduce the reliance on agents and to 
emphasize technical means of collection less subject to the allegations 
(and sometimes) the reality of abuse. This was a major contributing 
factor to the shortfall in human intelligence regarding the terrorist 
threat remarked on by all commissions dealing with recent intelligence 
failures.
    For all these reasons, intelligence reorganization needs to bring 
as well some stability for intelligence personnel. Thousands of 
dedicated people participated, at the request of their government, in 
some of the most important battles of the Cold War and are even now at 
the front lines of the war with radical, ideological Islam. Their 
failures must be corrected. But they deserve recognition for their 
service even as the structures in which they function are being 
revised.

                                 ______
                                 
     Guiding Principles for Intelligence Reform--September 21, 2004

    America's security depends on strengthening our intelligence 
collection and analysis. Debate is under way on intelligence reform, 
and harnessing the energy of an election season is a healthy way to 
assure the issue receives the attention it deserves. Racing to 
implement reforms on an election timetable is precisely the wrong thing 
to do. Intelligence reform is too complex and too important to 
undertake at a campaign's breakneck speed. Based on our experience in 
both the executive and legislative branches of the U.S. government and 
on both sides of the political aisle, these are the basic principles we 
believe should guide any reform effort:

Identify the Problems
    Rushing in with solutions before we understand all the problems is 
a recipe for failure. Only after a full appreciation of the 
Intelligence Community's problems--and its strengths--can sensible 
decisions be made about reform, including whether to restructure. 
Moreover, reform will have to be comprehensive to succeed. Addressing 
this or that shortcoming--however grave--in isolation will fail to 
produce the improvement in intelligence capabilities our nation's 
security demands.

Strengthen the Intelligence Community's Leader
    The individual responsible for leading the Intelligence Community 
must be empowered with authority commensurate with his or her 
responsibility. Specifically and crucially, future leaders must have 
the ability to align personnel and resources with national intelligence 
priorities. Whether we maintain the Intelligence Community's current 
structure or create a new one, we must ensure that the Intelligence 
Community's leader has the tools to do his or her job.

Separate Intelligence from Policy
    A fundamental principle for Intelligence Community reform must be 
that the intelligence community remains independent from policymakers. 
Nothing could be more important to a healthy national security 
structure. When intelligence and policy are too closely tied, the 
demands of policymakers can distort intelligence and intelligence 
analysts can hijack the policy development process. It is crucial to 
ensuring this separation that the Intelligence Community leader have no 
policy role. Otherwise, an Intelligence Community leader's voice could 
overwhelm those of Cabinet secretaries and the National Security 
Advisor and deprive the President of the benefit of robust, informed 
policy debate. A single individual with the last word on intelligence 
and a say in policy as well could be a dangerously powerful actor in 
the national security arena--using intelligence to advocate for 
particular policy positions, budget requests, or weapons systems that 
others lacked the knowledge to challenge.
    For this reason, the leader of the Intelligence Community should 
not work inside the White House; he or she should be at arm's length 
from the policy process, not at the President's right hand. Nor should 
the leader become an instrument of diplomacy or policy formulation; his 
or her role should be to support others in these functions. Similarly, 
Intelligence Community reform must not rob Cabinet secretaries of their 
own ability to assess intelligence by centralizing the bulk of 
assessment resources; the secretaries must be able to turn to their own 
analysts for independent perspective and be able to task the 
Intelligence Community leader for input to the policymaking process. 
Finally, to protect against an unhealthy mixing of functions, we 
believe the person who is chosen to lead the Intelligence Community 
should be broadly acceptable to both parties and chosen for his or her 
substantive or management expertise.

Improve the Quality of Analysis
    Intellectual conformity and failure of analytical imagination have 
been the major culprits in most intelligence breakdowns, from our 
failure to predict accurately India and Pakistan's nuclear tests, to 
our misjudgment of Saddam Hussein's weapons of mass destruction 
programs. Improving the quality of the analysis on which policy makers 
rely must therefore be a top reform priority. The best analysis emerges 
from a competitive environment where different perspectives are 
welcomed and alternative hypotheses are encouraged. Intelligence reform 
must institutionalize these traits in the analytical process. To 
preserve their independence, analysts must be insulated from policy and 
political pressure. Finally, we must not only concern ourselves with 
the appropriate structure of intelligence analysis, we must also 
address the critical shortage of human expertise in critical fields. 
Funding for programs to address this deficiency is dangerously low and 
the trust funds for the National Security Education Program will be 
fully depleted within the next two years unless Congress acts.

Ensure More Effective Information-Sharing
    Intelligence Community players have overwhelming cultural and 
bureaucratic incentives not to share their information with each other 
or with those outside the community. These include a natural impulse to 
hoard information to protect turf, and a deeply ingrained passion for 
secrecy. Domestic agencies and foreign agencies, in particular, 
traditionally have resisted sharing information with each other. Yet 
our nation has learned with painful clarity that failure to share, 
coordinate, and connect available intelligence can have devastating 
consequences. The next time an FBI special agent suspects an Arizona 
flight trainee is an al Qaeda terrorist, the Intelligence Community 
needs to know. Reform must fundamentally alter agency incentives and 
culture to require sharing. This must include addressing the excessive 
emphasis on secrecy and classification that inhibits constructive, 
timely information flows, while continuing to respect the need to 
protect genuine sources and methods.

Protect Civil Liberties
    Collection of intelligence is inherently intrusive; spying on 
fellow citizens carries with it great potential for abuse. Even as we 
merge the domestic and foreign intelligence we collect, we should not 
merge responsibility for collecting it. Intelligence reform might well 
create a single strategic coordinator of domestic and overseas 
collection on cross-border threats like terrorism, but exclusive 
responsibility for authorizing and overseeing the act of domestic 
intelligence collection should remain with the Attorney General. This 
is the only way to protect the rights of the American people upon whose 
support a strong intelligence community depends.

Preserve Situational Awareness for Tactical Military Operations
    As we have seen from the skies over Bosnia to the sands and cities 
of Afghanistan and Iraq, tactical intelligence and situational 
awareness are indispensable to our military's unparalleled operational 
success. Any successful intelligence reform must respect the military's 
need to maintain a robust, organic tactical intelligence capability and 
to have rapid access to national intelligence assets and information.

Assure Clarity of Authority for Clandestine Operations
    The war on terrorism has blurred agency roles for some critical 
national security activities. The Department of Defense now performs 
more clandestine and intelligence operations than in the past; 
meanwhile, the CIA's Directorate of Operations engages more in 
traditional military functions, such as the successful campaign in 
Afghanistan. Authority for these newer roles is murky, and there are 
sometimes disparities in the type or level of approval needed for an 
operation, depending on who performs it. The new challenges we face 
mandate a wide range of tools and creative approaches to intelligence. 
But establishing absolute clarity of chain of command, oversight, and 
accountability for clandestine operations is essential.

Reform Congressional Oversight Too
    Intelligence reform will not succeed unless Congressional oversight 
of the Intelligence Community becomes more effective as well. Rather 
than relying on review of agency submissions and after-the-fact 
investigation of failures or abuses, Congress should reach out 
periodically to test and assure the Community's health. Whether 
meaningful legislative oversight demands a major overhaul of committee 
structure or merely a change of philosophy, Congressional reform is as 
vital as changes affecting the Executive Branch.
    Elections are a perfect time for debate, but a terrible time for 
decision-making. When it comes to intelligence reform, Americans should 
not settle for adjustments that are driven by the calendar instead of 
common sense; they deserve a thoughtful, comprehensive approach to 
these critical issues. If, as seems likely, Congress considers it 
essential to act now on certain structural reforms, we believe it has 
an obligation to return to this issue early next year in the 109th 
Congress to address these issues more comprehensively. We hope the 
principles we've suggested will help shape serious discussion of 
reform.

    Chairman Stevens. There are 10 of us and I hope that my 
colleagues would agree that a 5-minute time limit on questions 
for each person would be fair, and we will see if we have the 
necessity for a second round. We do have a second panel.
    Mr. Secretary, I wonder about your statement in one regard. 
There are many voices calling for a strong National 
Intelligence Director, and you have just stated you have 
concerns about that office and its relationship to the 
community as a whole. You want some competition. Could you 
expand on that aspect of your statement?
    Dr. Kissinger. There are really two aspects of that 
question, Mr. Chairman. The first is we already have 
legislation that makes the head of the Central Intelligence 
Agency the Director of Central Intelligence. That legislation 
has not been fully carried out and could also be augmented. So 
I am not opposed to implementing and strengthening that 
legislation.
    My concern is with creating another layer between the 
existing intelligence institutions and the President and 
focusing the whole intelligence concern on the funnel between 
the intelligence director to be created and the President, and 
not also keeping in mind the many lateral communications 
between intelligence analysts and operators that takes place 
daily. The President cannot make all the intelligence 
decisions.
    Second, if one is concerned, as the Senate Intelligence 
Committee report is, about groupthink, that danger becomes even 
greater when you have one Director of Central Intelligence, 
with budgetary and personnel authority, through whom everything 
funnels, and who would have to recreate in essence the 
analytical branch of the Central Intelligence Agency or move it 
into his building. It is not natural for one organization to 
generate competing views.
    So I believe that the danger of groupthink, that the Senate 
Intelligence Committee correctly pointed out, is likely to be 
emphasized by this sort of structure. I believe that a certain 
amount of competition between intelligence analysts is healthy. 
It was certainly my experience when I was in government.
    If I can mention a personal observation, sometimes when I 
got two or three different assessments, I would suggest to 
bring the analysts in and let them explain to me how they came 
to these assessments. The originating agency usually was 
extremely annoyed when I did this, because they claimed that 
this was a way of interfering.
    Now, if I had not had conflicting views I would not even 
have known that I needed to talk to these analysts. But one can 
be of two opinions whether it is a good idea for the White 
House to talk to analysts or not, because it is a form of 
pressure too. But I am not of two opinions about the high 
desirability of getting different perspectives, and I could 
cite many examples from my experience where I found this 
extremely helpful.
    Chairman Stevens. We are looking at a proposition here now 
that would create a committee of the Senate which would have 
legislative, and appropriations authority to oversee a National 
Intelligence Director, who would have unitary control over all 
of the aspects of intelligence, civilian and military, domestic 
and foreign, and have complete authority over preparing and 
presenting the budget and complete authority over moving funds 
from one segment of that community to another. I think I 
probably summarized the total concepts here. In other words, 
unitary control within the Senate, and the House would be 
similar, supposedly, and unitary control of one person in the 
intelligence community.
    How does that strike you in terms of the totality of the 
intelligence mechanism, to have single control and to have this 
relationship develop between four Members of the Congress and 
one director, who will be overseeing all intelligence, foreign 
and domestic?
    Dr. Kissinger. When you have been in the position that I 
and several of the individuals who have signed this statement 
have been, then, with all due respect, something that cuts down 
the number of committees to which you have to report to will be 
perceived as a relief. But this probably goes too far, because 
to have one committee and one unitary organization, with the 
kind of vested interests that will feed into each other, is 
probably following my precept to extreme proportions.
    How much congressional oversight can be reduced and still 
have the element of competition, both within the intelligence 
community and within different perspectives in the Congress, 
this is another one of those issues that ought to be given 
careful consideration. When I say careful consideration, I 
think if we gave it a 6 to 8 months deadline, provide something 
that permits a systematic approach based on the experience of 
many people, I think this is something that we will be grateful 
for in the aftermath.
    Chairman Stevens. Thank you.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Thank you again, Dr. Kissinger.
    If the 9/11 Commission's recommendations for intelligence 
reform had been implemented in 2002, do you think that the 
intelligence community would have come to any different 
conclusion about Iraq's nonexistent weapons of mass 
destruction?
    Should I repeat the question?
    Dr. Kissinger. No, no, I understand. I am thinking. It is 
an important question.
    First of all, the issue really is what happened to these 
weapons of mass destruction, because undoubtedly they were 
there at one point because they were used. And President 
Clinton in 1998 listed specific quantities of weapons that he 
believed they had. Now, in the last report of the inspectors an 
argument is being made that Saddam Hussein was waiting for the 
sanctions to be lifted, after which he would go and do a major 
effort. And it is now conceivable to me that perhaps these 
weapons were destroyed around 2001 and 2002 so that he could 
get the sanctions lifted and then go and do a real production 
effort.
    But be that as it may, we did not know that, and therefore 
the question is why did we not know it? The reason was lack of 
human intelligence and maybe some preconceived notions.
    I do not believe that, given the mind set and given the 
absence of human intelligence, that the conclusions would have 
been fundamentally different, because these judgments were all 
made within, on that issue, a pretty unified intelligence 
assessment. There was no dispute.
    Senator Byrd. So as I understand your response, you do not 
think that the intelligence community would have come to any 
different conclusion about Iraq's nonexistent weapons of mass 
destruction if the 9/11 Commission's recommendation for 
intelligence reform had been implemented in 2002?
    Dr. Kissinger. If the recommendations about strengthening 
human intelligence had been followed, they might come to 
different conclusions. But the organization of a strong central 
director would in my view not have affected the conclusions.
    All the debate or almost all the debate on intelligence 
reorganization now concentrates on experiences from the 
terrorist phase of current foreign policy. But if I look at the 
long-term problems of foreign policy, we have huge 
transformations of the international system going on, shifts of 
the balance of power from the Atlantic to the Pacific, the rise 
of China, India, which will raise questions for intelligence 
analysis of fundamental importance. And we should not draw 
conclusions based only on one traumatic event, and one 
particular experience in relation to Iraq which really grew out 
of that traumatic event.
    Senator Byrd. Mr. Chairman, may I have one second question?
    Chairman Stevens. Yes, sir, I think so.
    Senator Byrd. In your view, Dr. Kissinger, why did our 
intelligence agencies fail so tragically? Was it because of how 
our agencies were supposed to work with each other on an 
organizational chart, or was it because enough money was not 
getting to the right intelligence and homeland security 
agencies?
    Dr. Kissinger. Certainly, human intelligence has had ups 
and downs. But over the period that I have participated in or 
observed foreign policy and intelligence activities, there have 
been periodic assaults, some of them from the Congress, on the 
clandestine operations, which is where human intelligence is 
located. So every 10 years, there has been a shakeup, and it is 
very difficult to maintain a nucleus of able and dedicated 
people under those conditions.
    I think this is one of the problems we had in Iraq, where 
it appears that we had almost nobody on the ground, who could 
give us direct information from their experience. It is 
probably a question of money too, and it is also a question of 
stability and of having enough confidence.
    And also remember that clandestine activities are not 
usually what farm boys of Indiana are trained in, so it tends 
to attract unusual types. So this is something for which we 
have to develop some tolerance in building up the intelligence 
services.
    Senator Byrd. Thank you, Dr. Kissinger.
    Thank you, Mr. Chairman.
    Chairman Stevens. We follow the early bird rule in effect, 
Dr. Kissinger, and Senator Hollings is next.

                STATEMENT OF SENATOR ERNEST F. HOLLINGS

    Senator Hollings. Dr. Kissinger, 44 years ago I judged you 
as one of the outstanding young men in America and I am 
willing, after 38 years of being up here and working with you, 
to still judge you as one of the outstanding young men.
    I say that because I disagree with the tack of your 
particular presentation here this morning. It strikes me as the 
old political axiom, when in doubt do nothing, and stay in 
doubt all the time. Now, if I were the President and a 
terrorist act occurred, say in Utah or up in Maine, this 
afternoon, I would want to call somebody on the National 
Security Council and find out what is what, what happened, 
namely a coordinator of domestic and foreign intelligence. When 
the terrorist comes into this country through Mexico or 
someplace, foreign and domestic intelligence has got to be 
coordinated.
    I know that I have that in Karl Rove for political 
intelligence. I am keeping up. I am on top. I know and have got 
to know, because the election is coming up. So, similarly with 
respect to the threat of terrorism in this country, what we 
need is an intelligence coordinator, both domestic and foreign, 
within the National Security Council.
    This is exactly what Harry Truman did in 1947. He had the 
intelligence people come in and say: This is the situation, Mr. 
President. And the Defense Department would come in and say: 
Wait a minute; that is not in our national security interest. 
And about the time he was about to do that, the State 
Department would say: That is really in opposition to our 
foreign policy.
    So he said: I am going to get you all in here as a National 
Security Council and you all beat up on each other and give me 
two or three options, and I will make a decision. The buck 
stops here with Harry.
    Now, instead of just foreign threats we have also got 
domestic threats. And your testimony is that you would not 
combine foreign intelligence with the domestic intelligence. It 
is not law enforcement. It is the coordination of intelligence, 
and I speak from experience, not only of 50 years analyzing 
President Truman's operation, but particularly the intelligence 
task force of President Hoover back 50 years ago when I served 
on the Hoover Commission.
    We had Allen Dulles and he came and he said: I am busy 
trying to keep on top of things; I do not have time to get over 
to General Erskine and General Schuyler at the Defense 
Department, or over to the State Department with Park Armstrong 
and Scott MacLeod. I remember him, I worked with him. I spent 2 
years investigating the intelligence of the State Department as 
well as the CIA, CID, Army, Navy, Air Force, security 
clearances, atomic energy, Q clearance, all these things.
    Now, I speak from experience of 8 years on the Senate 
Intelligence Committee. Bill Cohen and I came back from a trip 
to China when Desert Storm was about to break out and we went 
into the Intelligence Committee to get the brief on Baghdad and 
they said: We do not have a man in Baghdad. The CIA did not 
have somebody in Iraq. The CIA did not have somebody in Iraq. 
That is 13 years ago. Now we hear from the CIA again that we 
still did not have anybody there. Here we are going to invade a 
country.
    The problem is not the agency. The problem is not the 
Department. The problem is the personnel on the one hand, the 
analysts on the other hand. General Schwartzkopf told Senator 
Stevens and myself, look, those analysts at the CIA in Desert 
Storm, they cut the corners and rounded the edges and 
everything else, he used the word ``mush.'' He said: I had to 
depend on my pilots for intelligence.
    The one thing I need this afternoon on a terrorist act in 
this country is a coordinator. Now, what is wrong with: There 
is hereby created a national intelligence coordinator, both 
domestic and foreign, in the National Security Council with 
authority over all intelligence agencies as the President can 
see fit. Do not worry about confirmation; get the President's 
man; he has got to depend on him.
    He can do this by Executive order right this minute. That 
is how Truman established the National Security Council. But we 
have got to get the responsibility fixed. It reminds me of 
being aboard ship in World War II: When in danger, when in 
doubt, run in circles, scream and shout. We need not disturb 
any of the agencies. We do not have to move anything, we do not 
have to change over anything, we do not have to bifurcate, we 
do not have to do any of those things.
    We can study, as you say, in a deliberate fashion the 9/11 
Commission report. But in the mean time between now and the end 
of this year before the Congress adjourns, give the President 
one coordinator there in his National Security Council and let 
him start seeing the problems and coordinating.
    What is wrong with that?
    Dr. Kissinger. I am not saying that nothing should be done. 
I think conclusions should be drawn. My major point is it 
should be done with some deliberation.
    Second, with respect to your specific question, I said in 
the concluding part of my statement, I am in favor of 
coordination, but not centralization. So if the President were 
to appoint a coordinator whose specific task is to find out 
what is available----
    Senator Hollings. We recommended this 50 years ago when I 
was on the Hoover Commission.
    Dr. Kissinger. I would favor that, or I would at least look 
at it with enormous sympathy. Now, whether that coordinator 
should be in the Office of the National Security Adviser or 
whether he should be freestanding, that is one of the things 
that a deliberate approach should go into. So I think it is 
perfectly appropriate and important to make sure that there is 
one focal point.
    What bothers me is if that focal point becomes the chief 
operator of the whole intelligence apparatus, there is such a 
degree of centralization that the existing institutions 
atrophy; and one has to go through months and years of finding 
out how the practical lines of authority go, because no matter 
what is written in legislation, when the system begins 
operating, all the components will start maneuvering. That is 
what concerns me.
    But your word of ``coordination'' and focal point of 
coordination should be an element. It needs to be considered 
how to do it. But then I think major aspects of it could be 
done now and much of it is being done already in the National 
Security Council. But it could be strengthened and should be 
strengthened.
    Chairman Stevens. Thank you very much.
    Senator Burns, you are recognized for 5 minutes.

                   STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Thank you, Mr. Chairman.
    I just want to ask you, Dr. Kissinger, regarding the 
appointment of a National Intelligence Director, did you 
recommend any length of term or how he would be appointed, 
whether he is part of the White House staff, or approved by the 
Senate.
    Dr. Kissinger. Ideally, of course, he should be 
nonpartisan. In the early days of the intelligence machinery, 
CIA Directors were kept from administration to administration. 
I would be reluctant to have a fixed Presidential term, a fixed 
term set by the Congress, which would remove the intelligence 
director from Presidential control.
    What worries me, having attended many NSC meetings, is if a 
quasi-cabinet member walks in there and says, I am the only 
source of intelligence and I am telling you the consequences of 
your actions objectively are the following, what are the 
Secretary of State, the Secretary of Defense going to say in 
reply? It shifts the system in the direction of the 
intelligence director, and therefore I would give him a normal 
Presidential appointment, subject to the President's capacity 
to remove him.
    The presumption should be that he should be nonpolitical. 
At the beginning of the Nixon administration, President Nixon 
ordered the following procedure: The CIA Director was called in 
at the beginning of the NSC meeting, he gave his briefing of 
the factual situation as he saw it, and then he was asked to 
leave, because he was not supposed to participate in the policy 
formulation.
    We could not make it stick because halfway through the 
meeting somebody would then say, if we do option B, what are 
the consequences? Well, then we would have to haul the Director 
back in. So you cannot make an absolute distinction between 
policy and intelligence data, but you should make a big effort, 
because otherwise the temptation will be for the policymakers 
to use intelligence to support their preferences and vice 
versa.
    Senator Burns. I agree with that assessment and I agree 
with the term being subject to the President's discretion. From 
your Post article, the last thing you say, in order to take 
politics and policy out of the position of National Director of 
Intelligence--you say in your last paragraph or item that we 
must reform congressional oversight too, and that is spelled t-
o-o.
    Any time that you are going to have oversight by Congress, 
you are going to have disagreements on policy. I do not know 
how we separate the two--oversight and policy.
    It is very, very difficult to do. Adding another layer of 
bureaucracy between the Congress and the President and the 
actual workings of the intelligence community does not 
accomplish much, and can hinder the ability to get information 
in a timely manner.
    Dr. Kissinger. As I said, I am uneasy about the extra layer 
and I am uneasy about some of the specifics, where under 
secretaries of agencies are simultaneously deputy secretary or 
deputy intelligence directors.
    Senator Burns. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Hutchison, you are recognized for 
5 minutes.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman.
    I thank the distinguished former Secretary of State for 
coming and talking to us. I believe that you are correct. I am 
glad that so many of the former Secretaries of Defense and 
State are stepping up to say it would be ludicrous to push 
something through in the last 2 weeks of a session in a 
Presidential election year unless we have a firm understanding 
of how we can make it better.
    Let me ask you a question about the methodology by which we 
could have better coordination, but still assure that there is 
some kind of capability for different views to be heard. In the 
intelligence community there is so-called red teaming, where 
analysts are able to take a recommendation at the lower levels 
and shoot holes in it. Do you think that we could fashion an 
office for alternative analysis charged with some limited 
autonomy? You have to have one person in charge, but like an 
inspector general, where there is some ability for an office to 
take the data, conclusions, assumptions, and give an 
alternative view. Is there a way that we could accomplish this 
in a responsible way in your opinion?
    Dr. Kissinger. How to improve the quality of intelligence 
is one of the key issues. I have thought, but am not yet in a 
position to recommend it firmly, that perhaps in the office of 
the director one could create a group of outside consultants 
whose job would be to make sure that the most important 
questions have been asked and to prevent that urgent issues 
drive out the important issues; and second, to make sure that 
serious alternative hypotheses have been considered.
    The problem is one has to make sure that alternatives are 
considered, but not every alternative is valid and there may be 
some wacky ones that have to be eliminated in the process, but 
should not be eliminated just because they run counter to the 
existing views.
    So I've thought of maybe creating an outside group, or 
maybe to create something like the Rand institution used to be 
for the Air Force for the intelligence community, whose job 
would be to make middle-term and long-term studies that can be 
read quickly into the intelligence system. Reforms like this 
and maybe others that others could think up I think are very 
important to make sure that we really ask the question of where 
we should be going and not just the question of how to solve 
our immediate issues.
    Senator Hutchison. Are you speaking of an internal advisory 
committee such as the President's Foreign Intelligence Advisory 
Board?
    Dr. Kissinger. Recast something, recast the President's 
Foreign Intelligence Advisory Board, that has a systematic role 
and not just a role where it defines, something that is more 
geared into the intelligence apparatus, and whose members are 
specifically selected for their contribution, for their 
potential contribution to middle-term and long-term thinking.
    Senator Hutchison. If you were going to do it within the 
Department, how would you structure an office with the ability 
to give an alternative view, but also the ability to throw out 
assumptions or recommendations that just don't make sense or 
are insupportable?
    Dr. Kissinger. It's why I suggested taking 6 to 8 months. I 
have not worked this idea out and this is something that a 
number of us, maybe a number of the people who signed that 
other document, who have had experience, would be able to 
structure. But it ought to be possible to get a bipartisan 
group of people with experience who are not geared to the 
immediate policy debates and who have no personal ambitions for 
themselves, to focus especially the middle and long-term 
considerations and opportunities.
    Senator Hutchison. Thank you.
    Dr. Kissinger. I think it can be done, even though I can't 
give you a chart for it today.
    Senator Hutchison. Thank you. We may be trying to work 
together to structure an organization like we have discussed.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Kohl, you are recognized for 5 
minutes.

                     STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you very much, Mr. Chairman.
    Dr. Kissinger, we appreciate your being here today and 
bringing to us your vast experience in Government and world 
affairs and all of the very deep and profound thoughts that you 
have had. In your judgment now, how much more difficult is it 
likely to be in the future for an American President to come 
before the country and declare that, based on evidence that he 
has uncovered or she has uncovered, it will be necessary to 
conduct another preemptive strike against a country that is 
suspected of having weapons of one sort or another? Is the 
whole concept of preemption raised to another level of concern 
and much more difficult to bring to the American people for 
their consideration?
    Dr. Kissinger. Let me separate the question into two parts: 
one, the concept of preemption; and the second, the impact of 
recent events on the credibility of making such assertions.
    I think 9/11 introduced us into a new international system 
in which the principles by which the system had been run based 
on states and based on conventional technology have been 
shattered, and they've also been shattered by the fact that 
there are now private groups, the privatization of security 
threats, so that it is private groups now and not States that 
represent a danger, and that these private groups are not 
subject to principles of deterrence and diplomacy that used to 
characterize the cold war period.
    So I agree with the principle of preemption. The question 
then is to what circumstances to apply it and how you determine 
it. The subsidiary question is who defines it. Should the 
United States define it alone or in conjunction with other 
countries?
    On the first question, who defines it, if one looks at what 
happened in Iraq, there is still agreement that Saddam wanted 
to do it, that he had illegal laboratories to do it, illegal 
weapons delivery systems. But the magnitude of it was overrated 
and the destructiveness of the warheads or the availability of 
warheads was also overrated, largely because of the absence of 
adequate human intelligence and also because the real situation 
was that Saddam was spending a lot of money on concealment and 
a lot of diplomatic effort on acting as if he had large 
quantities.
    So I think we would probably have learned from that 
experience and certainly the intelligence apparatus ought to be 
strengthened to prevent simple statements like ``slam-dunk 
knowledge'' from being made, even though I think that Tenet was 
a good Director. In that respect, improvements are necessary, 
but undoubtedly critics of the United States will use and have 
used the recent experience to complicate any such claims.
    But the whole principle of preemption after the election 
should be looked at from the point of view of, A, its 
necessity, and B, its implementation.
    Senator Kohl. I was not so much talking about the doctrine 
of preemption. I think under certain circumstances what you are 
saying is true. My point was that bringing a preemption 
situation to the American people in the future----
    Dr. Kissinger. Will be more difficult.
    Senator Kohl [continuing]. Will be much more difficult; is 
that not true?
    Dr. Kissinger. I think that is probably true. It depends on 
the facts of the case, but there are bigger hurdles.
    Senator Kohl. Thank you.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you, Senator.
    Senator Cochran, you are recognized for 5 minutes.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    Dr. Kissinger, thank you for being here today and sharing 
your thoughts with us on these subjects. I have read your 
``Washington Post'' op-ed piece dated Monday, August 16, and I 
have looked through your statement today and listened to your 
testimony carefully. It seems to me that we may be down to a 
point in this discussion of the 9/11 report and recommendations 
where we are dealing with semantics and not paying as much 
attention as we should to the substance of it. I think your 
testimony helps refocus our attention to the substantive 
changes that are important in order to achieve improvements in 
our intelligence-gathering capacity and not just renaming 
offices or changing the acronyms.
    For example, it occurs to me that if we are talking about a 
new coordinator, as the Senator from South Carolina mentioned, 
as being an overriding important change that we ought to 
contemplate, the national security adviser may be well situated 
in terms of proximity to the President and working closely with 
the President to actually coordinate that, without doing too 
much damage to the authorities and responsibilities of the 
director of central intelligence, for example.
    I know Judge Posner, who is going to testify tomorrow, 
actually suggests that the Director, the NSC Director, should 
do this job. What is your reaction to that suggestion?
    Dr. Kissinger. My experience has been that the NSC does 
that job, because when a crisis occurs, that is the first thing 
the NSC Director does, is go to the various agencies and says, 
what do you know about it? As I look back on my experience and 
also talking to others, at a minimum what is needed is that the 
NSC Director have on his staff a deputy specifically charged 
with looking at intelligence, because in the normal course of 
events, if there is a crisis you automatically collect the 
intelligence, but unless there is some conflict you usually 
wait for intelligence to come to you because there are so many 
other things to do.
    So somebody specifically charged with the sort of 
coordinating responsibility is desirable. I would prefer for 
neatness of relationships to keep it in the office of the NSC 
Director, but I am open minded in that subject. I think it 
would work well in the office of the NSC Director as a deputy 
to the NSC Director, and that would give him or her enough 
authority to make sure that there is an adequate flow of 
intelligence.
    Senator Cochran. There has been some attention paid to the 
fact that the Department of Defense controls most of the money 
that actually goes into and is spent for intelligence-gathering 
activities. Is that a problem? Is that really true? Does the 
shift need to be more toward the Director of Central 
Intelligence and the budget that is provided to that 
organization? Have we gone too far in providing the Pentagon 
with more intelligence-gathering power and resources than is 
justified?
    Dr. Kissinger. The coordination of collection should give 
the Director of Central Intelligence a significant role and 
should not enable the Defense Department to act unilaterally 
without close consultation with the Director of Central 
Intelligence. Then if there is a dispute it will in the normal 
course of events have to be settled by the President.
    Now, the numbers are somewhat misleading because the sort 
of intelligence that the Defense Department collects requires a 
lot of high technology and therefore they are in the nature of 
things a lot more expensive than the sort of intelligence that 
is collected by the CIA through human sources, and it is not an 
adequate description of the flow of intelligence. But 
undoubtedly when these instruments, these technological 
instruments, are created there will be some dispute as to the 
amount of time these technologies can be used by various 
agencies. So long as the CIA Director has a major input and so 
long as the Defense Department cannot rule unilaterally, but 
has to take these disputes to the President, I think the major 
concerns can be met.
    Senator Cochran. Thank you.
    Chairman Stevens. Senator Domenici, 5 minutes, please.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman.
    Dr. Kissinger, I got here late, but that does not mean that 
I am not interested. I will ask you afterwards how your little 
son who came to New Mexico with you, where he is now, but 
obviously he is no longer a little son. He is probably----
    Dr. Kissinger. He is in the entertainment business. How a 
son of mine got there, I cannot quite understand.
    Senator Domenici. I do not know how a son of yours got in 
the entertainment business. But you know, you are pretty 
entertaining.
    In any event, I have four words that kind of lead to my 
questions: one, ``covert''; and ``clandestine,'' two; the other 
one is ``coordination''; and the last one is ``military.'' So 
let me talk about ``covert'' and ``clandestine.'' Mr. 
Secretary, I was here when Frank Church conducted long hearings 
about the CIA. I was very chagrined as I watched him, but I 
imagine nobody else was. But I believe that started the 
downfall of covert activity and clandestine activity by the 
CIA. I do not ask you to agree, but you seem to be half 
nodding.
    Dr. Kissinger. I agree.
    Senator Domenici. In any event, I do not see how CIA could 
attract spies. Clandestine people that you have just described, 
you know, they are rather peculiar. They are different. They 
are not just ordinary people. I do not see how they would sign 
up after the Church hearings. I mean, if we are going to go and 
disclose them in a public hearing you have just about destroyed 
the clandestine activities.
    Is that true?
    Dr. Kissinger. I think they did great damage, because it is 
hard. Much of clandestine activity, much of what is called 
human intelligence, does not guarantee a result. People have to 
be put into place for consequences or for results that may be 5 
or 10 years down the road. They also have to be people that are 
adapted to the culture in which they operate, so that they may 
not be types that when the operations become public that look 
like classical Americans.
    So one has to have an understanding for what, when we talk 
about human intelligence, what people are really talking about. 
Then the typical clandestine operation is in the area between 
diplomacy and military actions and, therefore, is in its nature 
difficult, ambiguous, and uncertain. So when they are 
publicized periodically, it makes it very difficult.
    On the other hand, the Church committee did point out 
correctly that there was not adequate congressional oversight.
    Senator Domenici. That is all right, that is fine.
    Dr. Kissinger. So that part of it I think was a good thing 
to do.
    Senator Domenici. Well, Mr. Secretary, I for myself as a 
Senator, I have been regularly very disturbed when I ask 
questions about how come we did not know what was going on, on 
the ground, did we not have somebody there? And might I say, 
now that the Soviet Union has collapsed, the only place I ever 
heard in the world that we had someone was Russia. Many of 
these other countries like Iraq and others, we did not have 
anybody on the ground. I used to say: Why do we pay so much 
money to the intelligence operations if we do not?
    I read the report and it is a brilliant disclosure of 
facts. It reads almost like a novel.
    Dr. Kissinger. The 9/11 report?
    Senator Domenici. Yes.
    Dr. Kissinger. Outstanding.
    Senator Domenici. But it does not recommend anything about 
clandestine or covert. We have to decide whether what we set up 
is going to encourage these kinds of activities. I believe that 
would be a major decision, and we better provide enough money 
for it, enough schools for it, and decide that we have to do 
it.
    Would you agree with that?
    Dr. Kissinger. Yes, and enough stability and continuity.
    Senator Domenici. Now, coordination versus a director with 
power. Senator Hollings went through a lot of history and he 
ended up with a good word, ``coordination.'' I am confident 
that the President has authority to set up a coordinator now. 
In fact, some people tell me he might already have done it with 
his proposal.
    A coordinator is much different than somebody who is going 
to screen and decide both policy and facts. I think that the 
latter would be very very wrong. Could you explain the 
difference, and quickly, between the report's suggestion and 
what the responsibilities of an intelligence coordinator would 
be?
    Dr. Kissinger. On the operational side, a director who 
operates would, I believe, atrophy the CIA as we know it, 
because you cannot have two operators at the same time. 
Therefore, second, the issues that concern me most are quality, 
which you do not achieve by centralization, but by a careful 
restructuring of the current system, because you cannot avoid 
this.
    Coordination would say we will improve the existing system 
and we will tighten it up, and a lot of it has already been 
done, and we will put in place somebody who makes sure that we 
draw out of these existing institutions the way the national 
security adviser now does with respect to Defense, State, and 
the interested agencies. Therefore, on the whole, if we could 
start from scratch I would put that person as a deputy under 
the national security office. But it can be made freestanding. 
I am agnostic. I have a slight preference.
    Senator Domenici. Mr. Secretary, the principal concern in 
that report that we are talking about is the lack of 
coordination and exchange of information between those who do 
intelligence work. That is really what they are worried about.
    Dr. Kissinger. But that coordination can be achieved in my 
view without tearing apart the existing structure, creating a 
new structure that in its analytic branch will have to be very 
similar to what already exists, separating the analysts from 
the operators, and on top of it creating the problems on how to 
handle clandestine operations.
    Senator Domenici. Mr. Secretary, let me just interrupt for 
a minute. We have not talked about the need for the military 
having intelligence for the warmakers in the field. Now, 
clearly, wherever we are fighting we need intelligence right 
there on the ground.
    Dr. Kissinger. And it should be nearly automatic.
    Senator Domenici. Absolutely.
    Dr. Kissinger. It should not have to go through a long 
clearance process. I am sure the generals who testify after me 
will be able to give better evidence than I can on this 
subject.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much.
    Senator Byrd. Dr. Kissinger, thank you again for your very 
enlightened comments. Your testimony should be valuable to this 
effort and particularly valuable to our committee here.
    I also thank the outstanding group of public servants whose 
names you have brought with you today and with whom you share 
your views. I think it is a very imposing group. It seems to me 
what the whole group is saying: Stop, look, and listen, slow 
down; do not act with haste. I will not comment further on that 
point.
    One other thing I just simply want to say for the record. 
Senator Kohl introduced the subject of preemptive strikes. Not 
that he said he approved of it or anything of that kind, but 
that has been introduced into this conversation, the preemptive 
doctrine. The thing that gives me very great pause about that 
doctrine is the fact that it is unconstitutional on its face. 
It is fundamentally flawed.
    The Constitution says very clearly in Section 8 of Article 
I that the Congress shall have power to declare war. Now, it 
seems to me that the doctrine of preemption says that one man, 
the President, shall have power to declare war. So I think that 
fundamentally on its face the doctrine is unconstitutional 
because I do not see how any President can arrive at a decision 
to put the country into a war, of course unless it is invaded, 
wherein he has the innate power to act to defend the country. 
But I cannot see how under the doctrine of preemptive strike 
that any President can make this decision by himself, without 
taking into his confidence the Members of Congress, and 
Congress should have some ability to debate it, because 
otherwise it is an unconstitutional thing.
    It seems to me that we ought to at least bow to the 
Constitution as we enter into this temple of the destructive 
doctrine of first strike. That is the thing that gives me 
pause.
    I only make that comment, Mr. Chairman, for the record.
    Chairman Stevens. Thank you very much.
    Dr. Kissinger, we really thank you very much for your 
appearance here today, and I thank you personally for your 
advice over the years as a friend and a person who gives 
guidance to so many of us here. We do appreciate it, and 
hopefully we will get some people here to think twice about 
what we are doing.
    Senator Domenici. Mr. Chairman.
    Chairman Stevens. Yes, sir.
    Senator Domenici. I want to say for the record, because I 
misspoke, there is a statement in the 9/11 Commission's study 
that says: ``Recommendation: The CIA Director''--not the new 
entity--``The CIA Director should emphasize: (a) rebuilding the 
CIA's analytic capacity; (b) transforming the clandestine 
service by building its human intelligence; (c) developing a 
stronger language program with high standards and sufficient 
financial incentives,'' and they go on to two more.
    So for the record and for those who might be watching, they 
did make that recommendation. And I am very sorry that I did 
not say it. Dr. Kissinger, I am very sorry if I misled you.
    Dr. Kissinger. Mr. Chairman, may I make one very brief 
comment about the 9/11 Commission?
    Senator Domenici. Please.
    Dr. Kissinger. Despite the fact that I have questioned some 
of the recommendations with respect to intelligence, I want to 
compliment the chairman and the vice chairman and the members 
for a great national service in putting together the best 
account of that tragedy and for making many recommendations 
that either have been accepted and will be accepted. Tom Kean 
and Lee Hamilton have performed a great national service that I 
deeply respect, whatever shades of differences I have on the 
intelligence organization, and there too they have called our 
attention to problems that need to be dealt with.
    Chairman Stevens. Thank you very much, Dr. Kissinger. We 
appreciate you being here.
    Our next panel will be a panel of former military officers: 
General Joe Ralston, former NATO EUCOM Commander, SACEUR, as we 
call him; Admiral Denny Blair, former Commander of the U.S. 
Pacific Command; and Admiral Jim Ellis, former Commander of the 
U.S. Strategic Command.
    Gentlemen, in the interest of time I am going to suggest 
that we ask you to each read your statements and then we will 
have questions as they may occur after those statements. We are 
operating, unfortunately, under some pressure here because of 
the timeframe and so many members have gone to other committee 
meetings. I think they are coming back. I hope they are. But we 
do appreciate your consideration.
    General Ralston, will you please proceed first.
STATEMENT OF GENERAL JOSEPH RALSTON, U.S. AIR FORCE 
            [RET.], FORMER COMMANDER, U.S. EUROPEAN 
            COMMAND
    General Ralston. Mr. Chairman, to you and Senator Byrd and 
to the committee: Thank you very much for giving us the 
opportunity to be here today and to give you our views from a 
military perspective for those people who have served as 
combatant commanders.
    Mr. Chairman, I have three short points that I would like 
to make for the committee. First of all, let us realize that a 
lot of things have been done post-9/11 to fix some of the 
things that have been pointed out, and let me give you an 
example, the best way to explain that. When I was commander, 
Supreme Allied Commander of Europe, post-9/11 our soldiers in 
Sarajevo had captured an individual that we considered to be a 
terrorist and we got some very disturbing information out of 
his computer that was there, that led us to believe he had 
direct links back to organizations inside the United States.
    That was information that I very desperately wanted to get 
to the FBI. Now, pre-9/11 and shortly thereafter we did not 
have a very good way of doing that. I had to go to the Chairman 
of the Joint Chiefs of Staff, who had to go to the Secretary of 
Defense, who had to go to the Attorney General, who had to go 
to the Director of the FBI, and that was just to get me 
speaking to Director Mueller.
    Now, once we did that, we were able to fix the situation 
and as a direct result we got FBI agents on the ground in 
Europe that could take that information that we had captured 
and get it directly back to the people who could deal with it 
here in the United States. We set up what was called a joint 
inter-agency coordinating group, which is in existence today, 
within European Command, and the other combatant commanders did 
a similar type of thing, where we had FBI, Customs, Treasury, 
as well as National Security Agency, DIA, and so forth.
    So let us not lose sight as you go through your very 
important duties that a lot of progress has been made.
    My second point: I read some of the suggestions that the 
National Intelligence Director should select and recommend to 
the Congress the people to head the DOD intelligence community 
components. Most people seem to think that that means the 
National Security Agency and the National Geospatial Agency and 
the National Reconnaissance Office, and that may or may not be 
a good idea for you to debate.
    But my point is that the details are very important, 
because the heads of the service intelligence--the head of Army 
intelligence, the head of Air Force intelligence, the head of 
naval intelligence--are also DOD intelligence community 
component heads. Let me give an example of why I think that 
would be a bad idea if you included all of those, and I will 
talk from an Air Force perspective, but it is true across the 
board.
    The Air Force as an institution evaluates all of their 
intelligence officers from the time they are second 
lieutenants, for 30 years, and they are looking to see who is 
providing the best intelligence to the operational commanders 
and ultimately to the pilots in the cockpit who have to hit the 
pickle button and drop the bomb. Now, that information that the 
Air Force has collected goes into their judgment as to who is 
the best of those people they have been watching for 30 years 
to provide that.
    That is information that is not available to the National 
Intelligence Director who is trying to make a decision on what 
someone may or may not have done in Washington, DC. And if you 
take that responsibility away from the Secretary of Defense and 
from the services, then I think you will have done a grave 
disservice to getting the operation done.
    My third point, Mr. Chairman, is along the lines of the 
budget. I hear recommendations that the National Intelligence 
Director will formulate and present to you the budgets for 
national programs. It has been my judgment for many years that 
things do not clean up that nicely, that you have national 
programs and tactical programs. They are always mixed.
    I use as an example, you may have an overhead imagery 
system that most people would consider would be a national 
system. It is in the National Foreign Intelligence Program 
(NFIP) and under the recommendations the National Intelligence 
Director would have sole authority over that. Well, what is 
sometimes forgotten is that a small piece of that system is 
what is responsible for getting a picture inside the cockpit of 
an airplane that is very much needed on the tactical side.
    If the National Intelligence Director had the authority 
when a new priority comes up to take $10 million away from that 
program to put it on his new priority and it happened to be the 
link that was getting that imagery into the cockpit, without 
the Secretary of Defense having an opportunity to nonconcur on 
that, I think once again that would be a grave disservice.
    So my message in all of this is a lot of things have 
happened already to improve the coordination that we are 
talking about and I would strongly urge that the Senate take a 
deliberate look and make sure that you do not inadvertently 
screw some things up that would adversely impact our 
operational capability.
    Mr. Chairman, that is all I have. Thank you.
    Chairman Stevens. Your message is simply do no harm, right?
    General Ralston. Yes, sir.
    Chairman Stevens. I think that that should be our guideline 
here, do no harm to what has been done since 9/11.
    Admiral Blair.
STATEMENT OF ADMIRAL DENNIS C. BLAIR, U.S. NAVY [RET.], 
            FORMER COMMANDER, U.S. PACIFIC COMMAND
    Admiral Blair. Mr. Chairman, when you are planning and 
conducting a military operation, intelligence is absolutely 
essential, just like ammunition, just like transportation, just 
like all the other forms of logistics, just like 
communications.
    Perhaps in the past the national foreign intelligence 
program, the NFIP, was primarily directed toward supporting 
high-level policy decisions, but that is not true now. NFIP 
programs are integral to military operations right down to the 
tactical level, as General Ralston said. The National Security 
Agency and the National Geospatial Information Agency are 
combat support agencies. They are right there with the 
combatant commanders from the early stages of intelligence 
preparation of the battlefield, when you are trying to 
understand what it is you might be going into, all the way 
through all the phases of operations.
    So I strongly recommend that their operations, their 
funding, their personnel policies, the evaluation of their 
effectiveness be primarily the responsibility of the Secretary 
of Defense, whose job it is to put together the entire defense 
program for the country. I believe that should be done, then 
integrated with other forms of intelligence by this National 
Intelligence Director.
    To me it just does not make sense for an official outside 
of DOD to determine DOD requirements and to provide funds to 
DOD and then to monitor whether they are being carried out. It 
would be sort of like the Department of Transportation having 
the responsibility to provide trucks to the Department of 
Defense.
    Now, I do favor a strong National Intelligence Director and 
one who is separated from the duties of Director of the CIA. I 
believe that that director, that National Intelligence 
Director, should have a large and competent requirements, 
program analysis and evaluation, and budgeting staff, sort of 
like the joint staff, PA&E and the Office of the Comptroller in 
the Department of Defense.
    I believe, however, that the Department of Defense should 
originate the programs of the DOD combat support agencies as 
part of its overall defense planning for the country's needs 
and then that this National Intelligence Director, assisted by 
a strong, competent staff, integrate them with the requirements 
from other users of intelligence to see to what extent they can 
satisfy those, and also look for the other forms of 
intelligence which can in turn support the operations of the 
Department of Defense. He should bring the collectors and the 
customers together with a very competent data-based set of 
decisions.
    If there is a strong difference between that National 
Intelligence Director and the Secretary of Defense, then they 
have to take their differences to a common superior in the 
White House. And if the NID has a good strong staff that can do 
the staff work for it, then he should have no fear of standing 
up to the Secretary of Defense if there is a legitimate 
difference there that has to be adjudicated.
    Now, there are lots of aspects of the intelligence 
proposals that I read about that are very attractive, that I 
think will make things better. I believe improving sharing of 
relevant data across both domestic and foreign intelligence 
agencies is absolutely vital. I believe that upgrading the 
information networks in order to do that is absolutely vital. I 
believe updating standards of professionalism of those involved 
in the intelligence business and scattering them around so that 
they are more widely experienced are all very good.
    But I just do not believe that increasing the role of the 
National Intelligence Director to the point of determining 
requirements, providing money, and monitoring performance 
within the Department of Defense combat support agencies will 
give us better warfighting support.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much, Admiral.
    Admiral Ellis. Thank you for being here, Admiral.
    [The statement follows:]

             Prepared Statement of Admiral Dennis C. Blair

    Senator Stevens, members of the Committee. You are interested in 
how currently proposed intelligence reforms will affect intelligence 
support to military operations.
    When planning or conducting a military operation, intelligence is 
one of the absolute key supporting functions--like ammunition, 
transportation and communications.
    Perhaps in the past intelligence capabilities funded by the 
National Foreign Intelligence Program--NFIP--primarily supported 
national-level policy makers. No more. NFIP programs provide 
intelligence support that is integral to military planning and 
operations. The National Security Agency and the National Geospatial 
Information Agency are combat support agencies. They are involved with 
military plans and operations from the early stages--intelligence 
preparation of the battlefield--through all stages of conflict. I 
recommend that their operations, funding, personnel policies and 
effectiveness continue to be determined primarily by the Secretary of 
Defense.
    To me it makes no sense for an official outside the Department of 
Defense to decide what NFIP programs DOD needs, then to provide NFIP 
funds to DOD, then to monitor those programs. That would be like the 
Department of Transportation deciding what kind of and how many trucks 
DOD needs, then providing funding to the Department for trucks.
    I strongly favor a powerful National Intelligence Director who is 
not the Director of the Central Intelligence Agency. I believe that 
Director should have a large and competent requirements, programming 
and budgeting staff, comparable to the Joint Staff, PA&E and the office 
of the Comptroller in the Defense Department. However I believe that 
the Department of Defense should originate the budgets for DOD combat 
support agencies as a part of building the Defense capabilities this 
country needs. The NID, assisted by a competent staff, should then look 
across the other users of intelligence in the U.S. government and 
integrate the DOD intelligence budget with those of other intelligence 
providers. In many cases DOD combat support agencies will be collecting 
intelligence of use to others besides the armed forces. The NID needs 
to ensure that these capabilities are included and integrated.
    In case of strong differences between the NID and the Secretary of 
Defense, the issue should be taken to the White House for solution. 
With a strong and capable staff providing data-based recommendations, 
the NID should have no fear about seeking these decisions.
    But what about the current war on terrorism--can't we do better? 
Isn't good, shared intelligence the key to success?
    Yes, if we put someone besides an intelligence official in charge 
of planning and conducting that war.
    Intelligence works when it is driven by commanders and operators or 
by officials with line responsibility in government departments. It 
does not work when it is generating its own objectives and 
requirements. To give a National Counter Terrorism Center reporting to 
the NID the responsibility for planning the war on terrorism is like 
making a football team's scouts the head coach. A head coach wants 
tremendous scouts--he wants to know everything possible about the 
opposing team--on game day he wants the scouts up in the spotter's 
booth predicting what the opposing team's next play will be--but it is 
the coach who must call the plays. He knows what his players can and 
cannot do, not the scouts--he knows what other games he must play--not 
the scouts.
    The fastest way to fix intelligence in the war on terrorism is to 
designate the head coach. Right now we have a committee conducting the 
war--the CIA is conducting part of the war, DOD is conducting part of 
the war, FBI is conducting part of the war, DHS is conducting part of 
the war, the Departments of State and Treasury are conducting other 
parts. The results are predictable. Our adversary is moving faster than 
we are, we are missing opportunities in internal friction, and the 
intelligence services are doing their best, particularly the TTIC, but 
they are doing it in a vacuum, rather than as part of operations to 
defend against and destroy terrorism. It may be that we need several 
teams to win this war--one for the United States headed by DHS, several 
joint interagency task forces overseas headed by either DOD of CIA 
officials. But right now we have none.
    There are many other aspects of current intelligence reform 
proposals that are good--improving sharing, upgrading networks, 
increasing professional standards. However I strongly recommend against 
two proposals in various bills:
  --To give the NID overall responsibility for the NFIP budget 
        activities in the Department of Defense;
  --To place the NID in charge of developing the strategy for the war 
        on terrorism.
    Thank you, and I would be happy to answer questions.
STATEMENT OF ADMIRAL JAMES O. ELLIS, U.S. NAVY [RET.], 
            FORMER COMMANDER, U.S. STRATEGIC COMMAND
    Admiral Ellis. Mr. Chairman, thank you. Thank you, Senator 
Byrd, as well, and distinguished members of the committee, for 
your generous invitation to participate in this important 
hearing.
    The carefully considered judgment that you and your 
colleagues will contribute to the process of intelligence 
reform and the assessment of the conclusions of the National 
Commission on Terrorist Acts Upon the United States will have 
real and far-reaching effects throughout the broad intelligence 
community. As you are also well aware and have already noted in 
your remarks, it will also directly impact the hundreds of 
thousands of men and women serving in uniform in the Department 
of Defense whose reliance on timely, responsive, accurate and 
accessible intelligence grows larger every day.
    As has been noted, I left their ranks on the first of this 
month after 39 years in uniform. While my operational service 
stretched from Vietnam to Kosovo, it was in my last assignment, 
as Commander, United States Strategic Command, that I was 
actively involved in the dramatic efforts to which General 
Ralston referred within the Department of Defense to reshape 
the Department's intelligence entities in order to better meet 
new and emerging challenges.
    Much quantifiable progress has been made in the interlinked 
areas of command, control, communications, computers, 
intelligence, surveillance, and reconnaissance, as well as the 
new realm of information operations. With the full support of 
the Secretary of Defense and the Under Secretary of Defense for 
Intelligence, the combat support agencies, such as the NSA and 
DSSA, have been integrated into active support of Department 
Title X functions in order to flatten organizational 
structures, shrink response time lines, and bring the 
tremendous capabilities of those agencies to the front-line 
support to the warfighter.
    Though much remains to be done, especially in the areas of 
so-called horizontal integration, outside the Department, these 
significant strides are noteworthy and should be allowed to 
mature to their full potential.
    As you continue your deliberations, I would offer only four 
interrelated points for your consideration. First, as we 
consider the range of changes proposed we must be assured they 
specifically address the shortfalls we want to correct. The 
establishment of accountability is a worthwhile goal, but in my 
view it is far more critical that we provide genuine solutions 
to identified problems. In other words, rather than just 
identifying who is responsible, the Nation must also be well 
served by ensuring that he or she now leads an organization 
that is significantly better organized, trained, and equipped.
    In my view, though I am not a cynic, there is no such thing 
as a perfect organization. While an organization may be fully 
postured for success in some areas, it will inevitably be 
suboptimized for others. The inevitable seams and areas of 
reduced capability or capacity must be intentionally aligned 
where they have the least impact. I am fond of noting that you 
can organize for what you do the most or for what is most 
important. The secret is to know the difference. The structure, 
in an effort to eliminate stovepipes, must not also merely 
substitute internal stovepipes for inter-agency stovepipes.
    Second, the trend toward centralization must not add layers 
of bureaucracy that, while they may add some value, bring 
unacceptable penalties in agility, flexibility, responsiveness, 
and accessibility. Today's American armed forces, transforming 
into high-speed, lethal, networked, and joint elements, must be 
served by an intelligence process that can keep pace or they 
will not achieve the full promise of their technology, much 
less their people.
    The fact is that the classic war college categories of 
strategic, operational, and tactical are less and less relevant 
in a networked, globalized, and embedded world. Intelligence 
developed at levels classically termed strategic can have real 
and significant tactical implications and the converse is 
certainly true.
    Third, we must ensure that we are designing a community, a 
process, and an organization that will serve a full range of 
alternative futures. Years ago, the military was often accused 
of gearing up to fight the last war. Just as that is no longer 
true, we must ensure that we do not design a national 
intelligence system that would not be responsive should the 
character of future threats evolve in ways we cannot or do not 
anticipate.
    When I used to speak to junior staff officers, I would 
opine that, though they may be asked to plan for 100 
contingencies, it is likely that fate will deal them the 101st. 
But it is the elements that were developed for the 100, 
supported by an agile and imaginative organization, that 
provided the structure and process to allow them to be rapidly 
reassembled and realigned to meet emergent and unexpected 
challenges.
    The premium for the indefinable future is on agility, 
speed, and flexibility, not, I would submit, on a single-point 
solution which is inevitably, if understandably, wrong.
    My fourth and final point for your consideration is this. 
While there is certainly value in improved intelligence 
oversight and process reform, these should not come at the 
expense of fearless, insightful, and, yes, sometimes 
contrarian, intelligence analysis. As Peter Bernstein, who 
writes extensively on this subject, points out: ``Data is 
neutral, neither good nor bad, and consists of facts. It is in 
the analysis that takes these cold facts and creates quality 
intelligence from them that the real challenges lie. It is in 
our effort to move up the continuum from data to information to 
knowledge and ultimately to wisdom that we add the critical 
value to the technical collection.''
    We should be wary of homogenizing centralized processes 
that, albeit unintentionally, may suppress or filter differing 
views. Recent op-ed pieces have noted the inevitability of 
surprise in our past and offered as well that often a surprise 
is a result of deficient analysis, not collection or even 
sharing of data.
    Bernstein's favorite example concerns the Battle of the 
Bulge, with which some in this room have some familiarity, 
where Patton's Twelfth Army had near-perfect knowledge of the 
German forces moving up to oppose them, thanks to partisans, 
spies, POW's, and aerial reconnaissance. The failure was not 
one of collection, but lay in the fact that all assumed the 
divisions were moving up to blunt the planned allied offensive, 
never anticipating that the German commander intended an attack 
of his own.
    We should be wary of those who offer, ``perfect 
intelligence,'' or ironclad probabilities. Concrete probability 
figures, always difficult to compute, are only legitimate when 
you know you have considered all possible outcomes. In an array 
of alternatives that proves to be larger than the possibilities 
you had imagined, probability numbers are worse than useless. 
It is in the full definition of the range of possibilities that 
quality dispassionate analysis is most important.
    Such skills, valuable beyond all price and linked to the 
operators and the warfighters, as well as the strategists and 
policymakers, must be available to all who serve our Nation's 
security and not enhance one group at the expense of another.
    Members of the committee, I thank you for your attention 
and I look forward to your questions.
    Chairman Stevens. Thank you very much, Admiral.
    [The statement follows:]

               Prepared Statement of James O. Ellis, Jr.

    Mr. Chairman, Ranking Member Byrd, distinguished members of the 
Committee, thank you for your generous invitation to participate in 
this important hearing. The carefully considered judgment that you and 
your colleagues contribute to the process of intelligence reform and 
the assessment of the conclusions of the National Commission on 
Terrorist Attacks Upon the United States will have real and far-
reaching effects throughout the broad intelligence community. As you 
are also well aware, it will also directly impact the hundreds of 
thousand of men and women serving in uniform in the Department of 
Defense whose reliance on timely, responsive, accurate and accessible 
intelligence grows larger every day.
    As has been noted, I left their ranks on the first of this month 
after 39 years in uniform. While my operational service stretched from 
Viet Nam to Kosovo, it was in my last assignment as Commander, United 
States Strategic Command that I was actively involved in the dramatic 
efforts within the Department of Defense to reshape the Department's 
intelligence entities in order to better meet new and emerging 
challenges. Much quantifiable progress has been made in the interlinked 
areas of command, control, communications, computers intelligence, 
surveillance and reconnaissance as well as the new realm of Information 
Operations. With the full support of the Secretary of Defense and the 
Undersecretary of Defense for Intelligence, Combat Support Agencies 
such as NSA and DISA have been integrated into active support of 
Department Title 10 functions in order to flatten organizational 
structures, shrink response times and bring the tremendous capabilities 
of those agencies to the front line support to the warfighter. Though 
much remains to be done, especially in the area of so-called 
``Horizontal Integration'' outside the Department, these significant 
strides are noteworthy and should be allowed to mature to their full 
potential.
    As you continue your deliberations, I would only offer four 
interrelated points for your consideration.
    First, as we consider the range of changes proposed, we must be 
assured that they specifically address the shortfalls we want to 
correct. The establishment of accountability is a worthwhile goal but, 
in my view, it is far more critical that we provide genuine solutions 
to identified problems. In other words, rather that just identifying 
who is responsible, the Nation will be better served by ensuring that 
he or she now leads an organization that is significantly better 
organized, trained and equipped. In my view, there is no such thing as 
a perfect organization. While an organization may be fully postured for 
success in some areas, it will also be sub-optimized for others. The 
inevitable seams and areas of reduced capability or capacity must be 
intentionally aligned where they have the least impact. I am fond of 
noting that you can organize for what you do the most OR for what is 
most important; the secret is to know the difference. The structure, in 
an effort to eliminate stovepipes, must also not merely substitute 
internal stovepipes for interagency stovepipes.
    Secondly, the trends toward centralization must not add layers of 
bureaucracy that, while they may add some value, bring unacceptable 
penalties in agility, flexibility, responsiveness and accessibility. 
Today's American armed forces, transforming into high speed, lethal, 
networked and Joint elements, must be served by an intelligence process 
that can keep pace or they will not achieve the full promise of their 
technology, much less their people. The fact is that the classic War 
College categories of ``strategic,'' ``operational,'' and ``tactical'' 
are less and less relevant in a networked, globalized and imbedded 
world. Intelligence developed at levels classically termed 
``strategic'' can have real and significant tactical implications and 
the converse is certainly equally true.
    Third, we must ensure that we are designing a community, a process 
and an organization that will serve a full range of alternative 
futures. Years ago, the military was often accused of gearing up to 
fight the last war. Just as that is no longer true, we must ensure that 
we do not design a national intelligence system that would not be 
responsive should the character of future threats evolve in ways we 
cannot or do not anticipate. When I used to speak to staff officers I 
would opine that, though they may be asked to plan for a hundred 
contingencies, it is likely that fate will deal them the one hundred 
and first. But it is the elements that were developed for the one 
hundred, supported by an agile and imaginative organization, that 
provide the structure and process to allow them to be rapidly 
reassembled and realigned to meet unexpected challenges. The premium 
for the indefinable future is on agility, speed and flexibility not, I 
submit, on single point solutions which are inevitably, if 
understandably, wrong.
    My fourth and final point for your consideration is this: while 
there is certainly value in improved intelligence oversight and process 
reform, these should not come at the expense of fearless, insightful 
and, yes, sometimes contrarian intelligence analysis. As Peter 
Bernstein, who writes extensively on the subject, points out, data is 
neutral, neither good nor bad, and consists of facts. It is in the 
analysis that takes those cold facts and creates quality intelligence 
from them that the real challenges lie. It is in our effort to move up 
the continuum from data to information to knowledge and to wisdom that 
we add the critical value to the technical collection. We should be 
wary of homogenizing centralized processes that, albeit 
unintentionally, may suppress or filter differing views. Recent Op Ed 
pieces have noted the inevitability of surprise in our past and 
offered, as well, that often the surprise is a result of deficient 
analysis, not collection or even sharing of data. Bernstein's favorite 
example concerns the Battle of the Bulge where Patton's 12th Army had 
near-perfect knowledge of the German forces moving up to oppose them, 
thanks to partisans, spies, POW's and aerial reconnaissance. The 
failure was not one of collection but lay in the fact that all assumed 
the divisions were moving up to blunt the planned Allied offensive, 
never anticipating the German Commander intended an attack of his own. 
We should be wary of those who offer ``perfect intelligence'' or iron-
clad probabilities. Concrete probability figures, always difficult to 
compute, are only legitimate when you know you have considered all 
possible outcomes. In an array of alternatives that proves to be larger 
than the possibilities you had imagined, probability numbers are worse 
than useless. It is in the full definition of the range of 
possibilities that quality dispassionate analysis is most important. 
Such skills, valuable beyond all price and linked to the operators and 
the warfighters, as well as the strategists and policy makers, must be 
available to all who serve our Nation's security and not enhance one 
group at the expense of another.
    Members of the Committee, thank you for you attention. I look 
forward to your questions.

    Chairman Stevens. Let me first call on Senator Domenici, 
who has to leave for another meeting.
    Senator Domenici. Mr. Chairman, I am going to just make an 
observation. But first I want to say to you and the ranking 
member I thank you. By having these hearings, you have 
performed a great service in terms of where we are going. I 
mean, these witnesses, these members of the military that are 
here, they know what they are talking about and we have to 
listen to them.
    I want to say to you, I am not on the committees drafting 
this legislation, but I think you can be assured that you and 
Dr. Kissinger told us some things that will help substantially 
with our effort to do the right thing. This is a truly 
important endeavor of historic proportions, and I for one will 
make note as we study it of your numerous, excellent, objective 
suggestions. You know what the problems are from the standpoint 
of the fighting people that work for us in terms of our 
defense.
    I thank you very, very much.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you, Senator.
    Senator Byrd, do you have questions or comments?
    Senator Byrd. Thank you, Mr. Chairman.
    I associate my comments with those just expressed by the 
Senator from New Mexico. I thank the members of the panel.
    I will be brief, Mr. Chairman.
    The size of the insurgency in Iraq has been consistently 
underestimated, in terms of the size and the force, and it has 
resulted in continuing bloodshed among the 138,000 troops that 
we still have in Iraq. My question: What does this continuing 
insurgency mean in the context of reform of the military's 
intelligence agencies? Does it build a more urgent case for 
intelligence reform now, or does it mean that Congress should 
wait a while, should wait perhaps until the war is finally over 
before taking action?
    General Ralston, would you like to comment?
    General Ralston. Senator Byrd, let me express an opinion. I 
think again many of the things that were apparent on the day of 
9/11, improvements have been made within the existing authority 
that the President, the Secretary of Defense, and the Director 
of Central Intelligence have.
    With regard to the particular issue that you talk about, 
the insurgency in Iraq, this is something that has already been 
noted earlier, I think certainly human intelligence operatives 
on the ground in Iraq would have been very helpful in the past. 
Regarding where we are right now, I must tell you that I have 
been out of uniform for 1\1/2\ years now, so I only know what I 
read in the open sources, and I am really not qualified to make 
a comment on the size of the insurgency or where that is going.
    Admiral Blair. Senator Byrd, I think where we are now 
illustrates the sort of new face, new face of intelligence. In 
my experience there are really two categories of intelligence 
that we need. One is intelligence to take action. This is the 
type that you need for troops in the field. In Iraq, our troops 
in the field need to know who the leadership of these 
insurgents is, where are their houses, how do they get their 
money, how do they get their weapons, where are they going to 
be tomorrow? It is that sort of very action-oriented type of 
intelligence that we need.
    I believe that, although we are not doing as well as we 
should, the tools are there to be able to do that with applied 
attention and filling in some of the deficiencies in the parts 
of that that are the most valuable.
    The other type of intelligence I find is policy support 
intelligence. This is to answer questions like should we stay 
there, do we need to raise the number of troops, do we need 
help from allies, how long is this thing going to last, how 
much determination do our adversaries have, and what effect are 
our operations having? Those are decisions that are not 
targeting individuals, but targeting the weight of effort of 
this country as we move in.
    I think that just by my describing those you can see that a 
lot of that intelligence is overlapping. If you have very good 
intelligence on just who the leaders are and where they are 
going and whether you can hit them, that is going to tell you a 
lot about their long-term intentions and what the United States 
should be doing as a country to work with them in many fields, 
not just the military fields.
    So I think that we have the tools that are there and we 
should not wait until it is over to be able to set up our 
organizations and our procedures to be able to answer both 
those kinds of questions with all the tools that we have. But I 
think we should use it as a validation of what we are doing 
here.
    Admiral Ellis. Senator Byrd, General Ralston has addressed 
the issue of human intelligence that has been raised by a 
number of you in your remarks. Certainly that is a key element 
and indicator of the types of skills and talents that, though 
they take years to create and sustain, are going to be 
increasingly important as we confront the challenges of this 
new century. So I won't elaborate on that.
    The other piece that I think is important relative to the 
insurgency goes back to my final comment in my opening remarks 
and that is the difficult challenges associated with analysis. 
In other words, even when there is agreement on the facts, 
sometimes the analytical underpinning can come to different 
conclusions. A process that values that, that respects that and 
appreciates it and that has a way of sifting that out and 
balancing the competing and contrasting views while we still 
move forward, as we must in order to take action, has to be an 
important part of the future of the Nation's intelligence 
community. That would be a take-away that I would bring from 
the insurgency experience in Iraq.
    Senator Byrd. Mr. Chairman, if I may I have one more 
question.
    Chairman Stevens. Certainly, sir.
    Senator Byrd. If the Department of Defense got Iraq wrong 
just as badly as the civilian intelligence community did, what 
reforms are required in the Pentagon's intelligence agencies? 
General Ralston.
    General Ralston. Senator Byrd, I would just like to point 
out that only recently did the Pentagon institute an Under 
Secretary of Defense for Intelligence. Prior to that time, 
there was an Assistant Secretary for Command, Control, 
Communications, and Intelligence. ``Intelligence'' being at the 
end of that chain was about where the priority rested. I can 
tell you that for many years as I worked with the C3I, as they 
called him, that while they were good people, they spent 98 
percent of their time on the command and control and the 
systems that went with that, not on the intel.
    So I think in my judgment having an Under Secretary of 
Defense for Intelligence has in fact provided some focus for 
the Department of Defense and hopefully that will be helpful.
    Senator Byrd. Admiral Blair.
    Admiral Blair. Senator Byrd, I think your question 
illustrates that a lot of the responsibility for what we call 
intelligence failure really rests with leaders and operators 
and officials. I think that you have to tell the intelligence 
community what you intend to do and then they can do their job. 
They cannot warn you about everything. They cannot predict 
everything.
    I do not believe we asked them the right questions, we, the 
leadership of the Department and of the country, asked them the 
right questions in order to elicit the best answers in terms of 
what we would be running into and what we needed to do. So I 
see too much talk about everything being an intelligence 
failure if something goes wrong.
    As I said, I believe intelligence is a tool for operations 
and plans and policy decisions, just like many other things, 
and it is really up to those who are leading to make their 
intentions clear, ask in the right way, in order to get the 
kind of intelligence they deserve. Too often we put our 
intelligence organizations in terms of having to come up with 
their own questions as well as their own answers. I believe 
that had the questions been asked properly we would have had 
better intelligence predictions of what we were running into as 
we have.
    Senator Byrd. Admiral Ellis.
    Admiral Ellis. Thank you, Senator. Following on General 
Ralston's note about the Under Secretary of Defense for 
Intelligence, I would like also to build a little bit on what I 
noted in my remarks, that there were other initiatives that 
relate to intelligence within the Department of Defense that 
have been underway in the years since 9/11, that are beginning 
to bear fruit.
    I talked about the way in which historic combat support 
agencies have now been folded in in one element to direct 
front-line support to combatant commanders, such as the post 
that I formerly occupied, who then can make that information 
readily available to regional combatant commanders, who are of 
course executing the operations in support of our Nation's 
security around the globe.
    There is a great deal of flattening and integration and, 
the words that you used earlier and your colleagues did, 
coordination is now existent within the Department to better 
facilitate those processes. I think in some ways there are 
models and examples within the Department of Defense that can 
be used as we explore how to better address the challenges of 
the larger intelligence community. I am sure that those who are 
actively now representing the Department will be able to 
further enlighten you on the advantages and the benefits they 
have seen from those successes over the last 3 years, because I 
believe that they are significant.
    Senator Byrd. Mr. Chairman, I thank all of the members of 
the panel and I thank you again.
    Chairman Stevens. Thank you very much.
    Having the three of you here--and I have worked with 
pleasure with all three of you when you were in uniform--I am 
constrained to ask a question related to what the Senator has 
just asked. We were briefed about 3 to 4 days before the Iraqi 
engagement started on terms of the deployments that were in the 
Mediterranean, ready to go through Turkey, men and materials 
that were to go into the northern part of Iraq and go south, 
and the others that were coming in through Kuwait and go north.
    The whole plan was a movement from the north toward Baghdad 
and the south toward Baghdad. Because of internal changes in 
Turkey, just about 48 hours before that all started we were 
denied access through Turkey and all of those men and materials 
went around, through and down and back, and came up through 
Kuwait. Our plan for the operations in Iraq was totally 
changed, with the whole problem of going all the way north and 
then coming back to Baghdad to establish security around the 
capital.
    You all were in uniform at that time. I do not want to 
embarrass you in any way, but what was the change that came 
about in the plan and how was it affected? That seems to me to 
have left a tremendous gap in terms of northern Iraq that led 
to the army just sort of disappearing, to the movement of men 
and materials across borders without any possibility of 
sanction, and really changed the plans for invasion of Iraq.
    Could I ask you to comment on that? Am I wrong about this, 
General?
    General Ralston. Mr. Chairman, let me give you at least my 
perspective on that. You are correct in that very late in the 
game it became apparent that we were not going to be able to 
send the 4th Infantry Division through Turkey and down into 
northern Iraq. Now, that presented the commanders with a 
problem at the last minute and, given that that were the 
circumstances, I believe that they handled it well.
    They did a large airborne operation into northern Iraq 
using the 173rd out of Italy, that used to be under Admiral 
Ellis' command there. I think, given the circumstances, they 
performed extraordinarily well with that airborne assault and 
they did the best they could at the last moment.
    I think all of us have been around long enough to know 
that, no matter what plan you have, something is not going to 
work at the last moment and you have got to have plan B, you 
have got to have an alternative. And at least my recollection 
is that they did a very good job with the circumstances that 
they were presented with.
    Chairman Stevens. Thank you.
    Admiral Blair.
    Admiral Blair. Senator, in my current job as president of 
the Institute for Defense Analyses, we have had a chance to do 
some work on trying to reconstruct some of the activities that 
happened during Operation Iraqi Freedom. What we found was, 
even under the alternate plan, the coalition forces led by the 
United States did in fact engage the great majority of the 
Iraqi forces and chewed them up and destroyed them.
    So the change of direction and the loss of the northern 
attack did not in fact leave a sanctuary where Iraqi forces 
holed up in and then attacked us later. The forces coming up 
from the south did engage almost all of the Iraqi forces. It 
turned out that they destroyed all of their equipment, but, as 
we know, the Iraqi troops got out of their tanks and left and 
lived to resent another day and some of them to fight another 
day. So I do not think that that loss of that northern flank 
kept us from the main military objective of that phase of the 
war, which was engaging and destroying the main Iraqi forces.
    Chairman Stevens. Admiral Ellis.
    Admiral Ellis. Thank you, Mr. Chairman. I would only add 
that uncertainty will characterize all conflict or political 
disputes. We can work and have worked, I think, to minimize 
that. But even in this modern high-tech world, we have to be 
mindful that sometimes the fog of war can go digital, and there 
can be so much data out there that sifting through that to find 
the kernels of knowledge and ultimately wisdom that we require 
is still a demanding experience.
    That is why I think we need to put a premium, even as we 
work to reduce the risk, on the agility and flexibility that 
General Ralston and Admiral Blair referred to, which, given 
this unexpected turn of events, we were able to respond. We 
need to anticipate that as much as we can and we need to 
understand that there is a fundamental difference between the 
consequences of an outcome and the probability of an outcome. 
Something may be very, very improbable, but if it happens it 
can have huge consequences, and that type of thought process 
has to undergird all of our planning and I believe does within 
the Department of Defense.
    Chairman Stevens. Thank you very much.
    Senator Burns I think is next.
    Senator Burns. Just one short question. Murphy's law is 
always ever-present. I think there is not an operation that we 
should go into that we do not have a plan B and backups, so 
that is it. But I caught in the testimony this morning, 
especially from you, Admiral Blair, that agility is the key. In 
your own assessment of the military part of intelligence, are 
we agile enough to change the way we do things in light of an 
enemy that is faceless, operates in the shadows, and employs 
completely different tactics than we have ever seen in the 
world before to deal with that? Are we agile enough to complete 
that message, to complete the mission that is in front of us 
today?
    The U.S.S. Cole comes to mind. How did we change when that 
incident happened? Or the bombings of the Embassy; how did we 
change internally to deal with this new enemy? Are we agile 
enough to do that?
    Admiral Blair. Sir, I think we are very agile at reacting 
to this sort of thing. In each of the cases that you mentioned, 
I was on active duty for both of them and there were extensive 
changes made within the Navy, within the joint forces, that 
made us much stronger against that kind of threat.
    We perhaps do not anticipate the new things as well as we 
should, but we do react to adversity by fixing problems and 
getting better. I would say the key to that really are the 
people that we have in the armed forces. When you look at one 
key, it is the sergeants and the petty officers and the junior 
officers. Those of us in senior positions generally think that 
the best we can do is give them the resources they need, listen 
to them, make the adjustments to do it.
    I think we are agile within the military forces. Sometimes 
I worry about our agility across departmental lines.
    Senator Burns. I will let all three of you comment on this. 
In light of that, then we have seen what happened at the U.S.S. 
Cole. Then we can look backwards and we can connect the dots 
and the information we might have had with regard to attacks 
like this in a semi-hostile environment in which the ship was 
moored.
    Did we change things then to look for different pieces of 
information that would give us some preemptive capabilities? 
That is what I am looking for, because, you know, it is easy to 
see the mistakes maybe of 9/11 because the rear-view mirror is 
always 20-20.
    I want you to comment on that, and also do you believe that 
the paramilitary element of the CIA provides a unique 
capability that really contributes? There are some that would 
say the report says that it is redundant, and you might comment 
on that. General Ralston.
    General Ralston. Yes, sir, Senator Burns. Let me take both 
of those to start off with. With regard to did we learn things 
from the Cole and other incidents that helped us: During my 
experience in Europe--and I am sure the other commanders had 
the same experience--we probably got 30 messages a day saying 
something is going to blow up in your area of responsibility; 
we're not sure exactly where, we do not know exactly when.
    Now, you take 30 a day times 30 days a month, that is 900 a 
month. That is 10,800 a year, and over a 3-year period that is 
over 30,000 messages. Now, every one of those has to be looked 
at and evaluated. You cannot automatically hit the delete 
button every time one comes up. And some of those, through 
intuition or whatever, there was enough there that we would 
take overt actions to thwart whatever the particular threat 
was.
    You never hear about those. You never hear about the 
attacks that were thwarted because the intelligence community 
gave us the information that allowed us to do that.
    My personal judgment is 30,000 messages are too many. I 
would like to see something less than that. But that is the 
situation that we are dealing with today.
    With regard to the paramilitary capability at the CIA, I 
personally believe that it is a necessary and important 
capability. I will defer to Admiral Blair, who dealt with that 
on a much more personal basis during his time at CIA. But that 
is my own personal opinion.
    Admiral Blair. In reply to your question, Senator, I do not 
think--I think a commander has to be better than his 
intelligence. If you just sit there and wait until intelligence 
tells you that there is going to be an attack in this part 
there, then what do they need you for as a commander? Might as 
well just put the intel officer in charge. By the way, I think 
that is part of the mistake we are making with some of this 
legislation.
    I would sit there as a commander and I would think: You 
know, have not heard anything for a while, but they are out 
there plotting something, so I am going to change a look. I am 
going to turn a ship around, not let it go into that port. I am 
going to put it in and I am going to put a big security 
detachment around it. I sent messages to my people to go out 
and do things that make them unpredictable.
    It is just very hard to get inside of every organization 
that wishes the United States ill and expect to have their 
battle plan handed to you. You have got to get beyond that. And 
we did that in a lot of cases. I think that now that we are on 
the offensive against Islamic terrorism, we can do even more. 
That is the way we are going to beat it, not counting on 
getting perfect intelligence for it.
    As far a paramilitary operations go, I believe that we 
should have components within the Department of Defense and 
within the CIA and that they should be working very closely 
together to apply the right kind of capability to the right 
kind of task, because some of them are better at it than 
others, and in certain circumstances you want somebody there 
who is not tied to the armed forces of the United States. In 
other cases you want somebody who has an ID card, subject to 
Geneva Convention, and so on. You want both tools in your kit.
    Admiral Ellis. Senator, I would only add on the Cole 
example that you cited that I was the Navy's commander in 
Europe when that untoward event happened in the Central Command 
area of responsibility, and things changed dramatically. The 
Navy completely rethought port security programs. They 
identified new capabilities in embarked marine units, and so 
completely gave a new assessment and a new twist to that.
    I would also add that it dramatically enriched, thanks to 
the support from European Command, our interaction with allies 
in terms of intelligence-sharing and the type of information 
that in many ways they are uniquely privy to because of the 
relationships and the positions that they occupy around the 
world. So our ability to assess and assimilate that and to some 
degree their willingness to come forward with that type of 
intelligence was enhanced, regrettably after the fact rather 
than before.
    On the paramilitary side, I would only echo the comments of 
my colleagues here, in that that represents a unique 
capability. I mean, we have in the military, as you know very 
well, capable special operations forces. My son is a major in 
the Army Rangers. And they represent tremendous capabilities. 
But there is a unique dimension that comes from the agency and 
those paramilitary forces that I think better fleshes out the 
full spectrum of capabilities the Nation is going to need in 
this uncertain future.
    Senator Burns. Thank you.
    Chairman Stevens. Senator Cochran.
    Senator Cochran. When I was in the Navy we had an Office of 
Naval Intelligence and I was a shipboard legal officer with a 
collateral duty and ended up working with that agency to some 
extent. But I was mainly a naval officer learning how to drive 
the ship and do what all naval officers at sea get to do if 
they are lucky enough to have a job like that.
    But my question is, now with all of the jointness and the 
Goldwater-Nichols legislation that reformed the way the 
military was organized, are we going to need to improve or 
enhance the capabilities of joint intelligence operations by 
adding to whatever legislation we may pass in light of the 9/11 
Commission report? Should we do anything to improve and 
modernize the individual services' organizations and force them 
into more of a cooperative unit? Should there be a joint 
military intelligence agency formed instead of the individual 
service agencies? Should that be considered by the Congress?
    General Ralston. I will give you an opinion, Senator 
Cochran. I think, first of all, there has been so much progress 
since 1986 as a result of Goldwater-Nichols that we are an 
entirely different military today than we were 18 years ago, 
and sometimes we do not realize how far we have come in that 
regard. We today have joint intelligence organizations where 
you will have intelligence personnel from the various services 
if that is necessary in a particular theater to do.
    I would broaden your question slightly and say, as you look 
at things that may need to be done over the future, I think 
there were some lessons in Goldwater-Nichols that probably are 
applicable to the broader intelligence community. How do you 
get people at CIA to understand the culture of DIA or the 
National Security Agency, and vice versa? So some kind of 
mandated rotation of people from one intelligence agency to 
another so they can better learn what is going on in that job 
may be useful to the overall intelligence community. So I think 
that is something that deserves looking at.
    Admiral Blair. Senator Cochran, I believe we still need 
naval intelligence officers. Submarines are being built around 
the world and we need people who are worrying about where 
submarine warfare is going so that the Navy can build the right 
kind of countersystems and can advise anti-submarine commanders 
when they have it. So you still need a strong service 
component.
    Then when we operate at the joint level, you slam your 
service intelligence officers together and they pool their 
knowledge to try to help joint operations. I believe we could 
use better education of our intelligence officers as they move 
from their single service early training to their joint middle 
age. When you get to these senior levels, I would say about 75 
percent of the jobs are joint intelligence flag officer jobs, 
admirals and generals. Unlike the preparation on the line side, 
where we have National Defense University and we have joint 
components of service education, we do not do very well in 
transportation our joint intelligence officers to do that.
    So I think you put your finger on an area, but I think the 
solution is strong education through the mid-range of those 
intelligence officers' upbringing.
    Admiral Ellis. Senator Cochran, that is a great point you 
make. I would only add that I hope your experience was the same 
as mine, that the key to being a good joint officer is that you 
first have to be a good naval officer or service officer in 
which you find yourself. If there is a risk in focusing on 
jointness too early on a career path or making everything 
joint--``born joint'' I guess is the terminology these days--
you lose the essence of that service culture that that officer 
when he or she arrives in that joint billet provides, that is 
so essential to those joint commands that already exist, as 
General Ralston noted.
    The other caution I would add is that, as with all highly 
skilled and very capable and dedicated force structures, the 
gene pool is fairly shallow in intelligence. As you work with 
reform and talk about creating other entities or other 
agencies, you have to ask yourself, how much does that dilute 
the numbers and how long does it take you to grow additional 
numbers if indeed they are required in order to fill that out?
    So some restructuring within the confines of existing 
numbers, preserving service equities, as has already been 
noted, and the important element that service officers 
contribute to the joint environment, while at the same time 
addressing institutional and organizational change, is part of 
the challenge that is going to be confronting this committee 
and the Nation in the months ahead.
    Senator Cochran. Thank you very much. Your answers were 
very helpful and your attendance here today is appreciated very 
much.
    Chairman Stevens. I thank you, too. I believe I have 
imposed on past associations to ask you to come today at your 
own expense and appear here to give us your comments. I want 
you to know that the record of today and tomorrow will be 
printed and be on every Senator's desk before we start 
consideration of the 9/11 legislation that will be presented to 
us next week. I think it is essential that members have an 
opportunity to review the comments of people who have 
experience in the field.
    In my opinion, the 9/11 Commission had a year to review all 
of the reasons for the failure of our national systems. Only 
two of those members had any previous experience with 
intelligence, to the best of my knowledge. They did a great job 
on their report. There is no question it is a really historic 
document. I still question their recommendations. They deserve 
and are getting our thorough review right now.
    But I think we also should listen to and above all should 
not ignore the comments of those who had real experience in the 
system and have seen the system change since 9/11. That I think 
is the greatest contribution that you have made today, is to 
give us some of your experience of what has happened since 9/
11. The system has evolved and, as I indicated, I think that 
our watchword should be do not harm the system as it exists 
today as we try to evolve it into a better system in the 
future.
    I do believe that the 9/11 Commission's report will see 
some action by this Congress. I do not know yet what it will 
be. But I come back to where I started today and that is that 
few people recognize that 150,000 out of the 175,000 employees 
of the Federal Government who are involved in intelligence 
today are military and that 80 percent of the money that goes 
into intelligence today is defense money.
    I still believe that both the commission and so far the 
Congress has failed to recognize the importance of not harming 
that system, because we are getting most of our people through 
the military system. They are attracting in a great many of 
these people that we are talking about in terms of analysts. 
They come through the military system into the intelligence 
system.

                            COMMITTEE RECESS

    Tomorrow we are going to listen to: Judge Richard Posner, 
he is a judge of the Court of Appeals of the Seventh Circuit 
and a professor of law at the University of Chicago; Dr. John 
Hamre, who we all know, former Deputy Secretary of Defense; and 
Mr. Dale Watson, former Assistant Director for 
Counterintelligence, the Counterintelligence Division of the 
FBI. I think they too have not been listened to so far and we 
want to make sure that the Senators have available their 
testimony.
    Again I thank you very much for coming and look forward to 
our continued friendship. Thank you very much.
    [Whereupon, at 12:19 p.m., Tuesday, September 21, the 
committee was recessed, to reconvene at 10 a.m., Wednesday, 
September 22.]


      REVIEW OF THE 9/11 COMMISSION'S INTELLIGENCE RECOMMENDATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2004

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:10 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Bond, Bennett, Byrd, Inouye, and Feinstein.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Chairman Stevens. We apologize for the delay. We are told 
some Senators are in a car and we believe they will join us. We 
hope that they will be here.
    We thank you very much for coming to be with us today. 
Particularly, Judge Posner, we know that you have flown in from 
Chicago. We are grateful to you for making the trip.
    We have with us three distinguished witnesses who will 
provide us their perspective on intelligence reform and the 
larger recommendations of the 9/11 Commission. The witnesses 
are: Dr. John Hamre, who was the former Under Secretary of 
Defense and is now President and CEO of the Center for 
Strategic and International Studies; Judge Richard Posner, 
Judge of the Court of Appeals for the Seventh Circuit, who has 
written a very thoughtful, provoking article regarding 
intelligence reform. As I told the judge, he is the one that 
really sparked my mind that we ought to inquire further into 
the attitudes of people who have had long experience in this 
area. I believe you are a professor at the University of 
Chicago Law School. We thank you very much, Judge, for joining 
us. The last witness will be Dale Watson, former Executive 
Assistant Director of Counterterrorism and Counterintelligence 
for the FBI. We are very honored to have you join us today and 
we appreciate very much your taking the time to come express 
yourself on this important subject.
    This is the second day of hearings. Dr. Kissinger and a 
panel of former military commanders in chief came yesterday to 
provide us their perspectives on intelligence reform. We look 
forward to your testimony.
    As we look to the future, I think it is appropriate that we 
assess what change is needed within our intelligence community 
and how the overall system can be improved. However, we should 
not lose sight of how the integral intelligence system has been 
changed since 9/11 and how important it is to our national 
security, and we believe we should not be in a rush to make the 
reform and possibly guarantee the failure because of the speed 
with which it is made. I said yesterday I think our slogan 
ought to be: ``Do no harm to the system that exists now due to 
the changes that have been made since 9/11.'' We hope to gain a 
better understanding of these matters as we listen to the three 
witnesses today.
    Senator Byrd, do you have an opening statement to make?

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. I do, a brief one, Mr. Chairman. Is this on, 
this mechanism? Well, the United States has been a great power 
in this world and it has been able to put a man on the Moon and 
bring him home safely again, but it has not been able to 
perfect a good public address system.
    Now, thank you, Mr. Chairman. Let me join in welcoming our 
witnesses and expressing my appreciation for their willingness 
to appear before the committee today. Thank you again, Mr. 
Chairman, for carving out the time to hold these hearings in 
the midst of the busiest time of the year.
    I do not believe that we can overstate the importance or 
the difficulty of the challenge before the Congress. Reforming 
the Nation's complex array of intelligence organizations is an 
undertaking of monumental proportions. Yet, there appears to be 
a growing drum beat of opinion that Congress has no choice but 
to undertake a complete overhaul of intelligence in the few 
weeks remaining in the session.
    I have to disagree. We may well have adequate time to 
address some of the most straightforward recommendations made 
by the 9/11 Commission and others, but there are many 
complicated issues involved with intelligence reform that will 
require far more work and far more time to resolve. Dr. 
Kissinger made a strong case yesterday for taking enough time 
to do the job right, and that is the way it ought to be done. 
Perhaps 6 to 8 months, he said. That hardly seems unreasonable, 
given the magnitude of the intelligence changes being proposed.
    Dr. Kissinger also pointed out that intelligence reform has 
ramifications far beyond any single incident. The 9/11 
Commission recommendations, which formed the basis for the 
majority of the proposals being developed in Congress, are 
predicated on the lessons learned from one tragic episode.
    But Congress should look at a far broader canvas, including 
the intelligence failures that contributed both to the war and 
to the continuing insurgency in Iraq. The 9/11 Commission 
looked back. Congress must look forward as well as back. 
Congress must develop intelligence reforms that not only 
address the failures of the past, but that also anticipate the 
requirements of the future. And it is not a job to be 
undertaken lightly in the final stretch of all times and the 
final stretch of an election year.
    I hope that the Senate will give ample time and 
consideration to all of the proposals for intelligence reform 
and will not feel pressured to act with undue and unwise haste.
    Now, Mr. Chairman, I will not be able to remain long. I 
have to go to another appointment, but I look forward to 
reading the hearing transcripts and to hearing from these 
witnesses. I again thank you, Mr. Chairman, for holding these 
hearings.
    Chairman Stevens. Thank you, Senator. These hearings will 
be printed and be on the desk of every Senator by Monday 
morning.
    Does any other Senator wish to make an opening statement? 
Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, I want to commend you for 
holding these hearings to assess the views of former military 
and foreign policy and intelligence experts on the 
recommendations of the 9/11 Commission.
    I apologize that I was not here yesterday, but I was 
carrying out my duties as vice chairman of the Committee on 
Indian Affairs. I have been briefed on the testimony of Dr. 
Henry Kissinger and the former combatant commanders and I plan 
to review the transcript of that hearing as well when it 
becomes available.
    I say that because of the importance of this issue and the 
seriousness that I believe must be attached to this matter. 
Every Member of the Congress needs to consider this with 
extreme care. Mr. Chairman, the 9/11 Commission provided the 
American people with an outstanding review of the events of 9/
11, the mistakes, the flaws, and bad luck that allowed those 19 
hijackers to board and take over four commercial airliners in 
our domestic airports and then to turn them into kamikaze 
bombers. We should all be grateful for the time and energy that 
the commissioners and their staff devoted to uncover the 
details of this tragedy.
    However, as some readers have examined their report, they 
have come to different conclusions than the commission about 
how best to respond to the events of 9/11. The commission sees 
an intelligence community failure to connect the dots. Others 
liken the challenge to searching for needles in a haystack and 
try to tie a few individuals to potential crimes while ensuring 
that we are not engaged in racial profiling or trampling on the 
civil liberties of our citizens. While the commission believes 
there was a lack of imagination in our intelligence community, 
others note the difficulty of trying to prepare for an 
unprecedented incident.
    Mr. Chairman, I believe everyone who has an understanding 
of our Nation's intelligence capability believes we should and 
can do more to improve the relationship among the intelligence 
providers and users to ensure a more seamless integration. 
However, should we rush through this legislation which might 
turn the intelligence community upside down to ensure this 
integration? The need for this hearing is to assess this very 
critical point.
    So again, Mr. Chairman, I thank you for calling the 
hearing, and I look forward to a very thoughtful and thought-
provoking exchange with these very notable witnesses.
    Chairman Stevens. Thank you very much.
    Senator Feinstein, did you have a statement?
    Senator Feinstein. Thank you. Just a very brief one, Mr. 
Chairman. I want to thank you for the hearing.
    I am here as one member of the Intelligence Committee who 
believes it is very important that we get this right. I also, 
in my time on the committee, have come to see the need, I think 
rather early on, for a National Intelligence Director, separate 
from policy. I hope that this group before us today, all of 
whom are very distinguished, will comment on a few things.
    The first is the defense connection: How you would have a 
National Intelligence Director with strong budgetary and 
personnel authority and able to control the dollars, 85 percent 
of which now are controlled by the Department of Defense, and 
yet still maintain an appropriate line with defense? What would 
you do with TIARA? What would you do with JMIP? That is the 
first thing.
    The second thing would be where you would place an NID? The 
9/11 Commission said the NID should be placed in the Office of 
the President. They then backed away from that. My own view is 
that the NID should be in the CIA or on the premises because 
that is the most troubled, I believe, of the agencies.
    The third thing I wanted to ask you about is the 
declassification of the top line of the budget.
    But the issue I think that separates policy and 
intelligence is whether the NID is a term appointment, and if 
so, what is the length of term? Five years or 10 years, to give 
some kind of independence? Or should the NID be a pleasure 
appointment of the President?
    Thank you very much.
    Senator Domenici. Mr. Chairman.
    Chairman Stevens. Senator Domenici.

                 STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. I do not have a substantive statement. I 
just wanted to say I am sorry I do not know all the witnesses 
as well as I know Dr. Hamre. I know him from his days here. I 
would think he is particularly qualified to talk about 
authorization and appropriations because he served as an 
assistant to Sam Nunn for a long time here in the Congress. In 
that capacity, he saw authorization versus appropriation. This 
commission is suggesting that all of that be vested in the 
intelligence group itself. I have great skepticism about that.
    Yet, I would like the intelligence people to be assured 
they are going to present their views. I do not know that the 
only way to do that is to give them both the authority to 
authorize and the authority to appropriate. But I do think if 
they have great concern about what is recommended by 
committees, I think they ought to have a very powerful way of 
making sure we understand what it is they need in a very big 
and powerful way. Perhaps before they are finished--I do not 
know that I can be here--some of you at the witness table can 
address that issue. I would hope that you could, Doctor, 
because you know a lot about it.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much.
    Gentlemen, it is my intention to ask each of you to make 
your statement. Then we will have questions as members might 
wish to ask of any of you. Because some of the members are 
going to leave, I think it would be best to hear all of your 
statements, if it is possible. We will call on you first, Dr. 
Hamre.
    We put in the record the full statements of all three of 
you, and the background statement of your career will precede 
that statement. That, as I said, will be printed, as well as 
the question and answer session, and delivered to Senators by 
Monday of next week.

STATEMENT OF DR. JOHN J. HAMRE, PRESIDENT AND CEO, 
            CENTER FOR STRATEGIC AND INTERNATIONAL 
            STUDIES
    Dr. Hamre. Chairman Stevens, ranking member Byrd, all of 
the distinguished members of this committee, I am very grateful 
to be invited back. I remember very clearly the many 
opportunities I had to come before this committee earlier. They 
are all vivid in my imagination. Not all of them were fun, but 
it was vivid and, quite frankly, one of the proudest 
experiences of my life was being able to come before this 
committee. I was the very frequent recipient of very fatherly 
advice from Senator Byrd on the Constitution and the role of an 
appointed officer of the Government, and I do thank you for all 
of that guidance through the years.
    I will be very brief because I know we are starting now to 
say the same things over and over again to each other. I will 
try to take a moment, Senator--I did not mean to address it but 
I will--to say something about the authorization/
appropriations.
    First, let me say I am very grateful that you are taking 
these hearings. As a country, we both want our Government to 
protect us and we frankly want to be protected from our 
Government. That depends on the oversight of the people's 
branch of the Government, the Congress. So you are doing right 
now the most important mission that the people have given you, 
which is to oversee for us these very important changes.
    I am very worried that there is a tremendous energy in 
passing legislation right now. It is an energy that is really 
derived more from politics than from the substance of the case. 
The 9/11 Commission--and I share your admiration for their 
work--was really quite astounding. But I think they too 
narrowly designed a set of recommendations around one problem, 
and that was this so-called ``connect the dots'' problem. I 
personally think we have overstated the case that that was an 
intelligence failure. In my mind, it was more a policy failure 
than an intelligence failure because none of us, myself 
included, really took seriously that threat, and the 
intelligence community followed in line.
    Now, far more serious I believe was the intelligence 
failure with Iraq, forecasting that we would find large stocks 
of chemical and biological weapons--I thought we would find 
them--and not finding them. There was no place in the world 
that has been more scrutinized than Iraq for the last 10 years 
by our intelligence community. How could we miss something so 
big as this? I think that it was a product of a collective 
group-think that settled over the community, and we did not 
really analyze the facts well.
    My worry about the recommendations of the 9/11 Commission 
is that it will make that problem worse. If we try to bring the 
entire establishment of the intelligence community under one 
personality, we are going to exacerbate the tendency toward 
group-think. We are not going to make it better. And in my 
view, that is a bigger problem. We are going to make bigger 
mistakes as a country if we just put all of our reasoning under 
one entity.
    So let me, if I may, say I share very much your view that 
the guiding philosophy right now should be ``do no harm.'' It 
is good for the medical community. It is good for the political 
community. We ought to be very careful to do no harm, as you 
said, Mr. Chairman, here today.
    I think there are three primary objections that I have for 
the general theme that seems to be emerging.
    First, I think we have to avoid the politicization of 
intelligence, and putting a National Intelligence Director in 
the White House is a bad idea. That would be a terrible mistake 
because the closer you get to the Oval Office, the more 
political the activity. And that is not a bad thing. We 
designed our system that way. That is okay. But you do not want 
your intelligence activities to be politicized. You want 
dispassionate, honest assessment of difficult facts, and you do 
not want that brought into an environment that is shaped by 
people's hopes for how they can characterize their work for the 
future and make plans for the future. So I think it is a bad 
idea to do that.
    Second, I think it is very worrisome to have an all-
powerful intelligence authority that then puts at risk the 
constitutional responsibilities of Cabinet secretaries. 
Ultimately, policy is made by Cabinet secretaries. It should 
not be made by an intelligence director. And the Cabinet 
secretary needs to have his own independent basis to reach a 
conclusion, not be dependent on a single stream of information 
coming from an intelligence czar. So I think it is extremely 
important that the Cabinet secretaries not lose their capacity 
to do intelligence analysis.
    Now, I do think we can do a much better job of coordinating 
and centralizing the intelligence factories, the satellites and 
the listening stations and things that produce raw material, 
but I do not think we should be trying to centralize the 
assessment. We cannot put at risk the constitutional 
authorities that are vested by you in Cabinet secretaries to 
carry out and be official officers of the Government, and they 
have to come to the table and be able to render their own 
independent judgment, not be dependent on someone else.
    Third, I am very worried about the formulation for 
providing budget control and authority to someone other than 
the Cabinet secretary that owns the institution. Divided 
command and control is always a formula for problems, at best 
problems and most likely chaos. The recommendation of the 
commission, which is to leave the intelligence organizations in 
the Cabinet departments, but to give the personnel and budget 
authority to a new central intelligence director, I think is a 
bad idea. From my own personal experience being comptroller, I 
do not know how I would run the place when I do not really 
control the people for the Secretary and it is another 
department that is running them. I think that is a very bad 
idea. It is much better to have clean lines of authority.
    I have written before that if we are going to create an 
NID--and I do not want a weak NID and we are going to get one, 
I am afraid if we do not do this right--then I think you need 
to put real institutional power underneath it, and I frankly 
would be willing to move the factories to put them under the 
NID. But I do not think it is a good idea to have divided 
control of budgets in the entire intelligence community where 
they are under one guy, but they are institutionally placed in 
another organization. I think that is going to be chaotic.
    May I say a word about the authorization and appropriations 
process? This is the fifth committee that I have spoken before 
since this whole issue has come up, and in every committee, I 
have been asked this question about the quality of oversight.
    Frankly, the quality of congressional oversight is not 
good. It is not as strong as it needs to be. I think we are 
confusing it by this issue of consolidating authorizations and 
appropriations. I have said to the Armed Service Committees--I 
used to work there, as you know--that they have made a huge 
mistake thinking that they are powerful only by trying to do 
what you do, shape the dollars. There are reasons you have 
authorization committees. They are to set the broad trends and 
directions for the policy goals and to oversee the functioning 
of the Government. But they spend far too much time wanting to 
shape the way you appropriate little lines in the budget, and I 
think that is a mistake. You play a crucial and indispensable 
role. They play a crucial and indispensable role, but they are 
neglecting it, in my view, by putting too much time and 
attention on budget detail.
    I would like to see them spend far more time looking at the 
large purposes, the large policy directions, and overseeing the 
true functioning of these institutions. That is what I think 
was intended by having separate authorization and 
appropriations processes. They can be complementary, but during 
the last 20 years, frankly, they have been in conflict with 
each other. And I think that needs to change, and I will be 
glad to amplify on that further at another time.

                           PREPARED STATEMENT

    Thank you for the privilege of coming before all of you.
    Chairman Stevens. Thank you very much.
    [The statement follows:]

                  Prepared Statement of John J. Hamre

    Chairman Stevens, Ranking Member Senator Byrd, distinguished 
members of the Committee, it is an honor to again come before this 
distinguished committee to discuss one of the most important subjects 
of our day--how we organize the intelligence functions of the United 
States Government to meet the future challenges confronting our 
country. At the outset let me emphasize how grateful I am that you are 
making a dedicated study of this matter. America's security depends on 
a sophisticated and robust intelligence community. But Americans are 
nervous about their own government at times. We must have a government 
that can protect us, and we all want to insure we are protected from 
abuses by our government. That depends on the oversight of the people's 
branch of government, the United States Congress. I am very grateful 
you are assuming these responsibilities at this critical time.
    Mr. Chairman, we are now very far along the road in this debate. 
Unfortunately, from my perspective, the shape of this debate has been 
driven more by political imperative than deep analysis of the 
challenges we face in this area. We do need intelligence reform, I 
believe. But I believe the debate to date, and the proposals before the 
Congress, are too narrowly constructed around one perceived failure of 
the intelligence community, and that is the failure to coordinate the 
activities of the components of the intelligence community.
    Frankly, I believe that the so-called intelligence failure of 9/11 
is overstated. I believe that 9/11 was just as much a failure of the 
policy community--the near uniform absence of consciousness of the 
specific threats we experienced on 9/11 by the policy world. Far more 
serious were the failings of the intelligence community that forecast 
massive stocks of chemical and biological weapons in Iraq. No place on 
earth was more scrutinized than Iraq during a period of a decade, yet 
we missed this story almost completely. Again, the policy community is 
not without blame. But this has to be considered a massive intelligence 
failure, too.
    The recommendations of the 9/11 commission are almost entirely 
oriented around the issue of coordination. That was not the problem 
with the missing weapons of mass destruction in Iraq. Narrow ``group 
think'' plagued us in that instance, and I firmly believe that problem 
will be worsened by the recommendations of the 9/11 Commission.
Do No Harm
    Mr. Chairman, we are being propelled by the election to rush to 
pass legislation before you adjourn the 109th Congress. Elections are 
great times to hold debates, but terrible times for making binding 
decisions. The medical community has enshrined the principle of ``do no 
harm'' in the practice of medicine. I think that is good counsel to the 
Congress at this critical moment. In this regard, I think there are 
several key issues that I would bring to your attention.
The Politicization of Intelligence
    The intelligence community is always seeking to serve the needs of 
the policy leaders. There is a fine line between ``serving the needs'' 
and ``pleasing'' the policy bosses. It is critical that the 
intelligence community not cross over that line. The 9/11 Commission 
completely breaks through that line. Putting the intelligence czar in 
the White House at the right hand of the president is a terrible idea.
    By definition, the closer your office is to the Oval Office, the 
more political your activities. That is not a bad thing. That is a good 
thing. Politics is a constructive force in American government. But 
intelligence should not be part of the political life of the White 
House, and locating the DNI in the White House would invite the direct 
politicization of intelligence.

Eroding the Responsibilities of Constitutional Officers
    Making the intelligence czar the single focal point for 
intelligence inputs to the president and the cabinet is a terrible 
idea. Undercutting the cabinet secretaries who are constitutional 
officers of the government charged to manage the instruments of foreign 
and security policy for the country is a bad idea.
    Through the 1970s, it was the practice of the National Security 
Council to have the Director of Central Intelligence attend the start 
of the meeting, brief the cabinet secretaries and other members of the 
Council on the facts, answer questions, and then depart the meeting so 
that the Council could deliberate the policy alternatives for the 
government. I believe that was the superior model. Current practice has 
the DCI participating throughout the deliberations. The 9/11 Commission 
would make the new DNI a super-agent in those meetings. This is a trend 
in the wrong direction.
    Accountability for the policies and activities of the U.S. 
government flow from the president down through the constitutional 
officers of the government--the cabinet secretaries. They must be both 
free to decide and completely accountable for their decisions. I fear 
these recommendations would undercut their standing and their 
accountability.

Confused Command Relationships
    The 9/11 Commission called for giving the DNI control over the 
budgets and personnel within the departments of other cabinet 
secretaries. I believe this is a bad idea. I served as Comptroller for 
the Defense Department and then as Deputy Secretary. I can tell you 
from personal experience that ambiguous command relationships 
invariably lead to serious substantive problems. The formulation of 
divided command authority envisioned by the Commission is an invitation 
to turmoil at best and most likely serious operational problems.

So What Should the Congress Do?
    Mr. Chairman, distinguished members of the Committee, I have 
delineated the reservations I have about the 9/11 Commission 
recommendations. I know that there are competing bills now under 
consideration in the Congress. Some of those bills closely match the 
recommendations of the commission and some depart significantly from 
those recommendations. As I said, I am most worried that the Congress 
will feel propelled by the impending election to decide something. We 
did that when we created the Department of Homeland Security, and 
candidly that is a mess. The risks of making a serious mistake here are 
greater, I believe.
    Yesterday, my think tank--the Center for Strategic and 
International Studies--released a short declaration of principles 
developed by a bipartisan and very distinguished group of former 
government leaders who have had exceptional and direct experience in 
foreign and security affairs for the United States. Those principles, 
which, I should add, reflect the collective opinion of the 
distinguished signatories rather than those of the Center, put forward 
a uniform message of caution. The declaration also contains useful 
suggestions to guide a more deliberative reform process. I would ask 
permission of the Chairman to have this declaration of principles 
included at this point in the record.

Conclusion
    Mr. Chairman, we do need to reform our intelligence community. But 
we need that reform to be based on a dispassionate assessment of all 
the failings of the intelligence and policy communities, not just the 
coordination problem perceived to have been the cause of 9/11. 
Centralizing intelligence management to solve coordination problems 
will exacerbate the greater failings of the intelligence world, I 
believe. I strongly caution the Committee to take the time to fully 
assess all the problems we need to fix and ground a reform on a 
thorough, bipartisan foundation of representative government and 
government accountability.
    Thank you for the privilege of testifying before you today. I am 
pleased to answer any questions you might have.
                                 ______
                                 

               [From the Washington Post, August 9, 2004]

  A Better Way to Improve Intelligence: The National Director Should 
               Oversee Only the Agencies That Gather Data
                            (By John Hamre)

    It's refreshing to have a big debate in Washington. Too often our 
debates are small and arcane. The Sept. 11 commission has touched off a 
much-needed debate of constitutional proportions: How do we best 
organize the intelligence functions of the Government to protect the 
Nation, yet oversee those functions to protect our citizens from the 
Government?
    The commission has rendered an enormous contribution to the Nation. 
But its recommendations need to be the starting point for a great 
debate, not the final word. Political passions are rising, which 
portends danger. The American system of Government is designed to move 
slowly, for good reason. Such a big and complex country needs to fully 
consider all the implications of major changes. We make mistakes when 
we move quickly, and we can't afford to make a mistake here.
    Good as they are, the commission's recommendations are too narrowly 
centered on one problem. This is understandable. The commission was 
established to examine the problems the Government had detecting and 
preventing the terrorist attacks on Sept. 11, 2001. By definition, that 
was a matter of coordination among elements of the Government, both 
vertically within organizations and horizontally across institutions. 
This is often referred to as the ``connect the dots'' problem.
    But that isn't the only trouble with the intelligence community. 
Before the war in Iraq, the policy and intelligence communities held 
the near-unanimous conviction that Iraq was chock full of chemical and 
biological weapons, yet we found nothing. We collectively embraced a 
uniform mind-set, which is every bit as serious a problem as connecting 
the dots.
    The field of view of our intelligence community is too narrow. The 
community is relatively small and its component institutions isolated. 
It is understandably and necessarily preoccupied with protecting 
sources and methods. And bureaucracies naturally fight for resources. 
In that environment, intelligence bureaucrats, like bureaucrats in any 
organization, strive to please their policy bosses. Taken together, 
these factors contribute to an endemic narrowness of perspective. The 
shorthand label given to this problem is ``groupthink.''
    We need to fight that narrowness by creating more competition for 
ideas in the intelligence assessment world. The competition among ideas 
is improved when different organizations reporting to different bosses 
compete for better insights and perspectives. Bringing together the 
entire intelligence community under a single boss who exercises budget 
and personnel control would further constrain the constructive 
competition we need within the intelligence community.
    The two great problems--connecting the dots and avoiding 
groupthink--are in tension with each other. Implementing an 
organizational solution to just one of the problems will worsen the 
other.
    The great debate underway in Washington has two camps. The Sept. 11 
commission, Sen. John Kerry and many congressional leaders believe a 
new director of national intelligence (DNI) can succeed only if the 
person in that job controls the budgets and personnel of the 
intelligence agencies. People in this camp would leave the agencies 
with their host departments but give the budgets and control of 
personnel to the new director.
    President Bush chose a different path. His plan would create a 
relatively weak DNI, whose power would come from managing a set of 
interagency processes and supervising a set of ill-defined new centers. 
Unfortunately, if unintentionally, this approach also diminishes the 
bureaucratic standing of the CIA.
    In sum, both approaches are flawed. I know from personal experience 
in Government that ambiguous command authority is dangerous. Keeping 
intelligence agencies within a department whose budgets and senior 
leadership depend on people outside the department won't work. 
Similarly, we have a long history to demonstrate that the power and 
standing of central coordinators of interagency processes--Washington 
policy wonks now call them ``czars''--deteriorate rapidly with time.
    More fundamentally, each of these two approaches solves one of the 
great problems but exacerbates the other. The Sept. 11 commission's 
proposal would improve ``dot-connecting'' but would threaten 
competition among ideas. The president's recommendation would better 
sustain idea competition but do little to solve the problem of 
interagency coordination.
    Frankly, I didn't favor the idea of creating a DNI, but I 
understand politics. Both political leaders in a hotly contested 
campaign have endorsed it as a symbol. We will have a DNI. We now have 
to ensure that we get a good solution. There is a third path.
    The new DNI should run the existing interagency intelligence 
centers or their successors and coordinate the tasking process. But the 
DNI needs to be undergirded with real institutional power. The 
technical collection agencies--notably the National Reconnaissance 
Office, the National Security Agency and the National Geospatial-
Intelligence Agency--could be transferred to the DNI. The new director 
would manage the factories that provide raw material and support to the 
intelligence bureaus, which would remain within the Cabinet 
departments.
    This approach would facilitate the integration of data collection 
while preserving diversity of perspective across the community for 
purposes of strategic assessment. Cabinet secretaries could devote 
their energies to demanding better analysis, rather than managing large 
bureaucracies that run machines to collect raw material for the 
intelligence process. This approach also would ensure that oversight of 
domestic surveillance on American citizens remained a responsibility of 
the attorney general, who is charged with protecting our civil 
liberties. Even here, however, the FBI could turn to the central 
collection agency, but under the attorney general's supervision.
    My friends in the Defense Department are shocked that I have 
suggested this approach. Modern American war-fighting is more dependent 
on high-technology intelligence than ever before, they note. We cannot 
decouple the close working ties between our intelligence capabilities 
and our war fighters.
    But there are ways to ensure that we sustain those close working 
ties. We should continue to send our best military personnel to work in 
these agencies and to support national collection efforts with tactical 
military intelligence systems. The DNI should have a board of directors 
made up of senior operators from the supported departments. And 
underlying it all is what I know to be true: that all civilian 
employees in these agencies consider it their highest priority to 
support the American warrior in combat. That will not change, even if 
these institutions report directly to a DNI.
    Yes, there will be challenges and problems, but they are 
manageable. It is said that the intelligence community needs a reform 
like that of the Goldwater-Nichols Act, which transformed the Defense 
Department. In fact, Goldwater-Nichols changed the Defense Department 
because it institutionalized demand for better capabilities from the 
military services. The Pentagon fiercely fought Goldwater-Nichols when 
it was proposed by Congress. Now it swears by its results. We have 
proved in the Defense Department that we can bring competing 
institutions together for a common purpose without forcing people to 
wear a common uniform.
    The writer is president and chief executive of the Center for 
Strategic & International Studies and a former deputy secretary of 
defense. The views expressed here are his own.

    Chairman Stevens. I referred to Judge Posner before. We are 
delighted to have a scholar of your prominence, Judge, come to 
testify before us. I would call the attention of the members to 
the background statements in your folders. I can tell you that 
I have learned with great glee some of the things you have 
written, Judge Posner. You are a voice really coming from the 
judicial wilderness.
    We appreciate your coming.

STATEMENT OF HON. RICHARD A. POSNER, JUDGE, COURT OF 
            APPEALS FOR THE SEVENTH CIRCUIT
    Judge Posner. Thank you very much, Senator. It is an honor 
to be here. I do not have the expert knowledge of the other 
witnesses you have heard. I do think I am competent to read a 
document like the 9/11 Commission report and identify problems 
of logic and evidence which kind of leap out even to the non-
expert reader.
    My particular concern is with the organizational 
recommendations made by the commission which occupy only 28 
pages of an almost 600-page document. I am going to make four 
points very, very quickly.
    First, there is no evidence that the commission's 
organizational recommendations were informed by a study of the 
principles of organization or by consultation with experts in 
organization theory. No effort is made in the report to 
describe or assess the organization of intelligence gathering 
by other countries, countries we consider our peers in many 
respects and countries that have had often more durable 
terrorist problems than we have. No effort is made in the 
report to evaluate other organizational responses to problems, 
for example, the formation of the Department of Homeland 
Security, which has been criticized; the drug czar, which was a 
parallel that could have been explored but was not.
    Second, the organizational recommendations reflect an 
unexamined bias in favor of centralization over diversity in 
the organization of the intelligence function. The report 
recognizes that the CIA is more nimble than the armed forces 
when it comes to responding forcibly to terrorism. Yet, it 
wants to sacrifice this valuable example of organizational 
cultural diversity and transfer this function to the Defense 
Department.
    So there are basically two ways of controlling a set of 
agencies that are engaged in related tasks. One is vertical and 
hierarchical. Each agency head reports to some superior 
official and so on, up to the very top. But the other is a 
horizontal, decentralized mode of organization where the 
agencies are allowed to preserve their autonomy and their 
cultural uniqueness in personnel policies and methods and 
traditions, but there is some coordination, some loose control. 
This is a complex tradeoff between these two forms of 
organizing multiple agencies engaged in related tasks and the 
commission's report does not discuss the tradeoff.
    Third, the recommendation for a National Intelligence 
Director, as it is framed by the commission, portends an 
organizational nightmare, and Dr. Hamre has referred to some of 
the problems. Senator Feinstein asked pertinent questions about 
it. The proposal is a formula for turf battle. Turf battle is 
something I do know something about directly because I was 
Chief Judge of my court for 7 years, a very modest 
organization, but there are turf battles in every Government 
setting where there is some interface with another agency, in 
my case the court of appeals versus the district court.
    Some of the proposals in the report seem really quite 
bizarre. I was struck, for example, by the proposal that one of 
the deputies to the National Intelligence Director would have 
veto power over the selection of civilian and military 
officials, for example, the head of the FBI's Counterterrorism 
Division and an actual commander of the Special Operations 
Command. It is an extremely strange, complex, unprecedented, I 
think, organization that is being proposed. Again, it 
underscores the concerns that the Senators have expressed and 
Dr. Kissinger and others about the impossibility of creating a 
new structure in the waning weeks of the election season.
    And fourth--and this is the most important point, in a way 
the most fundamental point--an organizational solution is only 
suitable if you have an organizational problem. Now, we tend to 
neglect this obvious point because organizational solutions 
sometimes are simpler to effectuate than other solutions. They 
are visible. They are dramatic. They convey the impression of a 
vigorous response to a problem, but if the problem is not an 
organizational problem, then a reorganization will not solve 
it.
    I do not find in the 9/11 Commission report any indication 
that the attacks could have been prevented if only we had had 
an intelligence czar. If you look at why we failed, much of it 
I think has to be credited to the sheer novelty and audacity of 
the attacks and the ability of al Qaeda to avoid betrayals from 
within its ranks, which would be the general problem of a 
complex conspiracy: that you would have someone to spill the 
beans and it unravels.
    Of course, another factor that the commission rightly 
emphasized are problems with sharing of information, but this 
probably, by the evidence of the report, was just as serious 
within agencies as across agencies, within the CIA and within 
the FBI. And how can problems of sharing within agencies be 
solved by layering another set of controls over the agencies?
    Now, there are a number of other problems with the 
intelligence apparatus of the United States that the commission 
report flagged. There was inadequate screening of visa 
applicants, building evacuation plans--that is not exactly 
intelligence. Building evacuation plans were inadequate. There 
were misunderstandings about the actual rules for limiting 
sharing of information between law enforcement and intelligence 
officers. There is a grossly insufficient number of 
intelligence officers who are fluent in Arabic. The list goes 
on and on, but it is a list of managerial failures. It is not 
an indictment of a structure. Organizations have problems, but 
they are not necessarily or even commonly organizational 
problems.
    Clearly there is a need for coordination, a need for 
budgetary coordination to prevent gaps in unproductive 
redundancies, but I thought that was why we have a National 
Security Council and a National Security Advisor and an Office 
of Management and Budget. So again, it is very unclear what a 
new layer of bureaucracy will add.
    Now, issues of Government organization are baffling. Where 
you have a boundary between agencies, you have a turf war, and 
if you erase the boundary, you lose diversity and competition 
with the power of intelligent control. If only one person 
reports to the chief executive with regard to a particular 
function, then you are pretty much at that person's mercy. He 
will tell you only as much as he thinks you need to know.

                           PREPARED STATEMENT

    So I do not find the commission's very brief discussion of 
organizational issues an adequate recognition of the 
difficulties involved in organizing Government activities 
intelligently, and I would urge caution on Congress before 
changing the existing structure of the statement.
    Thank you.
    Chairman Stevens. Thank you very much, Judge.
    [The statement follows:]

                Prepared Statement of Richard A. Posner

    I am honored to be asked to testify before this committee regarding 
proposals for revamping our system for gathering intelligence relating 
to national security, specifically with reference to terrorist threats.
    I must make clear at the outset that I am not an expert on 
intelligence or national security. I do think however that I am 
competent to read a document like the 9/11 Commission's report and 
identify problems of logic or evidence that are visible on the face of 
the document itself, as it were. And one doesn't have to be an expert 
to realize the absurdity of trying to reorganize a major governmental 
function which happens to involve national security, 6 weeks before a 
Presidential election that pivots on national-security issues and to 
recognize the inauthenticity of the endorsement of the 9/11 
Commission's recommendations by both Presidential candidates.
    The vast bulk of the report consist of a narrative of the 
background to the 9/11 attacks, the attacks themselves, and the 
immediate response to them; and I have no criticisms of that part of 
the report. My criticisms focus on the much shorter part of the report 
that contains the Commission's analysis and recommendations, and 
particularly on the Commission's organizational recommendations, which 
occupy only 28 pages of the report. The main recommendation is the 
creation of an intelligence ``czar''; a secondary one is the shifting 
of operational antiterrorist activities from the Special Activities 
Division of the CIA to the Defense Department. I should add 
parenthetically that considering the fate of the czars, the use of the 
term by the proponents of the NID idea to describe a director of 
national intelligence is unfortunate.
    My major criticisms are the following. First, there is no evidence 
that the Commission's organizational recommendations were informed by a 
study of the principles of organization or by consultation with experts 
in organization theory. No effort is made in the report to describe or 
assess the organization of intelligence gathering by other nations. And 
no effort is made to evaluate the most closely analogous effort at an 
organizational solution to problems of fighting terrorism--namely the 
formation of the Department of Homeland Security--despite widespread 
belief that the effort has bee a failure. Another analogous 
organizational innovation, the creation of the drug ``czar,'' is also 
ignored, as is the evidence marshaled by the political scientist James 
Q. Wilson and others that reorganizations proposed by outsiders to the 
agencies proposed to be reorganized generally fail.
    Second, the Commission's recommendations reflect an unexamined bias 
in favor of centralization of the intelligence function and slight the 
benefits of diversity and competition in the production of useful 
intelligence. The report recognizes that the CIA is more nimble than 
the military in responding forcibly to terrorists, yet would sacrifice 
this valuable example of diversity in national-security cultures by 
transferring the CIA's special-operations function to the Defense 
Department.
    There are basically two ways of exercising control over agencies 
(or for that matter individuals) engaged in related tasks. One is 
vertical or hierarchical: the head of each agency reports to a superior 
official and so on up to the top man (or woman). Another is horizontal 
or decentralized: the agencies are autonomous, but someone is 
responsible for coordinating their activities, exercising in effect a 
loose control. The latter form of organization, because it fosters 
creativity and diversity, seems inherently better designed for 
intelligence than a hierarchical form of organization, given the 
uncertainty involved in producing and evaluating intelligence, which 
argues for a diversity of inquirers. The choice between vertical and 
horizontal methods or organization, and its implications for the 
optimal organization of our intelligence apparatus, seem to have eluded 
the Commission.
    Third, the recommendation for a National Intelligence Director 
portends an organizational nightmare of overlapping budgetary and 
command responsibilities. Our already complex intelligence apparatus 
will be made more so by adding a new layer over the existing multiple 
agencies. I envisage endless turf battles between the NID and the 
individual agencies under his nominal direction, especially in the wide 
area of overlap between anti-terrorist and military intelligence 
gathering. The CIA's moral, ability to recruit able people, and general 
effectiveness seems likely to be impaired by the reduction in the 
authority of the CIA's director that the Commission's proposal 
envisages. And the heterogeneity of our intelligence agencies, which 
include for example the National Reconnaissance Office, which is 
engaged in the design and launching of spy satellites, will defeat the 
NID's efforts to obtain any real control over or even understanding of 
the entire intelligence apparatus. Among the nightmarish complexities 
recommended by the 9/11 Commission is that the deputy to the NID would 
have veto power over the selection such civilian and military officials 
as the head of the FBI's counterterrorism division and the commander of 
the military's Special Operations Command. One of the NID's deputies 
would be the undersecretary of defense for intelligence, who would thus 
have two masters--the NID and the Secretary of Defense. This is a 
formula for bureaucratic disaster.
    Fourth and most important, an organizational solution is suitable 
only for an organization problem. This rather obvious point tends to be 
neglected simply because organizational changes are often simpler than 
other reforms; they are also highly visible and dramatic and thus 
convey the impression, however misleading, of a vigorous response to 
the problem. But if the problem is not organizational problem, 
reorganization will not do any good.
    I can find no evidence in the 9/11 Commission's report or any other 
materials that I have read that the failure to anticipate and prevent 
the 9/11 attacks or respond to them more effectively was due to the 
absence of an intelligence czar. It seems to have been due primarily to 
the sheer novelty and audacity of the attacks and to the ability of Al 
Qaeda to avoid betrays from within its ranks.
    A secondary factor emphasized in the Commission's report is a lack 
of sharing of information. But this problem was as serious within 
agencies--within the CIA and particularly the FBI--as between agencies, 
and so it is difficult to see how inserting a new layer of control over 
the agencies will solve the problem. The only organizational failure 
that the Commission detected is the incompatibility of the FBI's law 
enforcement activities with its anti-terrorist activities, and for the 
failure the Commission offers no cure.
    The Commission could have recommended breaking the FBI's anti-
terrorist function off and crating a new anti-terrorist agency on the 
model of the United Kingdom's MI5. That would have been a constructive 
suggestion. MI5 and MI6 (England's counterpart to the CIA) work well 
together because they're both intelligence agencies. The FBI doesn't 
work well with the CIA, because the FBI is not an intelligence agency, 
but a criminal investigation agency, in other words a plainclothes 
police department. MI5 has no power of arrest; the power to arrest 
terrorists is lodged in the Special Branch of Scotland Yard, Scotland 
Yard being England's counterpart to the FBI.
    Presumably MI5 has some of the same problems of coordinating with 
the Special Branch as the CIA does in coordinating with the FBI; in 
both cases, you have an intelligence agency working with a criminal 
investigation agency. But a section of the FBI that was, like the 
Special Branch of Scotland Yard, specialized to arresting and otherwise 
assisting in the criminal prosecution of terrorists might well made a 
better fit with a domestic intelligence agency modeled on MI5 than the 
current counterterrorism branch of the FBI makes with the rest of the 
FBI. Because the dominant culture of the FBI will continue to be that 
of criminal investigating, intelligence officers lodged in the FBI will 
always seem odd men out; a person wanting a career in intelligence will 
not be attracted to working for a police department. But it is quite 
otherwise with someone wanting a career in the criminal investigation 
and prosecution of terrorists, a respectable and indeed exciting field 
of police work. Such a unit in the FBI could holds its head high, and 
would at the same time have strong incentives to cooperate with the 
domestic intelligence agency.
    There are other problems with our intelligence apparatus that the 
Commission's report (the narrative portion, that is) flags: Inadequate 
screening of visa applicants, deficiencies in building-evacuation 
plans, misunderstood rules regarding the permissible limits of sharing 
of intelligence between criminal investigators and intelligence 
officers, an insufficient number of officers fluent in Arabic--the list 
goes on and on. But it is a list of managerial failures, not an 
indictment of the organizational structure.
    Organizations have problems, obviously, but they are not 
necessarily, or perhaps commonly, organizational problems. Barry 
Turner, in an article on disasters, lists the following common causes 
of ``large-scale intelligence failures'': ``rigidities in institutional 
beliefs, distracting decoy phenomena, neglect of outside complaints, 
multiple information-handling difficulties, exacerbation of the hazards 
by strangers, failure to comply with regulations, and a tendency to 
minimize emergent danger.'' \1\ None of these is a failure likely to be 
cured by a reorganization.
---------------------------------------------------------------------------
    \1\ Barry A. Turner, ``The Organizational and Interorganizational 
Development of Disasters,'' 21 Administrative Science Quarterly 378 
(1976).
---------------------------------------------------------------------------
    The 9/11 Commission was surely right that there is a need to 
coordinate the activities and budgets of the various intelligence 
agencies to prevent gaps and unproductive redundancies. But the 
Commission does not explain why that coordination function can't be 
performed by the staff of the President's National Security Advisor and 
the Office of Management and Budget.
    Issues of government organization are baffling. Where you have a 
boundary, you have a turf war; and if you erase the boundary, you lose 
diversity and competition, and with it the power of intelligent 
control. If only one person reports to you, you're pretty much at his 
mercy; he'll tell you just as much as he wants to. I do not find in the 
Commission's report an adequate recognition of the difficulties 
involved in organizing governmental activities intelligently. I would 
urge caution on Congress in changing the existing structure of our 
intelligence system.
                                 ______
                                 

               [From The New York Times, August 29, 2004]

                       The 9/11 Report: A Dissent
                         (By Richard A. Posner)

    The idea was sound: a politically balanced, generously financed 
committee of prominent, experienced people would investigate the 
government's failure to anticipate and prevent the terrorist attacks of 
Sept. 11, 2001. Had the investigation been left to the government, the 
current administration would have concealed its own mistakes and blamed 
its predecessors. This is not a criticism of the Bush White House; any 
administration would have done the same.
    And the execution was in one vital respect superb: the 9/11 
commission report is an uncommonly lucid, even riveting, narrative of 
the attacks, their background and the response to them. (Norton has 
published the authorized edition; another edition, including reprinted 
news articles by reporters from The New York Times, has been published 
by St. Martin's, while Public Affairs has published the staff reports 
and some of the testimony.)
    The prose is free from bureaucratese and, for a consensus 
statement, the report is remarkably forthright. Though there could not 
have been a single author, the style is uniform. The document is an 
improbable literary triumph.
    However, the commission's analysis and recommendations are 
unimpressive. The delay in the commission's getting up to speed was not 
its fault but that of the administration, which dragged its heels in 
turning over documents; yet with completion of its investigation 
deferred to the presidential election campaign season, the commission 
should have waited until after the election to release its report. That 
would have given it time to hone its analysis and advice.
    The enormous public relations effort that the commission 
orchestrated to win support for the report before it could be digested 
also invites criticism--though it was effective: in a poll conducted 
just after publication, 61 percent of the respondents said the 
commission had done a good job, though probably none of them had read 
the report. The participation of the relatives of the terrorists' 
victims (described in the report as the commission's ``partners'') 
lends an unserious note to the project (as does the relentless self-
promotion of several of the members). One can feel for the families' 
loss, but being a victim's relative doesn't qualify a person to advise 
on how the disaster might have been prevented.
    Much more troublesome are the inclusion in the report of 
recommendations (rather than just investigative findings) and the 
commissioners' misplaced, though successful, quest for unanimity. 
Combining an investigation of the attacks with proposals for preventing 
future attacks is the same mistake as combining intelligence with 
policy. The way a problem is described is bound to influence the choice 
of how to solve it. The commission's contention that our intelligence 
structure is unsound predisposed it to blame the structure for the 
failure to prevent the 9/11 attacks, whether it did or not. And 
pressure for unanimity encourages just the kind of herd thinking now 
being blamed for that other recent intelligence failure--the belief 
that Saddam Hussein possessed weapons of mass destruction.
    At least the commission was consistent. It believes in centralizing 
intelligence, and people who prefer centralized, pyramidal governance 
structures to diversity and competition deprecate dissent. But 
insistence on unanimity, like central planning, deprives decision 
makers of a full range of alternatives. For all one knows, the price of 
unanimity was adopting recommendations that were the second choice of 
many of the commission's members or were consequences of horse trading. 
The premium placed on unanimity undermines the commission's conclusion 
that everybody in sight was to blame for the failure to prevent the 9/
11 attacks. Given its political composition (and it is evident from the 
questioning of witnesses by the members that they had not forgotten 
which political party they belong to), the commission could not have 
achieved unanimity without apportioning equal blame to the Clinton and 
Bush administrations, whatever the members actually believe.
    The tale of how we were surprised by the 9/11 attacks is a product 
of hindsight; it could not be otherwise. And with the aid of hindsight 
it is easy to identify missed opportunities (though fewer than had been 
suspected) to have prevented the attacks, and tempting to leap from 
that observation to the conclusion that the failure to prevent them was 
the result not of bad luck, the enemy's skill and ingenuity or the 
difficulty of defending against suicide attacks or protecting an almost 
infinite array of potential targets, but of systemic failures in the 
Nation's intelligence and security apparatus that can be corrected by 
changing the apparatus.
    That is the leap the commission makes, and it is not sustained by 
the report's narrative. The narrative points to something different, 
banal and deeply disturbing: that it is almost impossible to take 
effective action to prevent something that hasn't occurred previously. 
Once the 9/11 attacks did occur, measures were taken that have reduced 
the likelihood of a recurrence. But before the attacks, it was 
psychologically and politically impossible to take those measures. The 
government knew that Al Qaeda had attacked United States facilities and 
would do so again. But the idea that it would do so by infiltrating 
operatives into this country to learn to fly commercial aircraft and 
then crash such aircraft into buildings was so grotesque that anyone 
who had proposed that we take costly measures to prevent such an event 
would have been considered a candidate for commitment. No terrorist had 
hijacked an American commercial aircraft anywhere in the world since 
1986. Just months before the 9/11 attacks the director of the Defense 
Department's Defense Threat Reduction Agency wrote: ``We have, in fact, 
solved a terrorist problem in the last 25 years. We have solved it so 
successfully that we have forgotten about it; and that is a treat. The 
problem was aircraft hijacking and bombing. We solved the problem. . . 
. The system is not perfect, but it is good enough. . . . We have 
pretty much nailed this thing.'' In such a climate of thought, efforts 
to beef up airline security not only would have seemed gratuitous but 
would have been greatly resented because of the cost and the increased 
airport congestion.
    The problem isn't just that people find it extraordinarily 
difficult to take novel risks seriously; it is also that there is no 
way the government can survey the entire range of possible disasters 
and act to prevent each and every one of them. As the commission 
observes, ``Historically, decisive security action took place only 
after a disaster had occurred or a specific plot had been discovered.'' 
It has always been thus, and probably always will be. For example, as 
the report explains, the 1993 truck bombing of the World Trade Center 
led to extensive safety improvements that markedly reduced the toll 
from the 9/11 attacks; in other words, only to the slight extent that 
the 9/11 attacks had a precedent were significant defensive steps taken 
in advance.
    The commission's contention that ``the terrorists exploited deep 
institutional failings within our government'' is overblown. By the 
mid-1990's the government knew that Osama bin Laden was a dangerous 
enemy of the United States. President Clinton and his national security 
adviser, Samuel Berger, were so concerned that Clinton, though ``warned 
in the strongest terms'' by the Secret Service and the C.I.A. that 
``visiting Pakistan would risk the president's life,'' did visit that 
country (flying in on an unmarked plane, using decoys and remaining 
only 6 hours) and tried unsuccessfully to enlist its cooperation 
against bin Laden. Clinton authorized the assassination of bin Laden, 
and a variety of means were considered for achieving this goal, but 
none seemed feasible. Invading Afghanistan to pre-empt future attacks 
by Al Qaeda was considered but rejected for diplomatic reasons, which 
President Bush accepted when he took office and which look even more 
compelling after the trouble we've gotten into with our pre-emptive 
invasion of Iraq. The complaint that Clinton was merely ``swatting at 
flies,'' and the claim that Bush from the start was determined to 
destroy Al Qaeda root and branch, are belied by the commission's 
report. The Clinton administration envisaged a campaign of attrition 
that would last 3 to 5 years, the Bush administration a similar 
campaign that would last 3 years. With an invasion of Afghanistan 
impracticable, nothing better was on offer. Almost 4 years after Bush 
took office and almost 3 years after we wrested control of Afghanistan 
from the Taliban, Al Qaeda still has not been destroyed.
    It seems that by the time Bush took office, ``bin Laden fatigue'' 
had set in; no one had practical suggestions for eliminating or even 
substantially weakening Al Qaeda. The commission's statement that 
Clinton and Bush had been offered only a ``narrow and unimaginative 
menu of options for action'' is hindsight wisdom at its most fatuous. 
The options considered were varied and imaginative; they included 
enlisting the Afghan Northern Alliance or other potential tribal allies 
of the United States to help kill or capture bin Laden, an attack by 
our Special Operations forces on his compound, assassinating him by 
means of a Predator drone aircraft or coercing or bribing the Taliban 
to extradite him. But for political or operational reasons, none was 
feasible.
    It thus is not surprising, perhaps not even a fair criticism, that 
the new administration treaded water until the 9/11 attacks. But that's 
what it did. Bush's national security adviser, Condoleezza Rice, 
``demoted'' Richard Clarke, the government's leading bin Laden hawk and 
foremost expert on Al Qaeda. It wasn't technically a demotion, but 
merely a decision to exclude him from meetings of the cabinet-level 
``principals committee'' of the National Security Council; he took it 
hard, however, and requested a transfer from the bin Laden beat to 
cyberterrorism. The committee did not discuss Al Qaeda until 1 week 
before the 9/11 attacks. The new administration showed little interest 
in exploring military options for dealing with Al Qaeda, and Donald 
Rumsfeld had not even gotten around to appointing a successor to the 
Defense Department's chief counterterrorism official (who had left the 
government in January) when the 9/11 attacks occurred.
    I suspect that one reason, not mentioned by the commission, for the 
Bush administration's initially tepid response to the threat posed by 
Al Qaeda is that a new administration is predisposed to reject the 
priorities set by the one it's succeeding. No doubt the same would have 
been true had Clinton been succeeding Bush as president rather than 
vice versa.
    Before the commission's report was published, the impression was 
widespread that the failure to prevent the attacks had been due to a 
failure to collate bits of information possessed by different people in 
our security services, mainly the Central Intelligence Agency and the 
Federal Bureau of Investigation. And, indeed, had all these bits been 
collated, there would have been a chance of preventing the attacks, 
though only a slight one; the best bits were not obtained until late in 
August 2001, and it is unrealistic to suppose they could have been 
integrated and understood in time to detect the plot.
    The narrative portion of the report ends at Page 338 and is 
followed by 90 pages of analysis and recommendations. I paused at Page 
338 and asked myself what improvements in our defenses against 
terrorist groups like Al Qaeda are implied by the commission's 
investigative findings (as distinct from recommendations that the 
commission goes on to make in the last part of the report). The list is 
short:
    (1) Major buildings should have detailed evacuation plans and the 
plans should be communicated to the occupants.
    (2) Customs officers should be alert for altered travel documents 
of Muslims entering the United States; some of the 9/11 hijackers might 
have been excluded by more careful inspections of their papers. 
Biometric screening (such as fingerprinting) should be instituted to 
facilitate the creation of a comprehensive database of suspicious 
characters. In short, our borders should be made less porous.
    (3) Airline passengers and baggage should be screened carefully, 
cockpit doors secured and override mechanisms installed in airliners to 
enable a hijacked plane to be controlled from the ground.
    (4) Any legal barriers to sharing information between the C.I.A. 
and the F.B.I. should be eliminated.
    (5) More Americans should be trained in Arabic, Farsi and other 
languages in widespread use in the Muslim world. The commission remarks 
that in 2002, only six students received undergraduate degrees in 
Arabic from colleges in the United States.
    (6) The thousands of Federal agents assigned to the ``war on 
drugs,'' a war that is not only unwinnable but probably not worth 
winning, should be reassigned to the war on international terrorism.
    (7) The F.B.I. appears from the report to be incompetent to combat 
terrorism; this is the one area in which a structural reform seems 
indicated (though not recommended by the commission). The bureau, in 
excessive reaction to J. Edgar Hoover's freewheeling ways, has become 
afflicted with a legalistic mind-set that hinders its officials from 
thinking in preventive rather than prosecutorial terms and predisposes 
them to devote greater resources to drug and other conventional 
criminal investigations than to antiterrorist activities. The bureau is 
habituated to the leisurely time scale of criminal investigations and 
prosecutions. Information sharing within the F.B.I., let alone with 
other agencies, is sluggish, in part because the bureau's field offices 
have excessive autonomy and in part because the agency is mysteriously 
unable to adopt a modern communications system. The F.B.I. is an 
excellent police department, but that is all it is. Of all the agencies 
involved in intelligence and counterterrorism, the F.B.I. comes out 
worst in the commission's report.
    Progress has been made on a number of items on my list. There have 
been significant improvements in border control and aircraft safety. 
The information ``wall'' was removed by the USA Patriot Act, passed 
shortly after 9/11, although legislation may not have been necessary, 
since, as the commission points out, before 9/11 the C.I.A. and the 
F.B.I. exaggerated the degree to which they were forbidden to share 
information. This was a managerial failure, not an institutional one. 
Efforts are under way on (5) and (6), though powerful political forces 
limit progress on (6). Oddly, the simplest reform--better building-
evacuation planning--has lagged.
    The only interesting item on my list is (7). The F.B.I.'s 
counterterrorism performance before 9/11 was dismal indeed. Urged by 
one of its field offices to seek a warrant to search the laptop of 
Zacarias Moussaoui (a candidate hijacker-pilot), F.B.I. headquarters 
refused because it thought the special court that authorizes foreign 
intelligence surveillance would decline to issue a warrant--a poor 
reason for not requesting one. A prescient report from the Arizona 
field office on flight training by Muslims was ignored by headquarters. 
There were only two analysts on the bin Laden beat in the entire 
bureau. A notice by the director, Louis J. Freeh, that the bureau focus 
its efforts on counterterrorism was ignored.
    So what to do? One possibility would be to appoint as director a 
hard-nosed, thick-skinned manager with a clear mandate for change--
someone of Donald Rumsfeld's caliber. (His judgment on Iraq has been 
questioned, but no one questions his capacity to reform a hidebound 
government bureaucracy.) Another would be to acknowledge the F.B.I.'s 
deep-rooted incapacity to deal effectively with terrorism, and create a 
separate domestic intelligence agency on the model of Britain's 
Security Service (M.I.5). The Security Service has no power of arrest. 
That power is lodged in the Special Branch of Scotland Yard, and if we 
had our own domestic intelligence service, modeled on M.I.5, the power 
of arrest would be lodged in a branch of the F.B.I. As far as I know, 
M.I.5 and M.I.6 (Britain's counterpart to the C.I.A.) work well 
together. They have a common culture, as the C.I.A. and the F.B.I. do 
not. They are intelligence agencies, operating by surveillance rather 
than by prosecution. Critics who say that an American equivalent of 
M.I.5 would be a Gestapo understand neither M.I.5 nor the Gestapo.
    Which brings me to another failing of the 9/11 commission: American 
provinciality. Just as we are handicapped in dealing with Islamist 
terrorism by our ignorance of the languages, cultures and history of 
the Muslim world, so we are handicapped in devising effective 
antiterrorist methods by our reluctance to consider foreign models. We 
shouldn't be embarrassed to borrow good ideas from nations with a 
longer experience of terrorism than our own. The blows we have struck 
against Al Qaeda's centralized organization may deflect Islamist 
terrorists from spectacular attacks like 9/11 to retail forms like car 
and truck bombings, assassinations and sabotage. If so, Islamist 
terrorism may come to resemble the kinds of terrorism practiced by the 
Irish Republican Army and Hamas, with which foreign nations like 
Britain and Israel have extensive experience. The United States remains 
readily penetrable by Islamist terrorists who don't even look or sound 
Middle Eastern, and there are Qaeda sleeper cells in this country. All 
this underscores the need for a domestic intelligence agency that, 
unlike the F.B.I., is effective.
    Were all the steps that I have listed fully implemented, the 
probability of another terrorist attack on the scale of 9/11 would be 
reduced--slightly. The measures adopted already, combined with our 
operation in Afghanistan, have undoubtedly reduced that probability, 
and the room for further reduction probably is small. We and other 
nations have been victims of surprise attacks before; we will be again.
    They follow a pattern. Think of Pearl Harbor in 1941 and the Tet 
offensive in Vietnam in 1968. It was known that the Japanese might 
attack us. But that they would send their carrier fleet thousands of 
miles to Hawaii, rather than just attack the nearby Philippines or the 
British and Dutch possessions in Southeast Asia, was too novel and 
audacious a prospect to be taken seriously. In 1968 the Vietnamese 
Communists were known to be capable of attacking South Vietnam's 
cities. Indeed, such an assault was anticipated, though not during Tet 
(the Communists had previously observed a truce during the Tet 
festivities) and not on the scale it attained. In both cases the 
strength and determination of the enemy were underestimated, along with 
the direction of his main effort. In 2001 an attack by Al Qaeda was 
anticipated, but it was anticipated to occur overseas, and the 
capability and audacity of the enemy were underestimated. (Note in all 
three cases a tendency to underestimate non-Western foes--another 
aspect of provinciality.)
    Anyone who thinks this pattern can be changed should read those 90 
pages of analysis and recommendations that conclude the commission's 
report; they come to very little. Even the prose sags, as the reader is 
treated to a barrage of bromides: ``the American people are entitled to 
expect their government to do its very best,'' or ``we should reach 
out, listen to and work with other countries that can help'' and ``be 
generous and caring to our neighbors,'' or we should supply the Middle 
East with ``programs to bridge the digital divide and increase Internet 
access''--the last an ironic suggestion, given that encrypted e-mail is 
an effective medium of clandestine communication. The ``hearts and 
minds'' campaign urged by the commission is no more likely to succeed 
in the vast Muslim world today than its prototype was in South Vietnam 
in the 1960's.
    The commission wants criteria to be developed for picking out which 
American cities are at greatest risk of terrorist attack, and defensive 
resources allocated accordingly--this to prevent every city from 
claiming a proportional share of those resources when it is apparent 
that New York and Washington are most at risk. Not only do we lack the 
information needed to establish such criteria, but to make Washington 
and New York impregnable so that terrorists can blow up Los Angeles or, 
for that matter, Kalamazoo with impunity wouldn't do us any good.
    The report states that the focus of our antiterrorist strategy 
should not be ``just `terrorism,' some generic evil. This vagueness 
blurs the strategy. The catastrophic threat at this moment in history 
is more specific. It is the threat posed by Islamist terrorism.'' Is 
it? Who knows? The menace of bin Laden was not widely recognized until 
just a few years before the 9/11 attacks. For all anyone knows, a 
terrorist threat unrelated to Islam is brewing somewhere (maybe right 
here at home--remember the Oklahoma City bombers and the Unabomber and 
the anthrax attack of October 2001) that, given the breathtakingly 
rapid advances in the technology of destruction, will a few years hence 
pose a greater danger than Islamic extremism. But if we listen to the 
9/11 commission, we won't be looking out for it because we've been told 
that Islamist terrorism is the thing to concentrate on.
    Illustrating the psychological and political difficulty of taking 
novel threats seriously, the commission's recommendations are 
implicitly concerned with preventing a more or less exact replay of 9/
11. Apart from a few sentences on the possibility of nuclear terrorism, 
and of threats to other modes of transportation besides airplanes, the 
broader range of potential threats, notably those of bioterrorism and 
cyberterrorism, is ignored.
    Many of the commission's specific recommendations are sensible, 
such as that American citizens should be required to carry biometric 
passports. But most are in the nature of more of the same--more of the 
same measures that were implemented in the wake of 9/11 and that are 
being refined, albeit at the usual bureaucratic snail's pace. If the 
report can put spurs to these efforts, all power to it. One excellent 
recommendation is reducing the number of Congressional committees, at 
present in the dozens, that have oversight responsibilities with regard 
to intelligence. The stated reason for the recommendation is that the 
reduction will improve oversight. A better reason is that with so many 
committees exercising oversight, our senior intelligence and national 
security officials spend too much of their time testifying.
    The report's main proposal--the one that has received the most 
emphasis from the commissioners and has already been endorsed in some 
version by both presidential candidates--is for the appointment of a 
national intelligence director who would knock heads together in an 
effort to overcome the reluctance of the various intelligence agencies 
to share information. Yet the report itself undermines this proposal, 
in a section titled ``The Millennium Exception.'' ``In the period 
between December 1999 and early January 2000,'' we read, ``information 
about terrorism flowed widely and abundantly.'' Why? Mainly ``because 
everyone was already on edge with the millennium and possible computer 
programming glitches (`Y2K').'' Well, everyone is now on edge because 
of 9/11. Indeed, the report suggests no current impediments to the flow 
of information within and among intelligence agencies concerning 
Islamist terrorism. So sharing is not such a problem after all. And 
since the tendency of a national intelligence director would be to 
focus on the intelligence problem du jour, in this case Islamist 
terrorism, centralization of the intelligence function could well lead 
to overconcentration on a single risk.
    The commission thinks the reason the bits of information that might 
have been assembled into a mosaic spelling 9/11 never came together in 
one place is that no one person was in charge of intelligence. That is 
not the reason. The reason or, rather, the reasons are, first, that the 
volume of information is so vast that even with the continued rapid 
advances in data processing it cannot be collected, stored, retrieved 
and analyzed in a single database or even network of linked databases. 
Second, legitimate security concerns limit the degree to which 
confidential information can safely be shared, especially given the 
ever-present threat of moles like the infamous Aldrich Ames. And third, 
the different intelligence services and the subunits of each service 
tend, because information is power, to hoard it. Efforts to centralize 
the intelligence function are likely to lengthen the time it takes for 
intelligence analyses to reach the president, reduce diversity and 
competition in the gathering and analysis of intelligence data, limit 
the number of threats given serious consideration and deprive the 
president of a range of alternative interpretations of ambiguous and 
incomplete data--and intelligence data will usually be ambiguous and 
incomplete.
    The proposal begins to seem almost absurd when one considers the 
variety of our intelligence services. One of them is concerned with 
designing and launching spy satellites; another is the domestic 
intelligence branch of the F.B.I.; others collect military intelligence 
for use in our conflicts with state actors like North Korea. There are 
15 in all. The national intelligence director would be in continuous 
conflict with the attorney general, the secretary of defense, the 
chairman of the Joint Chiefs of Staff, the secretary of homeland 
security and the president's national security adviser. He would have 
no time to supervise the organizational reforms that the commission 
deems urgent.
    The report bolsters its proposal with the claim that our 
intelligence apparatus was designed for fighting the cold war and so 
can't be expected to be adequate to fighting Islamist terrorism. The 
cold war is depicted as a conventional military face-off between the 
United States and the Soviet Union and hence a 20th-century relic (the 
21st century is to be different, as if the calendar drove history). 
That is not an accurate description. The Soviet Union operated against 
the United States and our allies mainly through subversion and 
sponsored insurgency, and it is not obvious why the apparatus developed 
to deal with that conduct should be thought maladapted for dealing with 
our new enemy.
    The report notes the success of efforts to centralize command of 
the armed forces, and to reduce the lethal rivalries among the military 
services. But there is no suggestion that the national intelligence 
director is to have command authority.
    The central-planning bent of the commission is nowhere better 
illustrated than by its proposal to shift the C.I.A.'s paramilitary 
operations, despite their striking success in the Afghanistan campaign, 
to the Defense Department. The report points out that ``the C.I.A. has 
a reputation for agility in operations,'' whereas the reputation of the 
military is ``for being methodical and cumbersome.'' Rather than 
conclude that we are lucky to have both types of fighting capacity, the 
report disparages ``redundant, overlapping capabilities'' and urges 
that ``the C.I.A.'s experts should be integrated into the military's 
training, exercises and planning.'' The effect of such integration is 
likely to be the loss of the ``agility in operations'' that is the 
C.I.A.'s hallmark. The claim that we ``cannot afford to build two 
separate capabilities for carrying out secret military operations'' 
makes no sense. It is not a question of building; we already have 
multiple such capabilities--Delta Force, Marine reconnaissance teams, 
Navy Seals, Army Rangers, the C.I.A.'s Special Activities Division. 
Diversity of methods, personnel and organizational culture is a 
strength in a system of national security; it reduces risk and enhances 
flexibility.
    What is true is that 15 agencies engaged in intelligence activities 
require coordination, notably in budgetary allocations, to make sure 
that all bases are covered. Since the Defense Department accounts for 
more than 80 percent of the Nation's overall intelligence budget, the 
C.I.A., with its relatively small budget (12 percent of the total), 
cannot be expected to control the entire national intelligence budget. 
But to layer another official on top of the director of central 
intelligence, one who would be in a constant turf war with the 
secretary of defense, is not an appealing solution. Since all executive 
power emanates from the White House, the national security adviser and 
his or her staff should be able to do the necessary coordinating of the 
intelligence agencies. That is the traditional pattern, and it is 
unlikely to be bettered by a radically new table of organization.
    So the report ends on a flat note. But one can sympathize with the 
commission's problem. To conclude after a protracted, expensive and 
much ballyhooed investigation that there is really rather little that 
can be done to reduce the likelihood of future terrorist attacks beyond 
what is being done already, at least if the focus is on the sort of 
terrorist attacks that have occurred in the past rather than on the 
newer threats of bioterrorism and cyberterrorism, would be a real 
downer--even a tad un-American. Americans are not fatalists. When a 
person dies at the age of 95, his family is apt to ascribe his death to 
a medical failure. When the Nation experiences a surprise attack, our 
instinctive reaction is not that we were surprised by a clever 
adversary but that we had the wrong strategies or structure and let's 
change them and then we'll be safe. Actually, the strategies and 
structure weren't so bad; they've been improved; further improvements 
are likely to have only a marginal effect; and greater dangers may be 
gathering of which we are unaware and haven't a clue as to how to 
prevent.
    Richard A. Posner is a judge on the United States Court of Appeals 
for the Seventh Circuit, a senior lecturer at the University of Chicago 
Law School and the author of the forthcoming book ``Catastrophe: Risk 
and Response.''

    Chairman Stevens. Now we turn to Mr. Dale Watson. He is the 
former head of the Counterterrorism Division within the FBI, 
and he was there at the time of 9/11. We thought that he had 
specific knowledge of what existed before and what exists now 
after 9/11. We thank you very much for being willing to come.
    All three of you have come at your own expense and it is 
your own decision. You are not Government employees. We are 
grateful to you for coming to help us on this issue.
    Mr. Watson.

STATEMENT OF DALE WATSON, FORMER EXECUTIVE ASSISTANT 
            DIRECTOR OF COUNTERTERRORISM AND 
            COUNTERINTELLIGENCE, FEDERAL BUREAU OF 
            INVESTIGATION
    Mr. Watson. Thank you, Senator Stevens. It is good to be 
back. This reminds me of old times. I have worked with some of 
you very closely in the past.
    I am looking at this from a more practical approach. Dr. 
Hamre and Judge Posner have laid out some issues here. But what 
I thought I would do this morning very briefly is talk about 
some of the broad issues in the commission. There are a lot of 
recommendations in there outside my area of responsibility, but 
look at those, and then add on at the end. There were two 
issues probably that were not addressed that probably you need 
to be aware of. Whether you take them on or not is certainly a 
matter of congressional oversight.
    So first, let me address the NID issue. First of all, I 
agree that we do need an NID. I base that upon what you said 
previously, Senator Stevens. I remember working very hard with 
the counterterrorism program starting in 1996 where our best 
coordinating effort was through the CSG at the NSC, and that 
was run by Dick Clarke and reported back to the National 
Security Advisor. It was a coordinating body that functioned 
very well, but it had no authority, and basically that was a 
policy decision.
    When I stepped back and looked at it, with no authority, no 
budget, to require agencies within that community to do 
anything, you really had a fragmented approach to 
counterterrorism. I think the commission pointed that out, that 
no one was really focused upon the overall big picture, so to 
speak, and setting priorities and objectives. Whenever the CSG 
would meet, they would talk about, well, we are policy guys and 
we are not going to order the FBI to x, y, and z inside the 
United States.
    From the FBI perspective, I was more concerned about, one, 
attacks on Americans overseas, Khobar Towers, the Embassy 
bombings, or what Hizbollah was doing in the United States. I 
really did not have a function or a piece or a very broad 
knowledge of what Hizbollah's organizational function and 
skills were, even though I learned that because I needed to 
know that because Hizbollah was in the United States, but at 
the same time, there was nobody really focused upon what is 
Hizbollah doing or al Qaeda doing and what are the future 
threats. And it was fragmented. NSA was going a great job, DOD, 
colleagues at the State Department, and certainly the CIA.
    So my initial response is, yes, sir, there is a need for a 
NID. I will tell you where that is placed is very crucial, and 
Dr. Hamre makes some good points, and organizational points by 
Judge Posner are well taken. I think you need to look at that 
closely. But that position I believe needs to be created, and 
that position needs to have some function and responsibility 
and it needs to be able to look at the overall effort, threats 
now affecting the United States, as well as American interests 
overseas, and look at that and be able to predict and look 
forward.
    That leads to the question of what kind of person should be 
appointed to this, and obviously that will be determined. But I 
will tell you this. This position must be a job and not a 
position. The individual that has this responsibility of being 
the NID needs to work within the NID and within the 
intelligence community. The NID should not be a public 
relations job. The NID should not be on the speaking circuit or 
conducting liaison. The NID should be a central-focused 
individual that looks at where were are across the board in all 
areas. And if the NID works for counterterrorism or if the 
National Counterterrorism Center works, then the U.S. 
Government I think has an obligation or should look at forming 
other centers such as a cyber center and the other areas 
mentioned by the 9/11 Commission. Very crucial. I think the NID 
is a term appointment. I think the NID has to have the 
responsibility and be able to the task. So that is my initial 
take on that.
    Looking at forming the NCTC, I think that is not a bad idea 
at all, as long as the people there understand that that is not 
an operational function. It is not to be involved in the nuts 
and bolts of the daily operations of the FBI or CIA overseas or 
NSA or wherever the other entities come into play in this. I 
think they need to set very specific requirements. I think they 
need to study, if you are looking strictly at counterterrorism, 
all terrorist organizations. You look at FARC. You look at 
Tamil Tigers. You look at any threat coming on the horizon from 
the U.S. Government as related by the NID and set those 
priorities out. And with the National Counterterrorism Center, 
I think they need to identify what the gaps are. If the FBI 
sees something peculiar in Detroit, Michigan about individuals' 
suspicious activities about renting buses, for instance, then 
that information needs to be funneled in there and a 
determination by a smart analyst needs to be made as to whether 
this is a trend or just an anomaly. So I believe that the NCTC 
concept is right.
    In addition to that, though, in order for the NCTC to work, 
there has to be accountability. There has to be some way to 
measure whether this function of the organizations assigned to 
the NCTC and the tasking requirements are measurable, and you 
have to hold people accountable. So if the NID says the new 
threat to U.S. Government and U.S. citizens inside the United 
States or overseas might be some new group of individuals that 
we do not know about, the tasking should come down to, look at 
that, task out to the FBI, task out to all the other agencies 
associated with that, and then have some type of reporting 
requirement that measures accountability. Did the FBI just say, 
okay, we have got this, we will wave them off? There should be 
some requirement to report back and some evaluation process to 
be able evaluate that, and I strongly believe that. If you do 
not have accountability, you really do not have much in the 
order of a functional, operational organization. Again, I think 
they are not operational, but I think it could be and possibly 
a real model.
    Let me switch quickly to the FBI. I believe the commission 
is right that we do not need to break up the FBI. I think they 
are making great strides and progress in what they are trying 
to do. I will caution one word about trying to move the FBI 
into an intelligence-driven organization. There is value added 
in criminal work. I think that has been well documented. And 
making FBI agents strictly intelligence officers is not 
necessarily the best approach in all circumstances. I think 
there needs to be a combination of law enforcement and 
intelligence analysts, and combining the law enforcement piece 
with the strict intelligence function is a real value added.
    One glaring error that I think I noticed with the NCTC is 
that they did not address in the NID the other agencies that 
are involved in the protection of this country within the 
United States. And I know they are not members of the 
intelligence community, but you need to somehow or another pull 
in the DEA's of the world, and the ICE, and the border folks, 
and make sure that information--I am not saying change their 
mission or function--on what goes on at our borders gets put 
into the National Counterterrorism Center, as well as passed up 
to the NID. I think they overlooked that. I am not real sure 
why it was not included in there. So I think that would be very 
helpful.
    I think the career path in the FBI that they are 
developing, I think that has been well documented.
    Just a couple of other quick areas. It is not in my area of 
expertise, but let me comment on the budget. It needs to be a 
process of appropriators and authorizers. I do not understand 
that totally, but I will tell you I think that needs to be 
streamlined. I can recall many times being up here in different 
committees of this Senate and being asked specifically by a 
Senator, what do you need, Mr. Watson, and knowing full well in 
the back of my mind we only had x number of analysts or we 
needed some electronic new device equipment. But the response 
was we are doing okay. We will work with you through OMB and 
through the Department of Justice. I am not real sure how you 
fix that problem and get to the knowledge that you need in your 
oversight process, but that is the way the system is set up and 
I fully understand that.
    A couple other things. The commission mentioned oversight. 
I would not dare tell you how Congress should be set up or run. 
It is way beyond my expertise and is not in my area that I 
should even comment on other than to say that I would recommend 
streamlining that somehow, maybe get down to two committees or 
something. There is a lot of crossover in a lot of committees, 
and I think you know that.
    Quickly, two other areas I would like to briefly mention. 
One is the information sharing. Information sharing is talked 
about. It is a buzzword around this town. You cannot go 
anywhere without people talking about needing better 
information sharing. Generally, most people that talk about 
that are talking about being able to get a top secret document 
from the CIA over to the State Department, over to the FBI, or 
back out and around and so forth. That is correct. And I think 
there is a lot of work and a lot of effort that should be put 
into that.
    But the true value of information sharing, if you are 
looking at terrorist threat, is through our State and local law 
enforcement people, 600,000 sworn employees, 18,000 departments 
in the United States, over 3,000 sheriff's departments. And I 
am here to tell you there is not an Executive order, there is 
not a law on the books and probably never will be and should 
not be that requires the sheriff in Alaska to share any 
information with the chief of police in Anchorage or vice 
versa. That is what is meant by trying to make sure that people 
understand the need for information sharing.
    So I think the solution on that ultimately, if we want to 
prevent acts of terrorism inside this country, will be from a 
patrol officer or a deputy sheriff on the road who sees 
something, and reports that. There should be a mechanism and a 
way to do that. I think DOJ, particularly the Department of 
Justice, should take the leadership in that and try to form 
that process up through the JTTF's. It is a very difficult 
project, but it needs to be addressed and it needs to be done.
    I will say information sharing is not a technology issue. 
It has nothing to do with having the technology to be able to 
take information from x police department to the sheriff's 
department. That is not the issue.
    The other issue that needs to be figured out in information 
sharing is how are we going to use public source data. There 
are great companies like Choice Point, IMAP Data, that have a 
lot of information, and it is oversight again of how much the 
Government needs to know and what you collect and how. I think 
there is a solution there, and I think it needs to be looked 
at. I do not think everyone needs to panic about the ability of 
law enforcement or intelligence people to be able to say, on a 
legitimate reason, what do we know about x and what is his 
credit history, et cetera.
    The last is I believe that there should be a Federal system 
of evaluation some way in the intelligence community. I have 
alluded to that earlier. When I was in the FBI, I started 
MAXCAP05, which was identifying gaps, but you must have 
accountability. You must be able to say x agencies, here are 
the gaps, here is what they need, and here are the performance 
measures that you use.
    Real quickly, two other things and then this is it. On 
security clearances, that was not addressed, but that is a huge 
problem in this country that affects our national security. The 
length of time to obtain a security clearance, who has control 
of those security clearances, and where is this office located, 
and how do you get employees quickly cleared if you need to get 
them cleared? That is currently an old system. I know the laws 
are based upon longtime legislative enactments by Congress. I 
would urge somebody to take a look at that.
    Last, unauthorized disclosure. As with more information 
sharing, as we go forward in sharing a lot more intelligence 
information, this is a real problem about the leaking of 
classified information. I think someone needs to take a look at 
that. It might require an Executive order. I do not think a 
legislative fix is needed, but something maybe universally 
applicable through all Federal agencies to set up 
administrative procedures. Having access to classified U.S. 
intelligence information or military information is not a 
right, it is a privilege. And I think if you violate that 
privilege and leak unauthorized, that hurts our national 
security. And the only example I will use is when bin Laden's 
INMARSAT phone calls were leaked to the media, that caused us 
great damage and really blinded us for a long period of time.
    The obvious question on all this, where does this leave 
DHS? I am not really sure exactly where they come out in the 
mix on the intelligence side and reorganization of the 
intelligence community. They are a vital part. They have a 
large organization. They need to somehow or another be 
incorporated in this mix.
    In closing, I would like to say we--and I agree totally 
with Senator Byrd and you, Senator Stevens, and all the 
Senators here, should go very slowly and make sure we do not do 
anything to infringe upon our civil liberties. We were attacked 
because of who we are, and I would never advocate that we 
change that. I know our system is set up so 99 guilty people 
can go free as opposed to allowing 1 innocent man or person to 
be prosecuted. So I am in total agreement with you on looking 
at that.
    That is all I have, Senator.
    Chairman Stevens. Well, thank you very much.
    I will tell the members of the committee that Judge Posner 
has a timeframe problem. Is that correct? You should depart by 
11:30?
    Judge Posner. I have to leave before 12 noon.
    Chairman Stevens. Yes. Well, that is a timeframe problem. 
May I suggest that we go through one round of questions for 
Judge Posner? You do not have any, do you, John?
    Dr. Hamre. No, sir.
    Chairman Stevens. Dale, do you have any?
    Mr. Watson. No, sir. I am fine.
    Chairman Stevens. I think we will go back to them, if that 
would be agreeable to you, Senator Byrd.
    Senator Byrd. Yes.
    Chairman Stevens. Let me ask just one question Judge 
Posner. You have noted in your article that the 9/11 Commission 
report was 338 pages long, followed by 90 pages of analysis and 
recommendations. You sort of asked yourself what improvements 
were implied by the investigative findings and listed seven 
areas: the need for detailed evacuation plans for major 
buildings, creating methods to ensure that borders are less 
porous, screening airline passengers carefully, eliminating 
barriers between the CIA and FBI, training more Americans in 
foreign languages, specifically Arabic, Farsi and other 
dialects of the Muslim world. Next, those assigned to the war 
on drugs should be transferred to the war on terrorism. And 
seven, making sure the FBI has the structural reform it needs.
    Now, those are not subjects we are discussing right now, 
Judge.
    Judge Posner. Correct.
    Chairman Stevens. We are discussing structure. We are 
discussing power and control rather than solutions. Could you 
expand on how you made those suggestions and whether you think 
we ought to address those improvements now as compared to 
addressing the change in structure now?
    Judge Posner. Yes. The first 338 pages of the commission's 
report are an extremely detailed and thorough narrative of the 
background to the attacks, the attacks themselves, and the 
immediate response. It is a very fine job. It obviously 
involved tremendous work.
    If you just stop there and ask, what have we learned about 
the problems that enabled these attacks to succeed and do as 
much damage as they did, it is clear that there were serious 
problems such as not having enough intelligence officers who 
have the right language training, not having an adequate system 
of airline security, not having adequate building evacuation 
plans, and so on. I also think a serious problem--I think Mr. 
Watson alluded to--within the FBI is the relation between their 
criminal investigation and their intelligence functions. Those 
are the problems that the report itself identifies, and the 
solutions that spill out of that analysis address particular 
managerial problems, some of them legal and so forth.
    Then after that, the commission goes off on what is really 
a different tangent in considering organizational change 
because it is not clear, from reading their narrative, that the 
problems were organization problems for which organization 
solutions or reorganization would be indicated. So I think 
there is a mismatch between this very detailed narrative and a 
rather more summary discussion of organizational change that 
really does not match the problems that the report itself had 
identified. It is as if one group of people--maybe this is 
true--had written up the narrative, and then another group of 
people say, we are interested in tables of organization and the 
like, and that is what we are going to focus on in the 
recommendations part of the report.
    Chairman Stevens. Thank you very much. I have other 
questions.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    One recommendation of the 9/11 Commission that has not 
received much attention is the plan to create a National 
Counterterrorism Center, which would conduct operational 
planning, not just analysis, for both domestic and foreign 
missions. Judge Posner, what are the dangers of merging 
domestic and foreign counterterrorism operations under one 
organization?
    Judge Posner. Well, I think first there is the issue that 
Dr. Hamre mentioned which is the merger of intelligence 
gathering with operational responses or formulation of policy. 
The problem is that if you have policy responsibilities, then 
in evaluating intelligence, your evaluation is going to be 
skewed by your conception of the right direction of policy 
change. So I think having the intelligence function as purely a 
research function and policy separate is very important.
    The other part of your question has to do with having the 
same organization engage in domestic and foreign 
counterintelligence. Of course, the danger is that when we are 
dealing with foreigners, especially with national enemies, 
whether they are civilian or military, we allow our foreign 
intelligence greater latitude than we think appropriate when 
dealing with our own citizens. That is why, for example, in the 
United Kingdom, which has a very long history both of 
confronting terrorist threats and of dealing with them 
effectively, they have separated the foreign and domestic 
intelligence functions. They have MI6 for foreign intelligence; 
they have MI5 for domestic intelligence. That I think is a 
valuable division to preserve.
    Senator Byrd. What safeguards are necessary to protect the 
civil liberties of American citizens from overzealous 
intelligence agencies, which, in years past, have operated 
secretly within the United States?
    Judge Posner. I do not think there is an answer to your 
question in the following sense. I think there is a basic 
tradeoff between security concerns and civil liberties 
concerns. If we allow a domestic intelligence agency to 
function the way MI5 functions--that is, you have people who 
are engaged in secret surveillance activities, they are not 
constrained by the procedural safeguards of the criminal 
process because they are not planning to prosecute. They 
intimidate, they blackmail, they study, and so forth--there are 
going to be abuses if people are allowed to engage in those 
activities. On the other hand, those activities will uncover 
and thwart and break up plots against the United States. This 
is quintessentially a democratic judgment, a judgment for the 
Congress and the President, how you are going to trade off 
civil liberties values against security concerns.
    Now, the more we feel endangered, the greater latitude we 
will allow for antiterrorist activities. If we feel safer or if 
we feel we have other ways of dealing with the terrorist threat 
that do not involve this kind of domestic intelligence snooping 
and dirty tricks activity, then we will curtail that function.
    But I certainly agree with you that to have the same 
organization engage in domestic and foreign counterintelligence 
will be too rough on our citizens or too gentle with the 
foreigners if it has uniform policies.
    Senator Byrd. Thank you, Judge Posner. Thank you, Mr. 
Chairman.
    Chairman Stevens. Senator Inouye.
    Senator Inouye. Judge Posner, in your statement you have 
said that it is virtually impossible to prepare for the 
unthinkable, including a suicide attack of such magnitude as 9/
11. Are you also suggesting that the commission has very little 
to back up its claim that the tragedy was a result of an 
unsound intelligence structure?
    Judge Posner. Yes, that is my view. The reason for it is 
that the 9/11 Commission report is dominated, as it has to be 
just as a matter of psychology, by hindsight. Once a surprise 
attack occurs, you go back and you look and you find that there 
were clues. But if you look through our history and the history 
of other countries, whether you are talking about Pearl Harbor 
or talking about the Tet Offensive or the Battle of the Bulge, 
you can always go back and, with the benefit of hindsight, see 
that clues were missed. The problem with that as a formula for 
blame is that it is not possible for the Government to respond 
to every possible clue, every possible danger because the 
number of possible threats is infinite.
    Actually one of the concerns I have about the 9/11 
Commission report is that it really is oriented toward 
preventing not new threats, but a repetition of 9/11. Now, an 
exact repetition of 9/11 is extremely unlikely because that has 
already happened. We know about that. What I think we have to 
worry about more than we do is biological terrorism, nuclear 
terrorism, agricultural terrorism because, you know, 
destruction of agriculture by biological weapons could be as 
destructive as biological warfare against people. So we ought 
to try to think about the disasters that have not happened, but 
that is very difficult to do, so we tend to think about what 
has already happened.
    In the case of al Qaeda, its operations had been abroad 
rather than in the United States. So that is what we were 
focused on. I think Mr. Watson suggests that. We were looking 
at the possibility of further attacks on American personnel or 
facilities overseas. So we missed what happened.
    So as I say, Government is imperfect, intelligence is a 
very difficult activity, and so looking back, you can always 
find how, with perfect foresight, a disaster could have been 
prevented, but we will never have perfect foresight.
    Senator Inouye. Do you believe that the intelligence 
community, as it is structured today, has the imagination and 
the capacity to reasonably predict or foresee certain types of 
attacks?
    Judge Posner. I do not know. I certainly would not say that 
our existing setup is ideal. That would carry me far beyond my 
knowledge. But what does seem apparent from the report and from 
the testimony and from what the Senators have said is that the 
analysis and formulation of organizational proposals for such 
an extraordinarily complicated and sensitive issue as national 
intelligence is so difficult that it really should not be done 
on the basis of a 28-page discussion in the commission's 
report.
    Senator Inouye. My final question, sir. In your mind, do 
you think it is wise to make a determination of such magnitude 
as overturning the intelligence community in the next 2 weeks?
    Judge Posner. No. I think it would be most unfortunate. I 
think the analytical problems cannot be solved in that time, 
and also a Presidential campaign that pivots on national 
security affairs is not the right setting in which to 
reorganize the national security apparatus of the Nation.
    Senator Inouye. I thank you very much, sir.
    Chairman Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Judge Posner, I read your op-ed piece in the New York Times 
the other day and found it interesting and helpful. I even, 
after reading it, thought that you might have come up with a 
good suggestion when you suggested that the National Security 
Advisor could be considered an alternative to a major new 
bureaucracy that might result from the appointment of a 
National Intelligence Director. In other words, the person to 
whom that advisor reports directly is the President, and as 
President Truman said, the buck stops there. The President is 
the person for whom this intelligence is intended, if you are 
talking about something that requires a Presidential act to 
defend against, such as an effort to bomb the Twin Towers or 
the U.S. Capitol or the White House. The President needs to 
know that and needs to know it quickly. So I was impressed with 
that suggestion.
    Have you had an opportunity to try to rebut the critics of 
that now? I noticed they are saying do not get policy mixed up 
with intelligence gathering. The processes should not be mixed, 
or at least they should not be funneled through the same 
person. I guess the National Security Advisor is involved in 
helping the President make policy. So it might seem that that 
would be inconsistent with that view.
    But yesterday I asked Dr. Kissinger about that in the 
hearing we had, and I wonder what your thoughts are now. Do you 
still consider that an alternative to a National Intelligence 
Director or as just a supplement?
    Judge Posner. Well, that is a very difficult question and I 
may be skating on thin ice. My conception of the National 
Security Advisor, which may be naive, is that he or she has a 
coordination function. There is the Defense Department, the 
State Department, the CIA, the other agencies concerned with 
national security, and it is important for the President that 
he have someone whom he trusts who can arbitrate disputes among 
these and make sure that they all get a hearing before the 
President.
    To the extent that it is a coordination role, rather than a 
policymaking role--and I know that in the past, National 
Security Advisors sometimes have been competitors with the 
Secretary of State for the ear of the President, but if the 
role is a coordination role, then it seems to me appropriate 
for the National Security Advisor or a subordinate National 
Security Advisor to indicate to the intelligence agencies what 
areas of intelligence are of particular concern and to make 
sure there are no gaps and to make sure that particular 
intelligence functions that are very important are adequately 
funded.
    My impression was that all executive power emanates from 
the White House so that if you want high-level coordination of 
intelligence, you want it to be in the White House. But you 
have pointed to a serious problem, that you do not want 
policymaking and intelligence to be merged in a single 
individual.
    Senator Cochran. One alternative that people have talked 
about too is looking at the United Kingdom's organization of 
the MI5 and MI6, separating foreign intelligence gathering and 
domestic intelligence gathering and putting two people, I 
guess, who are coequal in power and rank. What is your reaction 
to that as an alternative?
    Judge Posner. Well, I think it is something that deserves 
more consideration than the commission gave it. The commission 
discusses it in a couple of pages and brushes it off. But I 
think it makes a lot of sense. I know Mr. Watson will disagree 
strongly.
    But the problem is that--and Mr. Watson alluded to it--the 
FBI is basically a police department. It engages in criminal 
investigation. That is its main role. And counterintelligence 
or domestic intelligence is really a very different sort of 
thing. The FBI is not oriented toward prosecution. It is 
oriented toward surveillance and interfering with plots and 
catching plots, but not with prosecuting people. There is a 
question whether these two very different cultures, one of 
domestic intelligence, one of criminal prosecution, can merge 
within the same agency. To the extent the FBI will always be 
primarily a criminal investigation agency, a police department, 
the people engaged in having intelligence careers within the 
FBI will always be second-class citizens. That is the danger.
    The English have a very long history of dealing with 
terrorists and subversive problems. Think how vulnerable they 
were in World War II, how concerned they were with penetration 
by German agents and with their own domestic fascist party, 
fascist sympathizers. And of course, they have the Irish 
problems. They have a very long history of dealing with 
terrorism, generally very effectively, and this is the 
structure they have evolved.
    So now, as I understand it, they have these two agencies, 
the domestic and the foreign, MI5, MI6. Then there is another 
agency which engages in electronic surveillance like our 
National Security Agency. Then there is a chairman who presides 
over the three agencies and reports to the prime minister. It 
is a simple structure, simple, informal.
    Now, the United Kingdom is, of course, a much smaller 
country with fewer international challenges than we face. They 
have always had a more streamlined government than ours, a 
smaller government. But they seem to have managed this problem 
effectively. I think they have left military intelligence to 
the military. One of the series of problems that have been 
raised about the commission's recommendations is very confusing 
questions of who is going to actually control military 
intelligence. Will it be the military or will this be the 
civilian official? Is it going to be shared in some way?
    Senator Cochran. Thank you. Thanks, Mr. Chairman.
    Chairman Stevens. Thank you very much.
    Senator Bond, we are just asking Judge Posner questions 
because he has to leave.
    Senator Bond. I have got that, Mr. Chairman. Thank you very 
much.
    I found the testimony of all three very interesting, also 
raising probably as many questions as they resolved. The more 
we get into this, the less clear it becomes. I think I would 
probably agree with you, Judge Posner, on not rearrangeing the 
deck chairs if the deck chairs did not make the Titanic sink.
    But I have a problem in other areas that I have seen. 
Perhaps even now we have little fiefdoms that delight in 
controlling their own sources and their own intelligence and 
they share it with everybody up and down that stove pipe, but 
when it comes to sharing it with somebody in another agency 
where they may be trying to focus on the same potential actors 
or potential act, they do not want to give them their sources, 
their information. They are very reluctant to share that 
information. I agree with you that information sharing is a 
problem within agencies and across agencies.
    I understood, before I got into this thing, that we had a 
Director of Central Intelligence who was supposed to ensure 
that intelligence flowed easily and quickly among all agencies, 
my assumption was, on a need-to-know basis. That is not 
happening. It did not happening and it still is not happening.
    Now, if we do not rearrange the deck chairs, if we do not 
put somebody in a position to say that if you want to keep your 
job, if you want to be promoted, you in A agency are going to 
talk to B agency and C agency, you are going to use red teams 
from D agency to challenge the assumptions you come up with, 
then how do we overcome those bureaucratic walls that 
unfortunately, in my humble opinion, still exist?
    Judge Posner. I think it is extremely difficult for two 
reasons, one that Mr. Watson mentioned. If information is 
shared, the likelihood of leaks is increased, and it is not 
just leaks that we have to worry about. Of course, you have to 
worry about moles. So there is a natural tendency to hoard 
intelligence in order to prevent it from getting into the wrong 
hands. That is very important. But what reinforces it is that, 
you know, knowledge is power. When you share your knowledge, 
you give up your power. If you give information to another 
agency which enables that other agency to score some 
intelligence coup, they are going to take the credit. This turf 
warfare in Government is very, very serious. I do not know that 
it can be solved by an organizational change.
    The problem is the remoteness of top officials from 
operating people. The National Intelligence Director, like a 
Cabinet member, whether he has a term of years or serves at the 
pleasure of the President, is likely to be a bird of passage. 
That is the fundamental problem in Government. The people at 
the top are people who are from other walks of life and they 
spend a few years in Government and they go back. Underneath 
are these career people who have the knowledge and have real 
career stakes in what they are doing. They often do not 
cooperate very well with the people at the top. This seems to 
me to be built into the structure of our Government where our 
top officials are not career people but very often come from 
completely unrelated walks of life. I do not know what the 
solution is. It may well be that there are organizational 
changes that would improve the situation.
    My basic concern is that the commission did not adequately 
analyze the problems, including the problem that you have just 
flagged.
    Senator Bond. Well, that is a real challenge. It seems to 
me that a lot of leaks come out of this place when too much 
information comes to Congress, too much information is too far 
up the line. It seems to me that sources and sometimes even 
methods ought to be kept very closely at the operating, 
collection and analysis level. The analysts need to know how 
they came up with the information. But I personally do not need 
to know or want to know the names of the agents or their inside 
contacts. You would get a rush if you learned somebody's name, 
but that is not information that really is helpful to us. We 
need to be looking at the analysis.
    Somehow we have got to overcome this bureaucratic jealousy 
and make them feel that they are all playing on the same team 
and that the team, if it is INR in the State Department, CIA, 
and DIA that come together and come up with a major solution, 
the recognition ought to go to that operating team. I believe 
that the Iraqi survey group worked in that manner in Iraq and 
found that the cross-agency collaboration at the operating 
level was very effective. I think we ought to find some way to 
get at that.
    But I would leave one other thought. When you are saying 
that the FBI should just be prosecuting crimes, as I recall, 
one of the big problems that we had prior to 9/11 was the 
artificial wall that was built up between criminal prosecution 
and investigation. Now, I do not think that even had that wall 
not been there, there would have been enough information to 
build the case to find the 19 hijackers, but certainly that 
artificial wall did keep FBI prosecutors from sharing 
information with counterterrorism investigators and with 
others. I think Mr. Watson is right. The criminal prosecutions 
sometimes can be very helpful in developing a broader 
intelligence picture. If you have any comments on my idea, I 
would welcome them.
    Judge Posner. That is certainly true. For one thing, some 
terrorists, of course, you would want to prosecute. You do not 
want to just spend your time watching them or harassing them or 
something like that. So there is always going to be a question 
of how a domestic intelligence function relates to the 
prosecutorial function. So in the United Kingdom, there is this 
MI5 domestic intelligence service, but it works with a special 
branch of Scotland Yard in prosecution of those terrorists whom 
they want to prosecute.
    Let me just go back to your point about the sharing. One of 
the points that Dr. Hamre made is that the commission seems to 
envisage a system in which most people in intelligence would 
actually be reporting to two masters. They would be under some 
kind of control of the National Intelligence Director, but they 
would also have their own agency bosses to report to. It seems 
to me that that is a very awkward situation in terms of 
encouraging sharing where, on the one hand, you are being 
tugged in one direction by the National Intelligence Director, 
but you may be tugged in an opposite direction because of the 
imperatives of the mission of the organization that actually 
employs you.
    Senator Bond. Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much, Judge Posner. We 
appreciate your coming in, as I said, that we will see to it 
you get a copy of all of our hearings.
    I note your recommendation to assign the war on drugs 
personnel to the war on terrorism. Since they have not won that 
war, I am not sure we want them to join another one. But there 
is merit in trying to at least take those who have been active 
against those terrorists who are involved in drugs to create a 
cash flow. We will look at that and see if something could be 
done along that line.
    We thank you very much for coming.
    Judge Posner. Well, thank you very much for very 
challenging questions.
    Chairman Stevens. We look forward to seeing you again 
sometime, sir. I hope. We appreciate very much your 
contribution.
    Judge Posner. Thank you very much, Senator.
    Chairman Stevens. My people have a question to ask you as 
you go out, Judge. It is just a simple, little question. It is 
a personal question. One of my people will ask you a question.
    John, as I look at you, I think back to the 1990's and I 
think about the times when there were reductions in the defense 
budget, and that invariably really reduced the manpower that we 
thought was excess to the Department of Defense. They did not 
cut back too much on troop strength, but they cut back on human 
intelligence. We had years there where we were not reaching out 
to develop human intelligence.
    I was thinking about that and realized when Senator 
Feinstein made her comment about the amount of money that goes 
to the intelligence community from the Department of Defense. 
About half of that is payroll and an additional part of it is 
in classified equipment that goes throughout the whole system. 
You know where it is. We know where it is. Some people want us 
to disclose it all, but if we did, we would be disclosing 
things that are in their infancy.
    I go back to the trips that Senator Inouye and I made when 
we, along with Senator Jackson, viewed the first concepts of 
stealth. At that time, it was even classified as to where we 
were. We had to go through different areas to get there. We 
were exposed to the 117, the B-2, so many things while they 
were in their infancy. A couple of things we were exposed to, 
even the Department wanted to shut them down and we said, no, 
we want them, the tilt rotor, the C-17.
    This concept of oversight by those people who are involved 
in the appropriations process who have to make the decisions in 
terms of what are the line items we approve and what do we cut 
back is something I think I recall Senator Stennis did before 
us. And his colleague was Milt Young for years. They built up 
an expertise in defense and intelligence that was unheralded at 
the time. Actually, like it or not, our longevity succeeds 
several Secretaries of Defense, several CIA Directors.
    And now the recommendation is that the appropriators be 
taken out of this process and that there be complete control in 
one committee of all of the processes, legislative, budget, and 
appropriations, and there at the same time be a czar of 
intelligence who would have control over the defense budget, as 
well as over all the budgets of any department or agency that 
has intelligence operations.
    Now, that staggers me, and I would like to have you say how 
it impacts you. You have probably as much experience in this 
town as anyone else from the executive side. You do not have 
our longevity, but you should be happy about that.
    Dr. Hamre. If I am lucky.
    Chairman Stevens. It strikes me that the people who are 
suggesting this really do not have enough experience to make 
those suggestions. What do you think?
    Dr. Hamre. Sir, from a starting point, our greatest problem 
when you are in senior levels in Government is getting too 
narrow a basis to make a decision. So we have to find ways to 
broaden our base of making decisions. I personally think you 
need to have multiple channels of perspective when the 
President makes a decision, and the way in which you ensure 
objectivity is that these different departments have to come up 
here and report to different committees in the Congress. There 
is a down side to it, of course, but it is overwhelmingly 
positive to have different perspectives that you are 
accountable to up here in Congress. So the notion that we are 
going to be better by getting a very narrow base of oversight 
is wrong in my view.
    I think oversight on Capitol Hill, frankly, is weak when it 
comes to a lot of these issues. It was weak when I was here. So 
I am not excusing myself. But I do not believe that the 
solution to it is again a structural solution, combining the 
authorization and appropriation process. I actually think there 
is strength if these two different processes work the way that 
they were intended to work.
    Now, my complaint is that over the last 20-25 years, all 
the authorizing committees feel that they are only powerful if 
they try to do what you do, and they have neglected what I 
think is the real base of their power and authority, which is 
to conduct policy oversight, the big picture, not the little 
pieces of the budget. Too much emphasis on oversight has 
drifted to budget detail. We need to have budget oversight. Do 
not get me wrong. That is what you do, what this committee 
does. But the other committees need to focus on the big 
picture, and they are not doing that. That is one problem. I do 
not think we solve our congressional oversight by combining 
authorization and appropriations processes.
    I think these committees up here now are getting too big, 
and since I am a wise and discreet individual, I will only talk 
about the House.
    There are 54 members on the House Armed Services Committee. 
All of the energy of the leadership is devoted to running the 
committee. You cannot do deliberation with a committee of 50. 
Have you ever testified over there in front of them? By the 
time you get through the second row, boy, you have run out of 
good questions, but you have not run out of questions.
    I say this and I am going to alienate all my friends. I 
have got a lot of friends still sitting behind all of you on 
the staff, and I used to be staff and I loved my time up here 
working. But the committee staffs are too big. I have said 
publicly cut the size of the staff in half and pay all of your 
staff twice as much. That would be good. That would get us to 
focus on big issues, and I think that is what Congress is 
supposed to be asking.
    Chairman Stevens. Senator Byrd has left, so I am going to 
ask the questions that he had intended to ask. It sort of 
touches the same area. He wanted to ask this question. He 
says--and I am quoting his statement now.
    ``I share your concerns about consolidating authorization 
and appropriations powers into a single committee. I sit on 
both the Appropriations and the Armed Services Committee, and 
the functions of each committee are necessary for stronger 
oversight. Could you elaborate on your opening statement, what 
are the dangers of consolidating authorizing and appropriations 
powers?
    ``There recently have been some discussions of creating a 
strong intelligence authorizing committee, along with a new 
intelligence appropriations subcommittee. What are the 
advantages and disadvantages to that?''
    That is his quote. I would add to it that yesterday it was 
suggested to me that perhaps there should be a separate 
committee for Homeland Security. If intelligence is going to 
have these kinds of powers, then the Homeland Security people 
want a separate committee for legislative and budget powers and 
a separate subcommittee for Homeland Security. What do you 
think about that?
    Dr. Hamre. A number of questions you posed, sir. Let me 
start in reverse order. The oversight structure for the 
Department of Homeland Security is a mess. The Department has 
to come up here and report to 88 different committees and 
subcommittees. It will never become a Department when it has to 
come up to so many different places.
    Now, the Appropriations Committee has done it the right 
way. You have designated subcommittees to handle it. I think 
that is exactly the right thing to do.
    I think there ought to be streamlining on the authorization 
side, and frankly, that has not occurred and I think the effort 
ought to be on trying to get a cleaner structure of the 
authorization oversight for the Department of Homeland 
Security. I think there are three logical categories. I think 
there are border issues. There are law enforcement issues, and 
there are intelligence issues. Let us start with the idea that 
we have got three different committees of oversight and then 
find out if we have to go beyond that. But we definitely need 
to change the oversight.
    I do not think that you would solve the problem that 
Homeland Security has by again creating a single omnibus 
committee that appropriates and authorizes. You ask, what is 
the risk if that were to happen? The risk is that we are not 
going to be doing both sides of the oversight function. We do 
need to oversee the spending of the Federal Government, but we 
also need to oversee the policies of the Federal Government. 
Right now, we are spending far too much time simply overseeing 
the budget. There needs to be more effort looking at the 
policies, the goals, the directions. How successful were you? 
We have given you x billions of dollars. What did we get out of 
it? How much safer are we? We spend far too much time every 
year looking at the little pieces of the inputs going into 
something, not the outcomes. And I think that that would be the 
great casualty if we were to do it.
    And then I frankly worry that we narrow the base of 
accountability to the public when we have smaller numbers of 
committees that oversee the function of the executive branch. 
Your duty, on behalf of me and every other American, is to ask 
all the hard questions and ensure they are out in the public. 
It is harder in the intelligence process, of course. We cannot 
afford to have a narrower base of perspective coming to 
oversight. I think we need a broader base of perspective. That 
is what I would worry about, sir.
    Chairman Stevens. Mr. Watson, we both have questions of 
you. One of the proposals that is coming forth now is the new 
director of intelligence, the NID, who would have operational 
control over those elements of the FBI that are involved in 
counterterrorism and counterintelligence. That would mean that 
the same people would be taking orders from the NID who are 
also subject to the control of the FBI Director.
    You have been involved in some of these things before. Do 
you believe the NID should be allowed to directly task FBI 
operational components, or should he ask the Director of the 
FBI to include specific assignments as he directs those 
components?
    Mr. Watson. Senator Stevens, the answer to that question is 
that in no way should the NID have operational control over any 
aspect of the FBI. Where I come out on this is that the NID 
should figure out the priorities for the counterterrorism 
program inside and outside the United States and task the 
agencies to identify the gaps and work on the priorities. That 
would be passed back to the operational entities within the 
Government. So if the NID wanted to know what is Hizbollah or 
Hamas doing in the United States, that task should be asked of 
the FBI, and the FBI should direct the right, appropriate 
resources to carry out that function and report back the 
results of that.
    Chairman Stevens. But under this proposal, NID has control 
of the money and he would give the money to that portion of the 
FBI that he controlled. It would be under the NID's control not 
under the FBI's control.
    Mr. Watson. I think it would be wise--and Dr. Hamre is a 
lot more familiar with the budget process than I am--for them 
to coordinate and unify the budget request but, at the same 
time, have no direct control over what monies or how they are 
spent.
    That brings up an interesting question about reprogramming 
that has not been addressed or looked at, but that was a very 
difficult process for us in the FBI. We really wanted to get 
more analysts to work counterterrorism, but they were 
appropriated under the drug program. Trying to reprogram those 
individuals out of drugs back into counterterrorism or into 
counterintelligence was a difficult process.
    But to answer your question, operational control should 
rest with the CIA. It should rest with FBI or any organization 
that has that mission and function on the broad base of things. 
Tasking, though, being able to request or order the FBI to 
gather taskings on identified priorities, I see nothing wrong 
with that. Control of the budget, though, certainly that gets 
into a fuzzy math area again about what is counterterrorism 
money as opposed to what the FBI does in Indian territory 
investigative matters or guards around the building at DOD. Are 
those counterterrorism funds or are they general funds for DOD?
    So those are my answers to those questions. No NID 
operational control and the money should be retained but 
certainly coordinated with the NID.
    Chairman Stevens. Well, I have expressed the worry that 
those who are assigned to the functions that would be under the 
control of the NID would have less success in terms of upward 
mobility within the FBI itself, that they would not be part of 
the varied assignments that FBI people now get in various 
portions of the FBI. If they are assigned to counterterrorism 
and counterintelligence, that would limit their career 
progression. For the rest of the FBI, in terms of law 
enforcement and all the things we do in terms of overseas 
activities, the FBI would not be subject to this control. So it 
puts a portion of the FBI under the direct control of another 
entity in terms of both money and personnel and total 
assignments, and yet, they are still FBI. I think that is 
limiting as far as those people who end up in that section.
    Do you agree with that?
    Mr. Watson. I think if you go back and look at the history 
of FBI agents being detailed to other agencies around this town 
in Government, that was always a career-killer in the past. If 
you pulled a detailed assignment somewhere else, that was 
viewed by your home organization basically as, well, you are 
out of mind, out of sight, and we are going to promote people 
that are here.
    That started to change with Bear Bryant back in 1996 when I 
was tasked and I fought tooth and nail not to go over to the 
agency at CTC as the deputy operational chief because of that 
main concern. I think that is changing, and I think that 
continues to change. I think what the Director and Mobaganski 
and John Pistole are trying to do at this point in time is to 
make that a career-enhancing move. I do not see how the head of 
the FBI's Counterterrorism Division in the future or the 
Executive Assistant Director for Counterterrorism and 
Counterintelligence could really perform that function without 
a detailed assignment either to the agency to some other 
organization outside the FBI, because it gives you a 
perspective that you will never get anywhere else.
    Chairman Stevens. Senator Inouye.
    Senator Inouye. Dr. Hamre, the commission recommends 
creating a National Intelligence Director and either a joint 
committee or committees with both authorizing and appropriating 
powers. For some reason, the senior members of the 
Appropriations Committee in the Senate--I cannot speak for the 
House--were never contacted by any member of the commission. 
And on that commission, there are two former very senior 
Members of the United States Senate who are rather 
knowledgeable about the process. They should have known, for 
example, that the Select Committee on Intelligence maintains a 
separate secure tank, in addition to 407. We are constantly 
involved in overseeing activities.
    Doctor, Judge Posner has suggested that with the 
commission's recommendation, you may have an ``over-
concentration of the risk'', citing for example that at the 
present time the concentration is on Islamic terrorism. Is that 
a valid concern?
    Dr. Hamre. I think very much so. I think people say we are 
at war with terrorism. Well, we are, but we have got a lot of 
wars going on. We are not free from the classic security 
challenges across the Taiwan Straits. We have got a serious 
proliferation problem in North Korea. We have got a marrying up 
of basic criminality and terrorists in the Balkans. We have got 
serious proliferation of chemical and biological technology 
around. We have got lots of problems, and to take and orient 
the entire intelligence community around one of them is, I 
think, a mistake because then somebody is going to point a 
finger if we drop the ball and get too preoccupied.
    And we got too preoccupied in the cold war. Let us face it. 
The problem was the cold war ended 15 years ago, and we did not 
change adequately and quickly enough to look at a broader range 
of things. Our satellites were oriented around it. Our 
listening posts were oriented around it, et cetera. We have got 
to be far more dynamic and flexible, but we certainly should 
not be organizing the entire community around one of the wars 
that we have to fight.
    Senator Inouye. Mr. Watson, do you agree with that?
    Mr. Watson. Yes, sir, I sure do. I totally agree. I think 
that the focus now is on counterterrorism, but as I said in the 
statement, Senator, I think if we can get this right, certainly 
we can focus at the same time with WMD. I think that is the 
threat of the future, the proliferation issue and the WMD 
issue. As we worry about attacks in CT, sometimes I get a 
feeling we are kind of overlooking that. So I agree with Dr. 
Hamre.
    Senator Inouye. If my recollection is correct, the NID has 
the authority to set the budget but also to hire and fire. Is 
that correct?
    Dr. Hamre. Hiring and firing of senior people. It is not 
clear how far down that hire/fire authority would go, but it 
certainly would be to the senior people in the departments.
    Senator Inouye. Should that extend to the military also?
    Dr. Hamre. Well, I do not think that is a good idea, 
period. I mean, if I were the Secretary of Defense and I had a 
combat support agency and I knew that the leadership of that 
agency was controlled by somebody outside of the Department, I 
do not think that is a good formula. I think that is a bad 
idea.
    Certainly these are combat support agencies and they do 
involve military personnel. We do assign military personnel to 
work in non-DOD agencies and the evaluation of their 
performance goes to that agency. But we do not alienate our 
control over those individuals, and I do not think we should. 
We are going to have to continue to have an intelligence 
community that has very strong interconnections between the 
military and the civilian operations, day in and day out.
    Chairman Stevens. Would you yield there? I am informed that 
40 percent of the money spent on intelligence is for that 
purpose, for the uniformed personnel who are designated and 
assigned throughout the other agencies, but they are still 
military personnel and their future is in the Department of 
Defense, not in the agency that they are temporarily assigned 
to.
    Dr. Hamre. I do not know the precise percent, but it does 
not surprise me. That sounds logical.
    And you do not want to change that. We cannot afford to 
reproduce the intelligence capabilities in these national 
agencies and just bring them into DOD again. We cannot afford 
to do it twice. We ought to have them integrated. But that 
means then you just cannot take DOD out of the picture either.
    Senator Inouye. Mr. Watson, one of the recommendations 
called for the establishment of national intelligence centers. 
I have done some research, and I find that at the present time 
we have a whole bunch of these national centers: Weapons 
Intelligence and Nonproliferation and Arms Control Center, a 
Counterterrorist Center, the Crime and Narcotics Center, an 
Infrastructure Protection Center, the National Drug 
Intelligence Center, the El Paso Intelligence Center, 
Directorate of MASINT and Technical Collection, the Terrorist 
Threat Integration Center, a Terrorist Screening Center, and 
the National Virtual Translation Center.
    Are these current national centers not sufficiently 
empowered to carry out their mission or are they underutilized?
    Mr. Watson. I think the list that you read off are centers 
that were specifically designed for a specific project or 
tasking. TTIC, obviously, was one that you listed. I think the 
National Counterterrorism Center would be a function very 
similar to TTIC. The National Infrastructure Protection Center 
was a center set up to try to focus the efforts on 
infrastructure protection, as well as cyber. They all work, 
some better than others, and that is a tendency in this town 
to, if you really do not quite understand all the issues or a 
problem, that you form up a center. It is almost like 
appointing a committee to study a problem. You are really 
admitting that you do not know what in the world to do. That is 
usually good for 6 to 9 months of time, and you come up here to 
the Hill and you say, yes, we have a committee looking into 
that.
    Those centers function. I think they have some value added, 
but if we are looking at the national intelligence, the NID, 
and a National Center for Counterterrorism, I think you need 
that sort of focus and if you need to task back, you would task 
these centers.
    Dr. Hamre. May I comment on that, Senator?
    Chairman Stevens. May I interrupt, Senator? I unfortunately 
have to go. You were in attendance at the dedication of the 
museum yesterday. I did not get a chance to meet my people who 
were with you because we had hearings.
    Senator Inouye. There were a whole bunch of them.
    Chairman Stevens. So I will have to leave, but I think 
Senator Cochran and Senator Bennett would like to ask some 
questions as soon as you are finished, if you would. Will you 
just make that statement when we finish, please? Thank you very 
much.
    Dr. Hamre. Senator, just to say, in the DOD world, the 
analog to these centers are joint task forces. We set up joint 
task forces in DOD all the time, and they are very useful 
organizational structures because they are able to reach into 
the military departments, pull together a tailored set of 
capabilities, and use them for a particular assignment or a 
particular need.
    I think what they are recommending is an analogous 
situation in the intelligence community. I think that is 
probably a good idea. These centers are useful only really to 
the extent that they can draw on the depth and the breadth of 
the underlying institutions. So the centers are not a 
substitute for competence in the underlying institutions, but 
they can be a very powerful tool for bringing the best out of 
them for special projects or special needs.
    So I actually think this was a dimension to the 9/11 
recommendation. It is not a bad one. I think this idea is 
probably good. You just have to keep them from becoming 
artificial.
    Senator Inouye [presiding]. The final question. I think all 
agree that if the people who are working on certain missions 
are happy, enthusiastic, and committed, they will do a good 
job--in other words, if the morale is high. Will the 
organizational, structural reform have any impact upon the 
morale of the personnel now serving us?
    Mr. Watson. If you are speaking about the morale of FBI 
agents working in field offices and resident agencies, I think 
that will not change whether there is an NID or whether there 
is a National Counterterrorism Center. Men and women and the 
professional staff are extremely proud of what they do and how 
they do it and need very little look-back to Washington for 
their gratification to do that. So I think the morale will stay 
very high, and I do not think that is a real issue for the 
bureau.
    Dr. Hamre. I agree with that basic statement. I would say 
this, though, that organizations take on the chaos if the 
leadership is confused or diverted. There is going to be a 
great deal of leadership chaos that is going to come through a 
massive redesign. Look what we have had in Homeland Security. 
That has a debilitating quality down in the field. Most of 
these people go to work every day so glad they are not in 
Washington and they want to do their job and they are proud of 
what they are doing and they know it is important. They are 
committed to working with others. They are frustrated sometimes 
by the bureaucracy and the systems we give them, but they are 
working hard every day. But if we create a lot of chaos in the 
leadership ranks--and frankly, that is going to flow here from 
a major redesign--that is going to be problematic. That will 
have an indirect affect on morale.
    Senator Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Thank you.
    I am concerned that we may get so involved and wrapped up 
in the nuances of the recommendation for reorganizing that we 
forget that there are some other unmet needs out there that may 
be more important. I notice that Mr. Watson has in his 
background some overseas investigations, the Cole bombing, the 
Khobar Towers, other activities that were very complicated and 
needed staffing and resources to get to the bottom of what 
happened and who was responsible and what could we do to 
prevent events in the future and maybe even, hopefully, bring 
to justice those who were responsible.
    Could you identify some of the highest priorities? I am 
assuming we are going to continue to appropriate dollars for 
most of these activities. I cannot imagine this committee being 
deprived of that responsibility. Now, I could be wrong and we 
may have to vote on it. Language competence, training in 
techniques and technologies, equipment that may be needed, what 
are the higher priorities, as you may see them, Mr. Watson, 
with respect to counterterrorism activity?
    Mr. Watson. Senator, I am not real comfortable commenting 
on what the priorities are today, but I think you have hit the 
main ones. I think the Trilogy, or the automation process, I 
know the bureau is working on that, and I think they continue 
to need support in that area. But it is a little bit outside of 
my expertise at this point.
    I will tell you, though, that you raised a very good point, 
and in the rush to whatever we are going to do or whatever the 
country is going to do on the intelligence side, it is not a 
negative to talk about having a strong capability to react to 
something bad that happens. You need a corps of people that can 
go in and figure out who did this, how they did this, and why 
they did this. At the same time, you need a corps of people to 
try to figure out how can you be proactive to prevent the next 
one or look at those two different balancing acts.
    I would be very cautious about in any way reducing that 
capability of being able to figure out who did what to us when, 
and the FBI does a tremendous job, along with other Government 
agencies, to try to resolve that. If you reflect back to the 
Pan Am 103 bombing, initially the rush was that there was 
somebody else that did that, and through hard work and 
investigative efforts, it was very clearly pointed out that the 
people we first thought did it in fact had nothing to do with 
it. So you need that capability and you need to fund that 
capability and you need to support that capability, but that is 
not what they should be focused on. I mean, it should be in the 
proactive area. It is a very good question, Senator.
    Senator Cochran. Dr. Hamre, what is your reaction to that?
    Dr. Hamre. Well, sir, I personally think the largest unmet 
need or problem that we have is the gap in our consciousness 
between foreign and domestic. We know we have got that problem 
here and we have got to work through that.
    But frankly, we have got that problem overseas as well. We 
tend not to look at criminality overseas as a national security 
threat and an intelligence threat, and it is. We know the 
terrorists use criminal networks as their logistics backbone. 
They do it in South America. They do it in the Balkans. They do 
it in Afghanistan. They do it in Iraq. And yet, that falls in 
different categories within our own organizations here. I hate 
to say it but my dear friends in DOD do not tend to care much 
about criminality overseas even though it is the backbone that 
is carrying the very guys that are shooting at them. They 
default to the law enforcement community for that.
    That is a big thing we need to start focusing on. We really 
do need to integrate our perspective on how these networks, 
especially in a transnational era like we have now, really 
support each other. I think that is a need. That has fallen 
through the cracks. I really would welcome your attention to 
something like that.
    Senator Cochran. Thank you very much.
    Senator Inouye. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you very much.
    Dr. Hamre, it is good to see you, good to hear from you, 
and you know of my affection and respect for you.
    The dilemma I find myself in--I serve on the Governmental 
Affairs Committee, so I should be at the markup today marking 
up the bill. But instead, I am here because here is the 
dilemma.
    The current chairman of the Senate Intelligence Committee, 
Pat Roberts, for whom I have enormous respect, has made a very 
strong recommendation about the powers of the NID. And by the 
way, I think that is a terrible acronym. It sounds like Dr. 
Seuss.
    The NID wants this and the NID wants that. I much would 
prefer that you use the DNI. It sounds much more dignified.
    But anyway, Senator Roberts is very firm about authority 
for the DNI that he wants to expand, and he is supported in his 
position by the immediate predecessor in that position, Senator 
Graham, a Democrat, and his immediate predecessor in that 
position, Senator Shelby, and his immediate predecessor in that 
position, Senator Specter. For me, that is very powerful 
medicine to have all four of the chairmen of the Select 
Committee on Intelligence saying this is what we ought to do, 
and I so voted in that committee.
    At the same time, Senator Stevens and you, for whom I have 
equal respect and affection, are saying it is a terrible idea 
and we should not possibly do it. The one thing that I come 
down on with you and Senator Stevens that puts me at odds with 
the President is that we probably ought not to be making this 
decision this fast and in this atmosphere. There is political 
hay to be made by stepping forward and saying, I am the one 
championing the 9/11 recommendations and we must do these 
immediately and then the political reaction to that is, well, I 
will do it faster than you could do it and I will get the 
political benefit of saying we can do this immediately.
    I am very nervous about doing this immediately. I would 
like to see Senators Roberts, Graham, Shelby, and Specter sit 
down in the same room with Senators Stevens, Inouye, Warner, 
and Levin and see if we can resolve this.
    You make reference in your testimony to the fact that the 
Department of Homeland Security is a mess. Of course it is a 
mess. When I voted for it, I said this will not work for at 
least 5 years. I was present, if you will, at the creation of 
the Department of Transportation, which is a piece of cake 
compared to Homeland Security. I was in the Nixon 
administration and we took over after 18 months. It was created 
by Joe Califano in the Johnson administration. It was in total 
disarray, and I do not say that to criticize the Johnson 
administration. That is just the way it was. It was not working 
when I left 2 years later as well as it needed to. It was 
working substantially better, but that was 3\1/2\ years later.
    It is basically the same thing with Homeland Security. We 
took the Coast Guard out of the Treasury, we took the FAA as an 
independent agency, we took highways out of Commerce, we took 
urban mass transit out of HUD, and we pasted them all together 
in a Department which on paper looked terrific. And the 
bureaucratic initiative, being what it is, it took them 3\1/2\ 
years and frankly superb leadership by John Volpe and Jim Beggs 
to make that thing begin to work. And Homeland Security was 
much more difficult than that, which is why I predicted it 
would take 5 years before it would begin to work.
    The Department of Defense, created in 1947, was a 
sufficient challenge that the first Secretary of Defense 
committed suicide. Now, I do not think that is necessarily 
directly related--but obviously, the problems of bringing all 
of this together contributed to it.
    So I am willing to break with the President and say let us 
not do this before the election. I know he wants a signing 
ceremony in the Rose Garden prior to the election, and I know 
that if he does not get it, Senator Kerry will attack him. But 
there are times when you have to do the right thing, and it 
seems to me to do the right thing is to go a little slow on 
this one.
    All right. Having made that overall speech, let me go to 
your comment. In your statement, you say the 9/11 failure maybe 
was not as big a failure as the commission liked to make us 
think it was.
    Dr. Hamre. Intelligence failure.
    Senator Bennett. Intelligence failure. And you talk about 
the other challenges we face, Taiwan, Bosnia, North Korea, et 
cetera.
    It seems to me the biggest challenge we face, however, 
stems from our unique position, unique to us, if it is not 
unique in history, as the world's only hyper-power and what we 
call the asymmetrical threat, or in more traditional terms, 
guerrilla war. We are very fortunate that the Soviet Union, 
when it collapsed, did not decide to engage in guerrilla war, 
just as we are enormously fortunate that when the Civil War 
ended, Robert E. Lee said, no more war, and he had the stature 
to see to it that the Confederacy did not melt into the hills 
and conduct decades-long guerrilla war against the Union, which 
they probably could have sustained and which would have been 
disastrous for the Union and for, of course, the other side. 
The interesting and tragic thing about guerrilla war is that it 
hurts the guerrillas every bit as much as it hurts the power 
they are going after.
    But the asymmetrical threat I think is just another way of 
talking about guerrilla war, and we are faced with it on an 
international scale to a degree that no civilized nation has 
ever been faced with it. It is primarily an intelligence war. 
It is one where the Defense Department, no matter how powerful, 
is more or less helpless.
    Step back from your testimony here, step back from the 
controversy over the NID, and share with us your long-term, 
overall big-picture view as the President and CEO of one of the 
most respected outfits in town, the long-term prospects of 
fighting guerrilla war, basically an intelligence war, and how 
our overall intelligence capacity should be structured and 
directed.
    Dr. Hamre. Sir, these are the key questions, and I am 
grateful that you have raised them and frankly think that this 
ought to be the subject of extended discussion both in private 
sessions and in public sessions in the Congress. I hope you do 
that.
    In my view, the great problem we faced at the end of World 
War II were two big challenges. It was the rise of 
international communism and the collapse of the old political 
order that all of a sudden put lots of countries out into the 
international system, the old colonies, and we wanted to make 
sure they did not fall under the sway of communism. So we 
designed a strategy to deal with that.
    So if I step back and say what the truly great strategic 
challenges we face right now are, I think it is a combination 
of four things.
    It is the residue of all the weapons of mass destruction 
and the knowledge about them that is left over from the cold 
war, the stocks of stuff, and nuclear is being neglected. 
Nuclear is still overwhelmingly the greatest problem.
    Second, it is the rise of these transnational organizations 
like al Qaeda that are willing and capable of operating in ways 
that in the past just did not exist.
    Third, it is the irresponsible or incompetent nations that 
will give harbor to these organizations.
    And fourth, it is the nature of very transparent commerce 
and transportation of this age. Things move so quickly across 
borders.
    It is those four things in combination.
    Senator Bennett. The fourth is the vulnerability.
    Dr. Hamre. It is the vulnerability of an open society and 
the way we have lowered the barriers to movement. You know, 
when you go across Europe, you do not stop at a border. SARS 
shows up in one hotel in Hong Kong, and in 3 days it is in 14 
countries. This is the nature of today's society. It is those 
four things together that represent the central challenge.
    The centerpiece of coping with that is not going to be the 
military. I agree with that. I think the centerpiece of dealing 
with this complex new strategic national problem is going to be 
in the intelligence community.
    Second, it has to be an intelligence community that has 
close and constructive relations with other intelligence 
organizations around the world. And by the way, one of the 
neglected worries I have about this debate is the way all of 
the liaison intelligence organizations around the world are 
scared to death that we are going to botch this. They are used 
to having good, constructive ties with the intelligence 
community, and they are scared to death of the way we are going 
to reorganize here and undermine a lot of that. So just quietly 
ask a few of those questions while you are in this process, 
sir.
    Third, in all honesty, we have got to strike a balance 
between shooting the bad guys now and draining the swamp to get 
rid of alligators in the long run. That means we have got to 
put just as much focus on trying to soak up all the loose nukes 
in the world as we do on interdicting the movement of them. 
Both of them are indispensable functions. Unfortunately, we 
have got some people that only want to do arms control 
treaties, and we have gone some people who only want to stop 
ships on the high sea. We have got to do them both if we are 
going to cope with this.
    But it all comes down to how good your intelligence 
capabilities are and having constructive relationships with all 
the other intelligence and law enforcement organizations around 
the world that are willing to share our vision. This is our 
central shared problem. The Spanish have this problem. They had 
it in Madrid and in Europe. I cannot figure out why that did 
not transform European thinking about this problem. I think it 
was convenient to fall back and hide behind their hatred on our 
posture in Iraq as a substitute in the near term.
    So we have to develop this global perception and we have to 
have highly effective coordination of very competent 
intelligence organizations to help us maximize how we are going 
to react and try to stay ahead of this very pernicious threat 
that moves all around us and can tap into these very dangerous 
weapons. That is the threat that is going to be with me for the 
rest of my life, I fear. We hope we can win like we did the 
cold war. We did not know we were going to win that in 50 years 
when we started. I do not know when we are going to win this 
war, but we sure cannot back away.
    So this is why I am so worried about fracturing the system 
and introducing such chaos. You talked about 3\1/2\ years of 
organizing the Transportation Department. Of course, that is 
extremely important. But every day we are at war in the 
intelligence world. Every day. Introducing a lot of chaos right 
now is dangerous frankly. That is why I think I agree with you 
completely. We should take the time to make sure we all 
understand what is going on here and then make a wise choice, 
not rush into it in the white-hot politics of a close 
Presidential election. There is a lot of risk here, sir, and 
that is why I think your bottom line, let us take the time to 
get this right, is by far the most important caution for all of 
us.
    Senator Bennett. My only other question is if the NID is in 
fact created, would you be available?
    You do not have to answer that. But that demonstrates my 
regard for you.

                         CONCLUSION OF HEARINGS

    Senator Inouye. On behalf of the Chair and on behalf of the 
committee, I say that we heard some excellent testimony this 
morning on the matter of intelligence reform. We appreciate the 
witnesses appearing before this committee and we value your 
candor, your knowledge, and your insights on the important 
subject. My only regret is that all of our members were not 
here, but as you are aware, we have many other conflicting 
assignments. But we will print the transcript and it will be 
shared with all the members of the committee.
    So once again, I thank you very much, and the hearing is 
recessed.
    [Whereupon, at 12:13 p.m., Wednesday, September 22, the 
hearings were concluded, and the committee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
